\

APPENDIX
A

a

r

Hmteb Hbtateb Court of Appeals;
for tlje Jffftf) Circuit

United States Court of Appeals
Fifth Circuit

FILED
April 6, 2021

No. 19-40277
Summary Calendar .

Lyle W. Cayce
Clerk

Rafael Verdejo Ruiz,
Petitioner—Appellant,
versus
Derek Edge, Warden^ Federal Correctional Institution^ Texarkana,
Respondent—Appellee.

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 5:18-CV-22

Before Davis, Stewart, and Dennis, Circuit Judges.
Per Curiam:*
Rafael Verdejo Ruiz, federal prisoner # 17670-035, appeals the
dismissal of his 28 U.S.C. § 2241 petition as procedurally barred. Ruiz filed
the § 2241 petition to challenge his military court convictions and sentences
for rape of a person between the ages of 12 and 16; carnal knowledge with a

* Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

No. 19-40277

person between the ages of 12 and 16; and sodomy of a person between the
ages of 12 and 16. The district court dismissed the petition based on its
determination that Ruiz failed to exhaust the following § 2241 claims in the
military courts: (1) Ruiz’s constitutional rights were violated by the trial
court’s failure to instruct the jurors on the Government’s burden to disprove
the affirmative defense of mistake as to the victim ’ s age beyond a reasonable
doubt; (2) Ruiz’s adjudged sentence is not being honored thereby causing his
approved sentence to be enhanced; (3) trial counsel rendered ineffective
assistance by not objecting to the issues raised in claims one and two; (4)
appellate counsel rendered ineffective assistance by not raising issues one and
two on appeal; and (5) appellate counsel rendered ineffective assistance with
respect to Ruiz’s supplemental assignment of error with the Air Force Court
of Criminal Appeals in which he sought to raise ineffective assistance of trial
counsel claims. On appeal, Ruiz contends that he established cause and
prejudice to excuse the procedural default of those claims. He further
contends that the district court abused its discretion in dismissing his § 2241
petition without conducting an evidentiary hearing.
Federal courts have jurisdiction pursuant to § 2241 over petitions for
habeas corpus filed by individuals challenging military convictions. See Burns
v. Wilson, 346 U.S. 137,139 (1953). Before a petitioner convicted in military
court raises habeas claims before this court, he must exhaust his military
remedies. See Fletcher v. Outlaw, 578 F.3d 274, 276-77 (5th Cir. 2009);
Wickham v. Hall, 706 F.2d 713, 715 (5th Cir. 1983) (citing Schlesinger v.
Councilman, 420 U.S. 738, 758 (1975)). A district court’s dismissal of a
§ 2241 petition for failure to satisfy the exhaustion requirement is reviewed
for an abuse of discretion. Fuller v. Rich, 11 F.3d 61, 62 (5th Cir. 1994).
Based on our review of the record and submissions, we are
unpersuaded that Ruiz demonstrated an excuse for the procedural default of
his claims based on ineffectiveness of appellate counsel, see Murray v. Carrier,

2

No. 19-40277

477 U.S. 478, 488 (1986), the purported loss of his trial record, see Saahir v.
Collins, 956 F.2d 115, 118 (5th Cir. 1992), actual innocence, see Reed v.
Stephens* 739 F.3d 753, 767 (5th Cir. 2014), or Martinez v. Ryan, 566 U.S. 1,
16-17 (2012). We are likewise unpersuaded by Ruiz’s arguments regarding
the forfeiture component of his sentence. See 10 U.S.C. § 858b.
Accordingly, Ruiz has failed to show that the district court abused its
discretion in dismissing his § 2241 petition for failure to exhaust his military
remedies without conducting an evidentiary hearing. See Fletcher, 578 F.3d
at 276-77; Fuller, 11 F.3d at 62; United States v. Bartholomew, 974 F.2d 39, 41
(5th Cir. 1992).
We will not review the plethora of new claims Ruiz has raised for the
first time in the many briefs and motions he has filed before this court. See
Fillingham v. United States, 867 F.3d 531, 539 (5th Cir. 2017). Accordingly,
the district court’s dismissal of Ruiz’s § 2241 petition is AFFIRMED. With
the exception of Ruiz’s motion to supplement his reply brief, which is
GRANTED, all outstanding motions are DENIED.

3

APPENDIX
B

UNITED STATES v. Technical Sergeant RAFAEL VERDEJO-RUIZ. United States Air Force
UNITED STATES AIR FORCE COURT OF CRIMINAL APPEALS
2013 CCA LEXIS 680
ACM 37957
July 18, 2013, Decided
Notice:
THIS OPINION IS SUBJECT TO EDITORIAL CORRECTION BEFORE FINAL RELEASE.
Editorial Information: Subsequent History
Motion granted by United States v. Verdeio-Ruiz. 73 M.J. 45, 2013 CAAF LEXIS 1048 (C.A.A.F., Sept.
9, 2013)Review dismissed by, Without prejudice, Motion granted by, Motion denied by, As moot United
States v. Verdeio-Ruiz. 2013 CAAF LEXIS 1335 (C.A.A.F., Nov. 12, 2013)Decision reached on appeal
by, On reconsideration by United States v. Verdeio-Ruiz. 2014 CCA LEXIS 607 (A.F.C.C.A., Aug. 14,
2014)Review denied by United States v. Verdeio-Ruiz, 74 M.J. 328, 2015 CAAF LEXIS 902 (C.A.A.F.,
Mar. 26, 2015)Magistrate's recommendation at, Habeas corpus proceeding at Ruiz v. Warden Edge,
2018 U.S. Dist. LEXIS 222281 (E.D. Tex., Dec. 13, 2018)
Editorial Information: Prior History
Sentence adjudged 25 February 2011 by GCM convened at Tyndall Air Force Base, Florida. Military
Judge: W. Thomas Cumbie. Approved Sentence: Dishonorable discharge, confinement for 25 years, and
reduction to E-1.
For the Appellant: Major Shane A. McCammon (argued); Major Scott W.

Counsel
Medlyn.

For the United States: Major Daniel J. Breen (argued); Colonel .
Don M. Christensen; Lieutenant Colonel C. Taylor Smith; and Gerald R. Bruce, Esquire.
Judges: Before GREGORY, HARNEY, and SOYBEL, Appellate Military Judges.
CASE SUMMARYServicemember’s confession to sexual conduct with a child was voluntary and thus
properly admitted since investigators' promises not to reveal the conduct to his wife were not promises to
keep his statements in confidence, and a prohibition of visitation by the servicemember's children did not
constitute cruel and unusual punishment.
OVERVIEW: HOLDINGS: [1]-A servicemember's confession to sexual conduct with a child was voluntary
and thus properly admitted since investigators' promises not to reveal the conduct to his wife were not
promises to keep his statements in confidence, the servicemember was advised that the statements
could be used against him at trial, and there was no evidence of any coercion; [2]-A specification
charging the servicemember with indecent acts upon a child under Unif. Code Mil. Justice art. 134, 10
U.S.C.S. § 934, failed to allege the terminal element that the conduct was prejudicial to good order and
discipline or service discrediting, and nothing in the record provided any notice of the element; [3]-A
prohibition of visitation by the servicemember's children did not constitute cruel and unusual punishment

milcase

1

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

since the partial restriction was in accordance with brig rules concerning child sex offenders.
OUTCOME: Findings set aside in part and affirmed in part, and sentence affirmed.
LexisNexis Headnotes
Military & Veterans Law > Military Justice > Motions > Suppression
Military & Veterans Law > Military Justice > Evidence > Admissions & Confessions
Military & Veterans Law > Military Justice > Appeals & Reviews > Standards of Review
A military appellate court reviews a military judge’s ruling on a motion to suppress for an abuse of
discretion. Whether a confession was voluntary is a question of law that the court reviews de novo. A
military judge's findings of fact are reviewed for clear error.
Military & Veterans Law > Military Justice > Evidence > Admissions & Confessions
A servicemember’s confession is involuntary, and thus inadmissible, if it was obtained in violation of the
self-incrimination privilege or due process clause of the Fifth Amendment to the Constitution of the
United States, Unif. Code Mil. Justice art. 31,10 U.S.C.S. § 831, or through the use of coercion, unlawful
influence, or unlawful inducement. The prosecution bears the burden of establishing a voluntary
confession by a preponderance of the evidence.
Military & Veterans Law > Military Justice > Evidence > Admissions & Confessions
To determine the lawfulness of a confession, a military appellate court must examine the totality of the
surrounding circumstances. In assessing whether a servicemember's will was over-borne in a particular
case, the court assesses the totality of all the surrounding circumstances-both the characteristics of the
accused and the details of the interrogation. Some factors taken into account in determining
voluntariness have included the youth of the servicemember, his lack of education, his low intelligence,
the lack of advice on his constitutional rights, the length of detention, the repeated and prolonged nature
of the questioning, and the use of physical punishment such as the deprivation of food or sleep. The
court must determine the factual circumstances surrounding the confession, assess the psychological
impact on the servicemember, and evaluate the legal significance of how the servicemember reacted.
Military & Veterans Law > Military Justice > Evidence > Admissions & Confessions
Military & Veterans Law > Military Justice > Appeals & Reviews > Standards of Review
If a servicemember's confession is found involuntary, a military appellate court must set aside the
conviction unless it is determined that the error in admitting the confession was harmless beyond a
reasonable doubt.
Military & Veterans Law > Military Justice > Evidence > Admissions & Confessions
Promises are considered only a factor in the equation; they are not of themselves determinative of
involuntariness of a servicemember’s confession.
Military & Veterans Law > Military Justice > Evidence > Weight & Sufficiency
Military & Veterans Law > Military Justice > Appeals & Reviews > Standards of Review
Under Unif. Code Mil. Justice art. 66(c), 10 U.S.C.S. § 866(c), a military appellate court reviews issues of

milcase

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

legal and factual sufficiency de novo. The test for factual sufficiency is whether, after weighing the
evidence in the record of trial and making allowances for not having personally observed the witnesses,
the court is itself convinced of a servicemember's guilt beyond a reasonable doubt. Review of the
evidence is limited to the entire record, which includes only the evidence admitted at trial and exposed to
the crucible of cross-examination. § 866(c).
Military & Veterans Law > Military Offenses > General Article > Categories of Offenses > General
Overview
Military & Veterans Law > Military Justice > Pretrial Proceedings > Charges
Notice of the terminal element of an offense under Unif. Code Mil. Justice art. 134, 10 U.S.C.S. § 934,
i.e., that conduct is prejudicial to good order and discipline or service-discrediting, is an essential part of
due process as a servicemember must know and fully understand the offenses against which he must
defend.
Military & Veterans Law > Military Justice > Appeals & Reviews > Standards of Review
The law requires a military appellate court to evaluate the fairness of a servicemember’s trial using the
cumulative error doctrine. The court is required to evaluate the errors against the background of the case
as a whole, paying particular weight to factors such as: the nature and number of the errors committed;
their interrelationship, if any, and combined effect; how the trial court dealt with the errors as they arose
(including the efficacy of any remedial efforts); and the strength of the government's case.
Constitutional Law > Bill of Rights > Fundamental Rights > Criminal Process > Cruel & Unusual
Punishment
Military & Veterans Law > Military Justice > Sentencing > Cruel & Unusual Punishment
Military & Veterans Law > Military Justice > Appeals & Reviews > Standards of Review
A military appellate court reviews de novo whether alleged facts constitute cruel and unusual
punishment. The Eighth Amendment prohibits two types of punishments: (1) those incompatible with the
evolving standards of decency that mark the progress of a maturing society; or (2) those which involve
the unnecessary and wanton infliction of pain.
Constitutional Law > Bill of Rights > Fundamental Rights > Criminal Process > Cruel & Unusual
Punishment
Military & Veterans Law > Military Justice > Sentencing > Cruel & Unusual Punishment
A violation of the Eighth Amendment is shown by demonstrating: (1) an objectively, sufficiently serious
act or omission resulting in the denial of necessities; (2) a culpable state of mind on the part of prison
officials amounting to deliberate indifference to a servicemember's health and safety; and (3) that the
servicemember has exhausted the prisoner-grievance system and that he has petitioned for relief under
Unif. Code Mil. Justice art. 138, 10 U.S.C.S. § 938.
Military & Veterans Law > Military Justice > Sentencing > General Overview
Military & Veterans Law > Military Justice > Appeals & Reviews > Standards of Review
Before reassessing a sentence, A military appellate court must be confident that, absent any error, the
sentence adjudged would have been of at least a certain severity. Ultimately, a sentence can be
reassessed only if the court confidently can discern the extent of the error's effect on the sentencing
authority's decision. If the court cannot determine that the sentence would have been at least of a certain

milcase

3

© 202 i Matthew Bender & Company, Inc., a member of the LcxisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

magnitude, the court must order a rehearing.
Opinion

PER CURIAM:
At a general court-martial comprised of officer and enlisted members, the appellant was convicted,
contrary to his pleas, of one specification each of: rape of a person between the ages of 12 and 16,
carnal knowledge with a person between the ages of 12 and 16, sodomy of a person between the
ages of 12 and 16, and indecent acts upon the body of a female under the age of 16, in violation of
Articles 120, 125, 134, UCMJ, 10 U.S.C. 920, 925, 934. He was sentenced to a dishonorable
discharge, confinement for 25 years, forfeiture of all pay and allowances, and reduction to the grade
of E-1.
On appeal, the appellant raises eight issues:1 (1) The military judge erred by denying his motion to
suppress involuntary statements made after law enforcement agents promised him confidentiality;
(2) His convictions are factually insufficient; (3) The Article 134, UCMJ, specification fails to state an
offense; (4) Trial counsel committed reversible error by making false assertions of material fact and
prosecutorial misconduct; (5) His Fifth2 and Fourteenth Amendments rights were violated when the
alleged victim committed perjury and fraud on the court during her testimony; (6) The findings and
sentence should be set aside under the cumulative error doctrine; (7) The U.S. Disciplinary Barracks'
refusal to allow him visitation with his children is illegal considering (a) he did not commit any offense
against his own children, (b) he was issued a meritless no-contact order, and (c) the U.S. Disciplinary
Barracks' administrative system improperly lists him as single with no dependents; and (8) His
court-martial wrongfully included charges of carnal knowledge and indecent acts.
Background
In July 2004, CL was thirteen years old. During that time, she visited family in Oklahoma, including
her step-father's cousin and cousin-in-law, Mrs. Verdeio and the appellant. CL became close with
Mrs. Verdeio and spent a lot of time with her and the appellant watching movies, visiting, and going
to the pool. CL claimed that, during this visit, the appellant committed the acts that led to the charges
against him. These acts occurred in the house, either when Mrs. Vedejo was sleeping or not at home,
and once in a car.
CL did not tell anyone about these acts until approximately six years later when she told a friend.
The Air Force Office of Special Investigations (OSI) investigated and interviewed the appellant on 9
September 2010. The resulting confession is the subject of his first issue on appeal.
The interview was videotaped and transcribed. The agents read the appellant his Article 31, UCMJ,
10 U.S.C. § 831, rights from a printed card and allowed him to read along. The appellant
acknowledged his rights, declined a lawyer, and agreed to answer questions. After a rapport building
session, the agents confronted the appellant about an allegation that he sexually assaulted CL. The
appellant initially maintained that he didn't remember doing anything sexual with CL because it was a
long time ago, but eventually admitted that he "did commit a stupid action" in that he "was going to
sleep with somebody." The appellant eventually stated that he cheated on his wife but couldn't
remember with whom.
After more questioning, the appellant admitted that he’had sex with someone in his Cadillac, and it
was either CL or a Senior Airman named Amanda. Eventually, after some more prodding, the

milcase

4

© 2021 Matthew Bender & Company, Inc., a member of the LexisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

appellant admitted that it was CL who he had sex with in his car. In his post-interview written
statement, the appellant wrote that he "ran out in [his] car with [CL] and had brief intercourse inside
the car." He also admitted that he was going to tell his wife about the incident until he learned of CL's
age. The appellant only admitted to having sex with CL on the one occasion in his car. Other than
that, he only admitted to kissing her a few times.
At trial, the defense motioned to suppress the confessions because they’d been given under a
promise of confidentiality by the two OSI agents. The appellant points to five specific instances
during the interview to exemplify where one or the other agent made the promises:
"Like I said, what you say here stays with us. We don’t go around telling everyone what you say
and everything else.”
"You don't have to worry about anything you say with us. Like I said, we are not trying to throw
you up by a stake or anything else."
"Everything that stays in this room, stays in this room."
"I am not going to tell your wife about it either, you know.... I am not going to tell anybody. . . .’’
"See, the thing about our office here is when we talk to people, we don't share information with
other people.”
On the motion to suppress, the appellant testified that he believed these comments convinced him
that no matter what he said to the OSI agents, they would keep it to themselves. He further testified
that he believed that the OSI agents would only submit a report to his commander indicating whether
he was being honest or not, and nothing more. According to the appellant, he also believed that the
agents promised him confidentiality, so he merely agreed with their allegations in order to leave the
interview and get on with his life.
The military judge denied the motion and made findings of facts. Regarding the appellant's
testimony, the military judge stated, "[t]he court finds this testimony to be totally, completely, and
unequivocally without merit." The military judge went on to acknowledge the possibility that the
agents' statements, standing alone and taken out of context, might have reasonably implied a
promise of confidentiality, but not when taken in the context of the entire conversation and under the
totality of the circumstances. Pointing out that three of the statements were made in response to the
appellant's concern about his wife learning of the details of his infidelity with CL, the military judge
did not construe from them a promise of confidentiality. Additionally, he viewed the other two
statements as "tiny snippets of a lengthy discourse by the agents, which given the context of the
conversation, could not reasonably be construed as a promise of confidentiality." Ultimately, the
military judge concluded that "the defense [] cherry picked five very short innocuous statements . . .
[which].. . taken individually, or collectively, cannot reasonably be construed as a promise of
confidentiality."
-v
Appellant's Motion to Suppress Involuntary Statements
We review a military judge's ruling on a motion to suppress for an abuse of discretion. United States
v. Freeman, 65 M.J. 451,453 (C.A.A.F. 2008). Whether a confession was voluntary is a question of
law that we review de novo. Arizona v. Fulminante, 499 U.S. 279, 287,111 S. Ct. 1246, 113 L. Ed.
2d 302 (1991); United States v. Bresnahan, 62 M.J. 137, 141 (C.A.A.F. 2005); United States v.
Bubonics, 45 M.J. 93, 94 (C.A.A.F. 1996); United States v. Martinez, 38 M.J. 82, 86 (C.M.A. 1993). A
military judge's findings of fact are reviewed for clear error. United States v. Alameda, 57 M.J. 190,
198 (C.A.A.F. 2002).

milcase

5

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

Freeman is instructive on the issue of whether a confession is voluntary. The Freeman Court stated
that "a confession is involuntary, and thus inadmissible, if it was obtained 'in violation of the
self-incrimination privilege or due process clause of the Fifth Amendment to the Constitution of the
United States, Article 31, or through the use of coercion, unlawful influence, or unlawful
inducement."' Id. at 453 (citing Mil. R. Evid. 304(a), (c)(3); Article 31(d), UCMJ). The prosecution
bears the burden of establishing a voluntary confession by a preponderance of the evidence. Id.
(citing Bubonics, 45 M.J. 93).
To determine the lawfulness of a confession, we must examine "the totality of the surrounding
circumstances." Freeman, 65 M.J. at 453 (citing Bubonics, 45 M.J. at 95). In assessing whether a
defendant's will was "over-borne in a particular case," the Court assesses "the totality of all the
surrounding circumstances-both the characteristics of the accused and the details of the
interrogation." Id. (quoting Schneckloth v. Bustamonte, 412 U.S. 218, 226, 93 S. Ct. 2041, 36 L. Ed.
2d 854 (1973)). Some factors taken into account in determining voluntariness have included the
youth of the accused, his lack of education, his low intelligence, the lack of advice on his
constitutional rights, the length of detention, the repeated and prolonged nature of the questioning,
and the use of physical punishment such as the deprivation of food or sleep. Id. (citations omitted).
The Court must determine the factual circumstances surrounding the confession, assess the
psychological impact on the accused, and evaluate the legal significance of how the accused
reacted. Id. See also Schneckloth, 412 U.S. at 226.
If a confession is found involuntary, the Court must set aside the conviction unless it is determined
that the error in admitting the confession was harmless beyond a reasonable doubt. Freeman, 65
M.J. at 453 (citing Fulminante, 499 U.S. at 285).
Further, the Court in Freeman stated that there has been considerable controversy over the
treatment of threats and promises in assessing the voluntariness of a confession. Id. at 455. Before
Fulminante, a confession "'obtained by any direct or implied promises, however slight,"' was not
voluntary. Id. (quoting Bram v. United States, 168 U.S. 532, 542-43, 18 S. Ct. 183, 42 L. Ed. 568
(1897)).
Since Fulminante, though, "promises are considered only a factor in the equation; they are not of
themselves determinative of involuntariness." Id. (citing United States v. Gaskin, 190 Fed. Appx.
204, 206 (3d Cir. 2006); United States v. Jacobs, 431 F.3d 99, 109 (3d Cir. 2005)).
We have reviewed both the video recording of the confession and its transcript. These items as well
as our review of the record convince us the military judge did not abuse his discretion when he
denied the appellant's motion to suppress his confession.
It is clear that the OSI agents' statements were made in response to the appellant's express concerns
about his wife finding out about his actions. In the context of the interview, it is obvious the OSI
agents' comments were limited to that specific concern and were not general commitments that they
would forever keep his statements in confidence, never to be revealed to anyone. The military judge
, also rejected, as do we, the appellant's stated belief that the OSI agents would only submit a report
to his commander indicating whether the appellant was being honest or not and nothing more. Not
only did the agents read the appellant his Article 31, UCMJ, rights at the beginning of the interview,
they also had him read along. Moreover, they had him read and initial those same rights on the
written statement form as well, and had him hold up his hand and swear that the written statements
were the truth before he signed it. Both times he was advised that he could remain silent and any
statement he made could be used against him in a trial or other disciplinary or administrative forum.
He said he understood both warnings. Additionally, towards the end of the interview he asked if he

milcase

6

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

would be facing a court-martial because of what he confessed to. This question conflicts with his
assertion at trial that he thought everything he said during the interview would be kept confidential.
Further, the appellant was a Technical Sergeant with 10 years of active duty experience and had an
excellent performance record. The entire interview lasted approximately three and one half hours
and the appellant was offered breaks, food, and water. He was never handcuffed and, in fact, was
merely asked to come to the OSI office on his own. He was not escorted or told he could not leave.
He was allowed to type his own written statement and was left alone while he did so. At the end of
the interview he even complimented the OSI agents for not being rude or overbearing.4 These facts
simply do not square with his assertions at trial and now on appeal that he thought anything he said
during his OSI-conducted interview would remain confidential and his confession was involuntary.
Given the context in which the OSI agents made the statements at issue, we are convinced they did
not overcome the appellant's will or cause him to provide his statement involuntarily. They were
limited in nature to assure the appellant that the agents would not tell his wife what he told them
during the interview. Applying the standards cited above, we agree with the military judge's ruling.
We find that the appellant's will was not overborne and his confession was voluntarily given.
Factual Sufficiency
The appellant also avers that his convictions for rape, carnal knowledge, forcible sodomy, and
indecent acts with a child are factually insufficient.
Under Article 66(c), UCMJ, 10 U.S.C. § 866(c), we review issues of legal and factual sufficiency de
novo. United States v. Washington, 57 M.J. 394, 399 (C.A.A.F. 2002). The test for factual sufficiency
is "whether, after weighing the evidence in the record of trial and making allowances for not having
personally observed the witnesses, [we] are [ourselves] convinced of the accused's guilt beyond a
reasonable doubt." Turner, 25 M.J. at 325. Review of the evidence is limited to the entire record,
which includes only the evidence admitted at trial and exposed to the crucible of cross-examination.
Article 66(c), UCMJ; United States v. Bethea, 22 C.M.A. 223, 46 C.M.R. 223, 224-25 (C.M.A. 1973).
Having reviewed the entire record, including the appellant's confession and the victim's testimony,
we are convinced the appellant's convictions are factually sufficient.5 The victim provided detailed
testimony of the events that transpired. The defense tried to show these events were implausible, but
in the end the members, who heard all of the witnesses, believed the victim's account. Her
testimony, and the appellant's confession, provided sufficient facts to support the conviction.
Failure to State an Offense
Notice of the terminal element of an Article 134, UCMJ, offense is an essential part of due process
as an accused must know and fully understand the offenses against which he must defend. See
United States v. Humphries, 71 M.J. 209 (C.A.A.F. 2012); United States v. Ballan, 71 M.J. 28
(C.A.A.F. 2012); United States v. Foster, 70 M.J. 225 (C.A.A.F. 2011).
Charge III and its Specification alleged a violation of Article 134, UCMJ, in that the appellant
committed indecent acts upon the victim, a female under the age of 16, not his wife, by committing
certain acts upon her with the intent to gratify his sexual desires. The Specification did not allege one
of the three possible terminal elements: prejudice to good order and discipline, service discrediting;
or a crime or offense not capital. The appellant did not contest this specification at trial.
The only mention of any of the terminal elements during the trial was by the prosecutor during
closing arguments when, after recounting the facts alleged in the Specification, he argued to the jury
that, "It should take you about five seconds to realize that committing these horrible acts on an Air
Force Installation on a 13-year-old child is prejudicial to good order and discipline in the United

milcase

7

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

States Air Force." The defense did not address this point during their argument.
The Government argues that the prosecution cited the terminal element during its closing argument,
which "was simply understood to be necessarily inherent in an offense where a military member
sexually assaults a 13-year-old civilian on base and against her will." It also argues that the appellant
had notice because the Article 32, UCMJ, investigator spelled out the elements and the evidence
used to support them. However, the Article 32, UCMJ, report states that the conduct involved "was to
the prejudice of good order and discipline or of a service discrediting nature." (Emphasis added.). It
never focused on one theory or the other. We do not believe this constitutes notice of the terminal
element for an Article 134, UCMJ, offense as our superior court requires in Humphries, Foster, and
Ballan. Further, the Government does not explain why the "prejudicial to good order and discipline"
element is any more "necessarily inherent" than the "service discrediting nature" element.
Under Humphries, notice of the missing element must be "somewhere extant in the trial record, or [ ]
the element [must] be 'essentially uncontroverted.'" Humphries, 71 M.J. at 215-216 (citing United
States v. Cotton, 535 U.S. 625, 122 S. Ct. 1781, 152 L. Ed. 2d 860 (2002); Johnson v. United States,
520 U.S. 461, 117 S. Ct. 1544, 137 L. Ed. 2d 718 (1997)). Here, the appellant pled not guilty. This
left the Government to prove all of the elements of the offense, including the terminal element. But
the question left open was which terminal element should the appellant defend against? The
Government relies on the prosecutor’s mention of the terminal element in the closing argument to
show that notice is "extant on the record." However, as this was addressed only after the close of
evidence during closing argument, it is hard to see how this can constitute notice. Notice is a due
process device that enables the preparation of a defense. As our superior court alluded to in
Humphries, it is impossible to accept an argument that mentioning the terminal element for the first
time after the evidence has been submitted to the members enabled the appellant to know which
Clause he had to defend against. Id. at 216 n.9.
Under the guidance provided by our superior court, we hold it was plain and obvious error to omit the
terminal element from the Specification alleging indecent acts under Article 134, UCMJ, and that
error prejudiced the appellant's substantial right to notice. See Id. at 213-17 (citations omitted).
Accordingly, we must dismiss the finding of guilty for Charge III and its Specification.
Prosecutorial Misconduct & Perjury
We have considered the appellant's fourth and fifth assigned errors, raised pursuant to United States
v. Grostefon, 12 M.J. 431 (C.M.A 1982), and find them meritless.
We have reviewed the appellant's claim of prosecutorial misconduct under the standards of United
States v. Hatpin, 71 M.J. 477 (C.A.A.F. 2013), United States v. Edmond, 63 M.J. 343, 347 (C.A.A.F.
2006), and United States v. Argo, 46 M.J. 454, 457 (C.A.A.F. 1997). In doing so we have examined
the fairness of the trial and not the culpability of the prosecutor. We have paid special attention to
the "overall effect of counsel's conduct on the trial, and not counsel's personal blameworthiness."
United States v. Thompkins, 58 M.J. 43, 47 (C.A.A.F. 2003). Having examined the prosecutor's
conduct as well as the fairness of this trial, we find the appellant's claim to be meritless.
Regarding the victim's testimony, the appellant claims she committed perjury by pointing to
statements in the Article 32, UCMJ, investigation which he claims could be used to contradict her. He
then relates this back to his argument that the evidence was insufficient to support a conviction. We
have already addressed the issue of factual sufficiency above and there is no need to rehash it a
second time. The members heard the testimony of all of the witnesses including any
cross-examination by the opposing side. It was their duty to determine the facts and that is what they
did. See United States v. Stoneman, 57 M.J. 35 (C.A.A.F. 2002); United States v. Garwood, 20 M.J.

milcase

8

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

148 (C.M.A. 1985), Rule for Courts-Martial 502(a)(2). The appellant's essentially argues that the
victim should not be believed because she was lying. However, at trial the defense subjected her to
a fierce and tough cross-examination. The members simply believed her. We find no merit to the
appellant's claim.
Cumulative Error
The appellant avers that the cumulative errors that occurred at trial should compel us to set aside the
findings and sentence. In this argument, the appellant raises eight errors, some with several
subparts, which were made during the trial.
As our sister court observed, the law "requires us to evaluate the fairness of the appellant's trial using
the cumulative error doctrine." United States v. Parker 71 M.J. 594, 630 (N.M. Ct. Crim. App. 2012)
(citing United States v. Dollente, 45 M.J. 234, 242 (C.A.A.F. 1996); United States v. Banks, 36 M.J.
150, 171 (C.M.A. 1992)). As the Parker court stated, Dollente requires us to evaluate the errors
"against the background of the case as a whole, paying particular weight to factors such as the
nature and number of the errors committed; their interrelationship, if any, and combined effect; how
the [trial] court dealt with the errors as they arose (including the efficacy-of any remedial efforts); and
the strength of the government's case.” Id.
Some of the errors alleged by the appellant include supposed errors by the military judge in his
instructions, misstatements of the evidence by the prosecutor, the denial of the right to an educated
jury due to the prosecutor's failure to present expert testimony on child behavior that would favor the
appellant's case, and that a testifying OSI agent was allowed to give human lie detector testimony.
We have reviewed the appellant's allegations and find no error, but merely rulings and decisions
made well within the sound discretion of the military judge, which the appellant would have made
differently had he been the judge. There was ample evidence of the appellant's guilt, and there were
no errors that materially prejudiced his substantial rights. Under these circumstances and applying
the law as discussed above, the appellant was not denied a fair trial and the cumulative error
doctrine is not applicable. United States v. Pope, 69 M.J. 328, 335 (C.A.A.F. 2011); Dollente, 45 M
.J. at 242.
Visitation Rights
Citing United States v. Ouimette, 52 M.J. 691 (C.G. Ct. Crim. App. 2000), the appellant claims the
Fort Leavenworth Disciplinary Barracks' (USDB) refusal to allow him visitation rights with his children
was illegal as constituting a "harsher, excessive sentence and punishment" because (1) he did not
commit any offense against his own children, (2) he was issued a meritless no-contact order, and (3)
the USDB administrative system improperly lists him as single with no dependents. The appellant
has submitted documents indicating he is under a blanket restriction from having any visitation and
from making any contact with his own children (even indirectly through contact via his wife).6 He
sent a request to the Commandant for an exception to this policy but was denied. He filed a
complaint with the Inspector General, and although he states he has filed a complaint pursuant to
Article 138, UCMJ, 10 USC § 938, the record lacked any other indication or evidence of this
assertion.7
We review de novo whether alleged facts constitute cruel and unusual punishment. United States v.
Lovett, 63 M.J. 211 (C.A.A.F. 2006). As our superior court in Lovett noted, "the Eighth Amendment
prohibits two types of punishments: (1) those 'incompatible with the evolving standards of decency
that mark the progress of a maturing society' or (2) those 'which involve the unnecessary and wanton
infliction of pain.' We apply the Supreme Court's interpretation of the Eighth Amendment in the
absence of any legislative intent to create greater protections in the UCMJ." Id. at 215 (citations

milcase

9

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

omitted). Except for specific situations not applicable to this case, Article 55, UCMJ, 10 U.S.C. §
855, is coterminous with the Eighth Amendment,8 and we will apply that standard to both provisions.
United States v. Pena, 64 M.J. 259 (C.A.A.F. 2007); United States v. Matthews, 16 M.J. 354 (C.M.A.
1983):
A violation of the Eighth Amendment is shown by demonstrating: "(1) an objectively, sufficiently
serious act or omission resulting in the denial of necessities; (2) a culpable state of mind on the part
of prison officials amounting to deliberate indifference to [the appellant's] health and safety; and (3)
that he has exhausted the prisoner-grievance system ... and that he has petitioned for relief under
Article 138, UCMJ." Lovett, 63 M.J. at 215 (omission in original) (citations omitted).
Applying these standards, we find no violation of the Eighth Amendment or Article 55, UCMJ. The
appellant's complaint does not amount to a serious act or omission resulting in a denial of
necessities. Typically, these are things such as denial ,of needed medical attention, proper food, or
sanitary living conditions. Physical abuse may also qualify. See United States v. Avila, 53 M.J. 99,
101 (C.A.A.F. 2000). The appellant's deprivation is not of the caliber that triggers Eighth Amendment
protection. It is more akin to routine conditions associated with punitive or administrative segregation
such as restriction of contact with other prisoners, of exercise outside a cell, of visitation privileges,
of telephone privileges, and/or of reading material. Id. at 102. We also note that not all visitation or
outside contact was withheld from the appellant, just a certain segment of it. This partial, rather than
full, restriction on the appellant's ability to communicate with friends and family also supports the
[GJovernment's case. See Turner v. Safley, 482 U.S. 78, 107 S. Ct. 2254, 96 L. Ed. 2d 64 (1987);
Henderson v. Terhune, 379 F.3d 709 (9th Cir. 2004). Also, the appellant has not shown the
Commanding Officer acted with a culpable state of mind. The commander did not arbitrarily select
the appellant and deny him contact with minors. He was acting pursuant to, and enforcing, the Brig
rules.
We emphasize that the USDB rules about visitation with children are enforced for the protection of
minors. That the appellant has to undergo a strict screening policy before being granted permission
to visit his children is an administrative safeguard to protect minor juveniles from those convicted of
child sex crimes. It is not an additional punishment or a method of enhancing the sentence already
adjudged. Accordingly, we find no merit to the appellant's claim.
Propriety of Charges
The appellant argues that the offenses of carnal knowledge and indecent acts were improperly
charged and should be dismissed because the legal actions to bring him to trial on these offenses
occurred after 1 October 2007. According to the appellant, Executive Order 13447 and the 2006
National Defense Authorization Act amended the Manual for Courts Martial (MCM), United States,
and eliminated these two offenses. He argues that because the Executive Order states that nothing
in the amendments would invalidate certain legal actions, to include investigations and referral of
charges, that began prior to 1 October 2007, and the legal actions that preceded the appellant's trial
occurred after that date, they were rendered invalid by the Executive Order because they occurred
too late.
This argument is without merit. Executive Order 13447 and the 2006 National Defense Authorization
Act did not eliminate these two offenses in the sense that no one could be prosecuted for them if
legal action began after 1 October 2007. The Executive Order merely incorporated the amendments
to Article 120, UCMJ, and other provisions. It did not bar prosecution of violations of the law as it was
written prior to the amendments and the Executive Order.
These offenses were all alleged as perpetrated against a child between the ages of 14 and 16 years

milcase

10

© 2021 Matthew Bender & Company, Inc., a member of the LexisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

old. As such, each has a 25 year statute of limitation and may be prosecuted any time with in that
period. Cf. United States v. Lopez de Victoria, 66 M.J. 67 (C.A.A.F. 2008). See Article 43, UCMJ, 10
U.S.C. § 843; Drafter's Analysis, MCM, A21-57, A27 (2012 ed.). The language cited by the appellant
in the Executive Order does not bar the offense from being prosecuted.
Sentence Reassessment
Having dismissed the Specification under Charge III, we must determine whether we are able to
reassess the sentence. Applying the analysis set forth in United States v. Buber, 62 M.J. 476
(C.A.A.F. 2006), United States v. Moffeit, 63 M.J. 40 (C.A.A.F. 2006), and United States v. Sales, 22
M.J. 305 (C.M.A. 1986), and carefully considering the entire record, we conclude that there has not
been a "dramatic change in the 'penalty landscape.'" United States v. Riley, 58 M.J. 305, 312
(C.A.A.F. 2003). At time of the appellant's conviction, the maximum sentence was life in
confinement, forfeiture of all pay and allowances, and reduction to E-1. Our dismissal of the Charge
and Specification does not change the maximum sentence.
Before reassessing a sentence, this Court must be confident "that, absent any error, the sentence
adjudged would have been of at least a certain severity." United States v. Sales, 22 M.J. 305, 308
(C.M.A. 1986). Ultimately, a sentence can be reassessed only if we "confidently can discern the
extent of the error's effect on the sentencing authority's decision." United States v. Reed, 33 M.J. 98,
99 (C.M.A. 1991). If we "cannot determine that the sentence would have been at least of a certain
magnitude," we must order a rehearing. United States v. Harris, 53 M.J. 86, 88 (C.A.A.F. 2000); see
also United States v. Poole, 26 M.J. 272, 274 (C.M.A. 1988). Because the change to the appellant's
charges or sentencing landscape is not dramatic, we are confident in our ability to reassess the
sentence. The dismissed Charge and Specification carried the smallest maximum punishment of the
four with which the appellant was charged: seven years. Even with the dismissed Charge and
Specification the appellant is still guilty of rape, forcible sodomy, and carnal knowledge, all with a
child between the ages of 12 and 16. These offenses carried the same maximum punishment even
without the dismissed offense: a dishonorable discharge, confinement for life, forfeiture of all pay
and allowances, and reduction to the grade of E-1.
We are confident that the convening authority would have approved the same sentence.
Furthermore, we find, after considering the appellant's character, the nature and seriousness of his
offenses, and the entire record, that the reassessed sentence is appropriate,
Conclusion
We set aside and dismiss Charge III and its Specification and affirm the remaining findings and the
sentence as approved by the convening authority. The approved findings, as rfiodified, and the
sentence are correct in law and fact, and no error prejudicial to the substantial rights of the appellant
regarding the affirmed charges and specifications occurred. Articles 59(a) and 66(c), UCMJ, 10
U.S.C. §§ 859(a), 866(c). Accordingly, the findings, as modified, and the sentence, are
AFFIRMED.
Footnotes

1
Issues 4, 5, 6, and 8 were raised pursuant to United States v. Grostefon, 12 M.J. 431 (C.M.A 1982).
2

milcase

11

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNcxis Group. All rights reserved. Use ol’lhis product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

U.S. Const, amend. V.
3
U.S. Const, amend. XIV.
4
These were not the exact words used by the appellant, but they convey his sentiment.
5
Though not specifically raised, we also find that the appellant’s convictions are legally sufficient. See
United States v. Humpherys, 57 M.J. 83, 94 (C.A.A.F. 2002) (quoting United States v. Turner, 25
M.J. 324 (C.M.A. 1987)).
6
The Fort Leavenworth Disciplinary Barracks' regulations prevent him from seeing any children
without first obtaining an "exception to policy."
7
Even assuming he has submitted an Article 138, UCMJ, 10 U.S.C. § 938, complaint, our opinion
addressing the other issues remain the same.
8
U.S. Const, amend. VIII.

milcase

12

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

APPENDIX
C

UNITED STATES v. Technical Sergeant RAFAEL VERDEJO-RUIZ. United States Air Force
UNITED STATES AIR FORCE COURT OF CRIMINAL APPEALS
2014 CCA LEXIS 607
ACM 37957 (recon)
August 14, 2014, Decided
Notice:
THIS OPINION IS SUBJECT TO EDITORIAL CORRECTION BEFORE FINAL RELEASE.
Editorial Information: Subsequent History
Motion granted by United States v. Verdeio-Ruiz, 74 M.J. 82, 2014 CAAF LEXIS 1118 (C.A.A.F., Nov.
18, 2014)Motion denied by United States v. Verdeio-Ruiz, 74 M.J. 327, 2015 CAAF LEXIS 758
(C.A.A.F., Mar. 25, 2015)Motion denied by United States v. Verdeio-Ruiz. 75 M.J. 3, 2015 CAAF LEXIS
533 (C.A.A.F., June 4, 2015)Review denied by Verdeio-Ruiz v. United States, 75 M.J. 375, 2016 CAAF
LEXIS 547 (C.A.A.F., June 22, 2016)
Editorial Information: Prior History
Sentence adjudged 25 February 2011 by GCM convened at Tyndall Air Force Base, Florida. Military
Judge: W. Thomas Cumbie. Approved Sentence: Dishonorable discharge, confinement for 25 years, and
reduction to E-1.United States v. Verdeio-Ruiz. 2013 CCA LEXIS 680 (A.F.C.C.A., July 18, 2013)
For the Appellant: Major Shane A. McCammon (argued); Major Scott W.
Medlyn; and Captain Michael A. Schrama.
For the United States: Major Daniel J. Breen (argued); Colonel
Don M. Christensen; Lieutenant Colonel C. Taylor Smith; and Gerald R. Bruce, Esquire.
Judges: Before ALLRED, MITCHELL, and WEBER, Appellate Military Judges.
Counsel

CASE SUMMARYMilitary judge did not err when he denied appellant's motion to suppress his confession
because there was no promise of confidentiality made by Air Force Office of Special Investigations
agents; most if not all of the agents' statements were made in response to appellant's concerns about his
wife finding out about his actions with 13-year-old girl.
OVERVIEW: HOLDINGS: [1]-The military judge did not err when he denied appellant's motion to
suppress his confession because there was no promise of confidentiality made by the Air Force Office of
Special Investigations agents; when taken in the context of the totality of the circumstances, most if not
all of the agents' statements were made in response to appellant’s concerns about his wife finding out
about his actions; [2]-Appellant's convictions were factually sufficient because the victim provided
detailed and believable testimony about the events that transpired, and appellant's confession
corroborated some of her testimony; the defense was not able to establish any material contradictions or
inaccuracies in her testimony; [3]-lt was plain and obvious error to omit the terminal element from the
specification alleging indecent acts under Unif. Code Mil. Justice art. 134, U.S.C.S. § 934.
OUTCOME: Dismissed in part and affirmed in part.

milcase

1

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

LexisNexis Headnotes
Military & Veterans Law > Military Justice > Appeals & Reviews > Standards of Review
Military & Veterans Law > Military Justice > Motions > Suppression
A military judge's decision to deny a motion to suppress evidence is reviewed for an abuse of discretion.
"Abuse of discretion" is a term of art applied to appellate review of the discretionary judgments of a trial
court. An abuse of discretion occurs when the trial court's findings of fact are clearly erroneous or if the
court's decision is influenced by an erroneous view of the law. Further, the abuse of discretion standard
of review recognizes that a judge has a range of choices and will not be reversed so long as the decision
remains within that range.
Military & Veterans Law > Military Justice > Evidence > Admissions & Confessions
Military & Veterans Law > Military Justice > Pretrial Proceedings > Self-Incrimination Privilege
Generally, a confession is not admissible unless it has been made voluntarily, considering the totality of
the circumstances surrounding the confession. Mil. R. Evid. 304(a), Manual Courts-Martial. Military
justice jurisprudence holds that a statement made in response to a promise of confidentiality by law
enforcement agents may be inadmissible, because the promise of confidentiality nullifies the rights
advisement under Unif. Code Mil. Justice art. 31, 10 U.S.C.S. § 831. A rights advisement followed by a
promise of confidentiality amounts to no warning, as the assurance could only be interpreted to mean
that the statement would not be used in a subsequent trial. Statements made in response to a promise of
confidentiality are inadmissible, despite the provision of a rights advisement, where the promise induces
a belief in the mind of the accused that his disclosure will not be made the basis for a criminal
prosecution. Even an implied promise of confidentiality may render a confession inadmissible if it is the
causative factor for later confessions.
Military & Veterans Law > Military Justice > Pretrial Proceedings > Self-Incrimination Privilege
Military & Veterans Law > Military Justice > Evidence > Admissions & Confessions
Promises of confidentiality are substantially similar to promises of testimonial immunity. If an official with
either express or apparent authority promises a suspect that no prosecution will result if the suspect
confesses, courts will not hesitate to enforce that promise. Promises of confidentiality or immunity made
without authority are forms of unlawful inducement. A confession is involuntary, and thus inadmissible, if
it was obtained through the use of unlawful inducement. Mil. R. Evid. 304(a), (c)(3) Manual
Courts-Martial. Unif. Code Mil. Justice art. 31(d), 10 U.S.C.S. § 831(d). Under Freeman, promises are
considered only a factor in the equation; they are not of themselves determinative of involuntariness. In
determining whether an accused's will was over-borne in a particular case, a court assesses the totality
of all the surrounding circumstances, both the characteristics of the accused and the details of the
interrogation. Factors taken into account in determining voluntariness include the accused's age, level of
education, and intelligence, along with any advice provided to the accused concerning his constitutional
rights, the length of detention, the nature of the questioning, and the use or absence of physical
punishment such as the deprivation of food or sleep.
Military & Veterans Law > Military Justice > Evidence > Weight & Sufficiency
Military & Veterans Law > Military Justice > Appeals & Reviews > Standards of Review
Under Unif. Code Mil. Justice art. 66(c), 10 U.S.C.S. § 866(c), an appellate court reviews issues of legal
and factual sufficiency de novo. The test for factual sufficiency is whether, after weighing the evidence in
the record of trial and making allowances for not having personally observed the witnesses, the appellate

milcase

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

court is convinced of the accused's guilt beyond a reasonable doubt. Review of the evidence is limited to
the entire record, which includes only the evidence admitted at trial and exposed to the crucible of
cross-exam i nation.
Military & Veterans Law > Military Justice > Pretrial Proceedings > Charges
Military & Veterans Law > Military Justice > Appeals & Reviews > Standards of Review
Constitutional Law > Bill of Rights > Fundamental Rights > Procedural Due Process > Scope of
Protection
Notice of the terminal element of a Unif. Code Mil. Justice art. 134, 10 U.S.C.S. § 934, offense is an
essential part of due process, as an accused must know and fully understand the offenses against which
he must defend. Whether a charge and specification state an offense and the remedy for such error are
questions of law that an appellate court reviews de novo. A specification states an offense if it alleges,
either expressly or by necessary implication, every element of the offense, so as to give the accused
notice and protection against double jeopardy. R.C.M. 307(c)(3), Manual Courts-Martial.
Military & Veterans Law > Military Justice > Pretrial Proceedings > Charges
Military & Veterans Law > Military Justice > Appeals & Reviews > Standards of Review
When an appellant does not object to a missing terminal element at trial, an appellate court analyzes the
case for plain error. The failure to allege a terminal element is plain and obvious error that is forfeited
rather than waived. In the context of a plain error analysis of defective indictments, the appellant has the
burden of demonstrating that: (1) there was error; (2) the error was plain or obvious; and (3) the error
materially prejudiced a substantial right of the appellant. In the plain error context, a defective
specification alone is insufficient to constitute substantial prejudice to a material right. Therefore,
reviewing courts look to the record to determine whether notice of the missing element is somewhere
extant in the trial record, or whether the element is essentially uncontroverted. If this is the case, the
charging error is considered cured and material prejudice is not demonstrated.
Military & Veterans Law > Military Justice > Pretrial Proceedings > Charges
Military & Veterans Law > Military Justice > Trials > Arguments on Findings
Identifying a theory of criminality during closing argument alone does not constitute sufficient notice to
find a lack of prejudice from omission of the terminal element on the charge sheet.
Military & Veterans Law > Military Justice > Appeals & Reviews > Standards of Review
An appellate court reviews an appellant's claim of prosecutorial misconduct under the standards of
Halpin, Edmond, and Argo. The appellate court pays special attention to the overall effect of counsel's
conduct on the trial, and not counsel's personal blameworthiness.
Military & Veterans Law > Military Justice > Appeals & Reviews > Standards of Review
An appellate court evaluates the fairness of an appellant's trial using the cumulative error doctrine.
Dollente requires the appellate court to evaluate the errors against the background of the case as a
whole, paying particular weight to factors such as the nature and number of the errors committed; their
interrelationship, if any, and combined effect; how the trial court dealt with the errors as they arose; and
the strength of the government's case.
Military & Veterans Law > Military Justice > Appeals & Reviews > Standards of Review
Military & Veterans Law > Military Justice > Sentencing > Cruel & Unusual Punishment

milcase

3

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

An appellate court reviews allegations of cruel and unusual punishment de novo.
Military & Veterans Law > Military Justice > Sentencing > Cruel & Unusual Punishment
Military & Veterans Law > Military Justice > Appeals & Reviews > Standards of Review
Constitutional Law > Bill of Rights > Fundamental Rights > Criminal Process > Cruel & Unusual
Punishment
The Eighth Amendment to the United States Constitution, U.S. Const, amend. VIII, prohibits two types of
punishments: (1) those incompatible with the evolving standards of decency that mark the progress of a
maturing society or (2) those which involve the unnecessary and wanton infliction of pain. An appellate
court applies the United States Supreme Court's interpretation of the Eighth Amendment in the absence
of any legislative intent to create greater protections in the Uniform Code of Military Justice. Unif. Code
Mil. Justice art. 55, 10 U.S.C.S. § 855, is coterminous with the Eighth Amendment, and courts apply that
standard to both provisions.
Constitutional Law > Bill of Rights > Fundamental Rights > Criminal Process > Cruel & Unusual
Punishment
Military & Veterans Law > Military Justice > Sentencing > Cruel & Unusual Punishment
A violation of the Eighth Amendment to the United States Constitution, U.S. Const, amend. VIII, is shown
by demonstrating: (1) an objectively, sufficiently serious act or omission resulting in the denial of
necessities; (2) a culpable state of mind on the part of prison officials amounting to deliberate
indifference to the appellant's health and safety; and (3) that he has exhausted the prisoner-grievance
system and that he has petitioned for relief under Unif. Code Mil. Justice art. 138, 10 U.S.C.S. § 938.
Military & Veterans Law > Military Justice > Sentencing > Cruel & Unusual Punishment
Constitutional Law > Bill of Rights > Fundamental Rights > Criminal Process > Cruel & Unusual
Punishment
For the purpose of the Eighth Amendment to the United States Constitution, U.S. Const, amend. VIII,
serious acts or omissions include matters such as denial of needed medical attention, proper food,
sanitary living conditions, or even physical abuse.
Military & Veterans Law > Military Justice > Evidence > Privileges > Psychotherapist-Patient
Privilege
A patient has a privilege to refuse to disclose and to prevent any other person from disclosing a
confidential communication made between the patient and a psychotherapist or an assistant to a
psychotherapist, in a case arising under the Uniform Code of Military Justice, if such communication was
made for the purpose of facilitating diagnosis or treatment of the patient's mental or emotional condition.
Mil. R. Evid. 513(a), Manual Courts-Martial. However, no such privilege exists when the records are
constitutionally required. To prevent unnecessary disclosure of evidence of a patient's records or
communications, the military judge may issue protective orders or may admit only portions of the
evidence. Mil. R. Evid. 513(e)(4).
Military & Veterans Law > Military Justice > Evidence > Evidentiary Rulings
Military & Veterans Law > Military Justice > Appeals & Reviews > Standards of Review
An appellate court reviews a military judge's decision to admit or exclude evidence for an abuse of
discretion.

milcase

4

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

Military & Veterans Law > Military Justice > Appeals & Reviews > Standards of Review
Military & Veterans Law > Military Justice > Trials > Instructions > General Overview
Whether a military judge properly instructed the members is a question of law an appellate court reviews
de novo. However, where there is no objection to an instruction at trial, the appellate court reviews for
plain error.
Constitutional Law > Bill of Rights > Fundamental Rights > Criminal Process > Speedy Trial
Military & Veterans Law > Military Justice > Speedy Trial
Military & Veterans Law > Military Justice > Postconviction Proceedings > General Overview
Military & Veterans Law > Military Justice > Appeals & Reviews > Standards of Review
An appellate court reviews de novo whether an appellant has been denied his due process right to a
speedy post-trial review and whether any constitutional error is harmless beyond a reasonable doubt. A
presumption of unreasonable delay arises when appellate review is not completed and a decision is not
rendered within 18 months of the case being docketed before the appellate court. The Moreno standards
continue to apply as a case remains in the appellate process. The Moreno standard is not violated when
each period of time used for the resolution of legal issues between the appellate court and the superior
court is within the 18-month standard. However, when a case is not completed within 18 months, such a
delay is presumptively unreasonable and triggers an analysis of the four factors elucidated in Barker and
Moreno. Those factors are (1) the length of the delay; (2) the reasons for the delay; (3) whether the
appellant made a demand for a speedy trial; and (4) prejudice to the appellant. When there is no showing
of prejudice under the fourth factor, an appellate court will find a due process violation only when, in
balancing the other three factors, the delay is so egregious that tolerating it would adversely affect the
public's perception of the fairness and integrity of the military justice system.
Military & Veterans Law > Military Justice > Postconviction Proceedings > General Overview
Military & Veterans Law > Military Justice > Speedy Trial
The Moreno speedy-trial standards continue to apply as a case continues through the appellate process.
The Moreno standard is not violated when each period of time used for the resolution of legal issues
between the appellate court and the superior court is within the 18-month standard.
Military & Veterans Law > Military Justice > Speedy Trial
Military & Veterans Law > Military Justice > Postconviction Proceedings > General Overview
Unif. Code Mil. Justice art. 66(c), 10 U.S.C.S. § 866(c), empowers appellate courts to grant sentence
relief for excessive post-trial delay without the showing of actual prejudice required by Unif. Code Mil.
Justice art. 59(a), 10 U.S.C.S. § 859(a). A non-exhaustive list of factors is considered in evaluating
whether art. 66(c) relief should be granted for post-trial delay. Among the non-prejudicial factors are the
length and reasons for the delay; the length and complexity of the record; the offenses involved; and the
evidence of bad faith or gross negligence in the post-trial process.
Opinion
Opinion by:

WEBER
Opinion

milcase

5

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and temis and conditions of the Matthew Bender Master Agreement.

OPINION OF THE COURT UPON RECONSIDERATION
WEBER, Judge:
At a general court-martial composed of officer and enlisted members, the appellant was convicted,
contrary to his pleas, of one specification each of rape of a person between the ages of 12 and 16;
carnal knowledge with a person between the ages of 12 and 16; forcible sodomy of a person between
the ages of 12 and 16; and indecent acts upon the body of a female under the age of 16, in violation
of Articles 120, 125, and 134, UCMJ, 10 U.S.C. 920, 925, 934. He was sentenced to a dishonorable
discharge, confinement for 25 years, forfeiture of all pay and allowances, and reduction to E-1. The
convening authority did not approve the adjudged forfeitures, but otherwise approved the sentence
as adjudged. 1
On appeal, the appellant raises 11 issues: (1) the military judge erred by denying his motion to
suppress involuntary statements made after law enforcement agents promised him confidentiality;
(2) his convictions are factually insufficient; (3) the Article 134, UCMJ, specification fails to state an
offense; (4) trial counsel committed reversible error by making false assertions of material fact and
by prosecutorial misconduct; (5) his Fifth2 and Fourteenths Amendment rights were violated when
the alleged victim committed perjury and fraud on the court during her testimony; (6) the findings and
sentence should be set aside under the cumulative error doctrine; (7) the United States Disciplinary
Barracks' (USDB) refusal to allow him visitation with his children is illegal considering (a) he did not
commit any offense against his own children, (b) he was issued a meritless no-contact order, and (c)
the USDB administrative system improperly lists him as single with no dependents; (8) his
court-martial wrongfully included charges of carnal knowledge and indecent acts; (9) the
Government and the military judge improperly denied the defense the ability to review the victim's
mental health and medical records; (10) the military judge's findings instructions erroneously stated
the burden of proof required to demonstrate force; and (11) he is entitled to relief for untimely
appellate review.4
Procedural History
On 25 June 2013, the Secretary of Defense, "[pjursuant to [his] authority under title 5, United States
Code, section 3101 et seq.," issued a memorandum that "appointed] Mr. Laurence M. Soybel, a
civilian employee of the Department of the Air Force, to serve as appellate military judge on the Air
Force Court of Criminal Appeals.” Memorandum from Sec'y of Def. Chuck Hagel for Sec'y of the Air
Force Eric Fanning (25 June 2013).
On 18 July 2013, we issued a decision in which we dismissed a charge and specification, but
affirmed the remaining findings and the sentence as approved by the convening authority. United
States v. Verdeio-Ruiz. ACM 37957, 2013 CCA LEXIS 680 (A.F. Ct. Crim. App. 18 July 2013)
(unpub. op.). This Court issued its opinion after hearing oral argument on the appellant's first
assigned issue, dealing with the defense's motion to suppress statements the appellant made after
law enforcement agents purportedly promised him confidentiality. Pursuant to his appointment by the
Secretary of Defense, Mr. Soybel was a member of that panel. The appellant then filed with this
Court a motion to vacate and petitioned our superior court for review. On 12 November 2013, our
superior court converted the appellant's motion to vacate into a motion for reconsideration. See
United States v. Verdeio-Ruiz. 73 M.J. 109, No. 14-0010/AF (Daily Journal 12 November 2013). On
15 April 2014, our superior court issued its decision in United States v. Janssen, 73 M.J. 221, 225
(C.A.A.F. 2013), holding that the Secretary of Defense did not have the legislative authority to
appoint civilian employees as appellate military judges, and that his appointment of Mr. Soybel to

milcase

6

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

this Court was "invalid and of no effect."
In light of Janssen, we granted the motion for reconsideration on 29 April 2014 and permitted the
appellant to file a supplemental assignment of errors. The appellant actually filed two supplemental
errors, raising three issues not previously before this Court. We also granted the appellant's motion
for oral argument on the same issue previously argued to this Court. On 24 June 2014, well after the
deadline for supplemental briefs to be submitted in this case and after oral argument, the appellant
moved for leave to file yet another supplemental assignment of errors, alleging he received
ineffective assistance of counsel. Given that this Court had repeatedly allowed the appellant to raise
additional issues out of time during the lengthy appellate processing of this matter, and given that the
appellant made no attempt to explain why this latest issue could not have been raised earlier, we
denied the appellant's motion to submit this latest supplemental assignment of errors.
With a properly constituted panel, we have reviewed the appellant's case, to include the appellant's
previous and current filings, oral argument, and the previous opinion issued by this Court.
Background
The charged acts took place in or around July 2004. At that time, then 13-year-old CL visited with
family members in Oklahoma. She resided with her grandparents, but she frequently visited her
step-father's cousin, Mrs. LV, and Mrs. LV's husband, the appellant. She sometimes spent the night
at the appellant's home and considered herself to have a close relationship with Mrs.’LV. CL helped
Mrs. LV and the appellant prepare for their wedding ceremony at the end of July, which would
formally celebrate their marriage that took place two years earlier.
During the days leading up to the wedding ceremony, CL stated the appellant committed four sexual
acts against her, all contrary to her will. Three such incidents took place in the house, either when
Mrs. LV was sleeping or not home. The final such incident took place the night before the wedding
ceremony, when the appellant took CL away from decorating for the reception and engaged in sexual
intercourse with her in his car.
CL did not tell anyone about these acts until approximately six years later, when she confided in a
friend and then a family member. The Air Force Office of Special Investigations (AFOSI) was
notified of the allegation and investigated the matter.
Further facts relevant to each assignment of error are discussed below.
Appellant's Motion to Suppress Involuntary Statements
AFOSI agents interviewed the appellant. The interview was videotaped and transcribed. The agents
read the appellant his Article 31, UCMJ, 10 U.S.C. § 831, rights from a printed card and allowed him
to read along. The appellant acknowledged his rights, declined a lawyer, and agreed to answer
questions. After a rapport-building session, the agents confronted the appellant about an allegation
that he sexually assaulted CL. The appellant initially maintained that he did not remember doing
anything sexual with CL because it was a long time ago, but eventually admitted that he "did commit
a stupid action” in that he "was going to sleep with somebody." The appellant eventually stated that
he cheated on his wife but could not remember with whom he did so.
After more questioning, the appellant admitted that he had sex with someone in his Cadillac, and it
was either CL or a Senior Airman named Amanda. Eventually, after additional prodding, the
appellant admitted that it was CL whom he had sex with in his car. In his post-interview written
statement, the appellant wrote that he "ran out in [his] car with [CL] and had brief intercourse inside
the car." He also stated that he was going to tell his wife about the incident until he learned of CL's
age. The appellant only admitted to having sex with CL on the one occasion in his car and to kissing

milcase

7

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

her a few times after being "seduced." He denied any other sexual misconduct toward CL.
At trial, the defense motioned to suppress the confessions, asserting the appellant's statements were
the result of a promise of confidentiality by the two AFOSI agents. The appellant pointed to five
specific examples of such promises:
- "Like I said, what you say here stays with us. We don't go around telling everyone what you say
and everything else."
- "You don't have to worry about anything you say with us. Like I said, we are not trying to throw .
you up by a stake or anything else."
- "Everything that stays in this room, stays in this room."
- "I am not going to tell your wife about it either, you know. ... I am not going to tell anybody. . .
- "See, the thing about our office here is when we talk to people, we don’t share information with
other people."
In support of the motion to suppress, the appellant testified that these comments convinced him that
no matter what he said to the AFOSI agents, they would keep it to themselves. He further testified
that he believed the AFOSI agents would only submit a report to his commander indicating whether
he was being honest, and nothing more. According to the appellant, he believed the agents promised
him confidentiality, so he merely agreed with the allegations in order to leave the interview and get
on with his life.
The military judge denied the motion and issued findings of fact. Regarding the appellant's
testimony, the military judge stated: "The court finds this testimony to be totally, completely, and
unequivocally without merit." The military judge acknowledged the possibility that the agents'
statements, standing alone and taken out of context, might have reasonably implied a promise of
confidentiality. However, he found that when taken in the context of the entire conversation and
under the totality of the circumstances, the agents' statements implied no such promise. The military
judge noted that three of the statements were made in response to the appellant's concern about his
wife learning of the details of his infidelity with CL and therefore amounted to assurances merely that
the agents would not tell the appellant's wife what he said. Additionally, the military judge viewed the
other two statements as "tiny snippets of a lengthy discourse by the agents, which given the context
of the conversation, could not reasonably be construed as a promise of confidentiality." The military
judge also noted that the appellant's own statements during the interview demonstrated his
awareness that disciplinary action could result from his admissions, such as his question to agents
about whether this matter was "a court-martial thing." Ultimately, the military judge concluded that
"the defense . . . cherry picked five very short innocuous statements .... [which] taken individually,
or collectively, cannot reasonably be construed as a promise of confidentiality." The appellant
challenges this ruling on appeal.
A military judge's decision to deny a motion to suppress evidence is reviewed for an abuse of
discretion. United States v. Freeman, 65 M.J. 451, 453 (C.A.A.F. 2008).
"Abuse of discretion" is a term of art applied to appellate review of the discretionary judgments of
a trial court. An abuse of discretion occurs when the trial court's findings of fact are clearly
erroneous or if the court's decision is influenced by an erroneous view of the law. Further, the
abuse of discretion standard of review recognizes that a judge has a range of choices and will
not be reversed so long as the decision remains within that range.Id. (internal quotation marks
and citations omitted).

milcase

8

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

Generally, a confession is not admissible unless it has been made voluntarily, considering the totality
of the circumstances surrounding the confession. Arizona v. Fulminante, 499 U.S. 279, 285-86, 111
S. Ct. 1246, 113 L. Ed. 2d 302 (1991); Mil. R. Evid. 304(a). Military justice jurisprudence has long
held that a statement made in response to a promise of confidentiality by law enforcement agents
may be inadmissible, because the promise of confidentiality nullifies the rights advisement under
Article 31, UCMJ. United States v. Cudd, 6 C.M.A. 630, 20 C.M.R. 346, 352 (C.M.A. 1956). A rights
advisement followed by a promise of confidentiality "amounts to no warning, as the assurance could
only be interpreted to mean that the statement would not be used in a subsequent trial." Id. at 350.
Statements made in response to a promise of confidentiality are inadmissible, despite the provision
of a rights advisement, where the promise "inducejsj a belief in the mind of the accused that his
disclosure will not be made the basis for a criminal prosecution." United States v. Washington, 9
C.M.A. 131, 25 C.M.R. 393, 395 (C.M.A. 1958). Even an implied promise of confidentiality may
render a confession inadmissible if it is "the causative factor for. . . later confessions." United States
v. Green, 15 C.M.A. 300, 35 C.M.R. 272, 276 (C.M.A. 1965).
Promises of confidentiality are substantially similar to promises of testimonial immunity. See United
States v. Lonetree, 35 M.J. 396, 401-02 (C.M.A. 1992) (analyzing promises of confidentiality and
immunity under the same framework). If an official with either express or apparent authority
promises a suspect that no prosecution will result if the suspect confesses, courts will not hesitate to
enforce that promise. United States v. Churnovic, 22 M.J. 401, 405 (C.M.A. 1986). Promises of
confidentiality or immunity made without authority are forms of unlawful inducement. Lonetree, 35
M.J. at 402. "A confession is involuntary, and thus inadmissible, if it was obtained . . . through the
use of unlawful inducement." Freeman, 65 M.J. at 453 (internal quotation marks omitted) (citing Mil.
R. Evid. 304(a), (c)(3); Article 31(d), UCMJ).
Under Freeman, "promises are considered only a factor in the equation; they are not of themselves
determinative of involuntariness." Id. at 455. "In determining whether a defendant's will was
over-borne in a particular case," we assess "the totality of all the surrounding circumstances-both the
characteristics of the accused and the details of the interrogation." Id. at 453 (quoting Schneckloth v.
Bustamonte, 412 U.S. 218, 226, 93 S. Ct. 2041, 36 L. Ed. 2d 854 (1973)). Factors taken into account
in determining voluntariness include the accused's age, level of education, and intelligence, along
with any advice provided to the accused concerning his constitutional rights, the length of detention,
the nature of the questioning, and the use or absence of physical punishment such as the deprivation
of food or sleep. Id. (citations omitted).
We have reviewed the record of trial, including the written submissions on this issue at trial and on
appeal, the video recording of the confession, the transcript of the interview, and the appellant's
written confession. We have also considered oral argument on this issue. Our review leaves us
firmly convinced that the military judge did not abuse his discretion when he denied the appellant's
motion to suppress his confession.
We find no promise of confidentiality made by AFOSI agents. We acknowledge, as did the military
judge, that some of the agents' comments, taken in isolation, could be read to constitute a promise of
confidentiality or immunity.5 The individual statements the appellant cites should not be held up as a
model for other agents to follow, and in a different setting, might constitute a promise of
confidentiality or immunity. However, we agree with the military judge that when taken in the context
of the totality of the circumstances, most if not all of the agents' statements were made in response
to the appellant's concerns about his wife finding out about his actions.6 A fair reading of the entire
transcript and an unbiased viewing of the video recording indicates that the agents' comments were
not reasonably viewed as general commitments that the agents would forever keep the appellant's

milcase

9

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

statements in confidence, never to be revealed to anyone. Rather, they were poorly-worded
assurances that they would not broadcast his statements to anyone without a need to know the
information, including the appellant’s wife.
The appellant's own statements indicate his awareness that his statements could be used against
him. Toward the end of the interview, he asked agents if this matter could be treated as a
court-martial, and he also said that he might need a break to smoke if he was "being handcuffed out
of [the interview].” Throughout the interview, the appellant grudgingly disclosed more and more
information as he was confronted with the absurdity of his statement that he had sexual intercourse
with someone on the eve of his wedding, but could not remember who his partner was. Even when
he admitted to having sexual intercourse with CL in the car, he denied other allegations of sexual
misconduct. The appellant was well aware that any statements he made could be used against him.
We agree with the military judge that the appellant lacked credibility in his contention that he
believed agents would only submit a report to his commander indicating whether he was being
honest and nothing more. Apart from the inherent improbability of such a belief by a
noncommissioned officer who had been in the Air Force for more than 10 years at the time of the
interview, the appellant's lack of credibility in his motions testimony clearly presents itself through the
transcript.
We find agents made no promise of confidentiality and therefore the appellant's statements were
voluntary under the totality of the circumstances. We find no abuse of discretion in the military
judge's denial of the defense's motion to suppress the appellant's statements to AFOSI agents.
Factual Sufficiency
The appellant also avers that his convictions for rape, carnal knowledge, forcible sodomy, and
indecent acts with a child are factually insufficient.
Under Article 66(c), UCMJ, 10 U.S.C. § 866(c), we review issues of legal and factual sufficiency de
novo. See United States v. Washington, 57 M.J. 394, 399 (C.A.A.F. 2002). The test for factual
sufficiency is "whether, after weighing the evidence in the record of trial and making allowances for
not having personally observed the witnesses, [we are] convinced of the accused's guilt beyond a
reasonable doubt." United States v. Turner, 25 M.J. 324, 325 (C.M.A. 1987). Review of the evidence
is limited to the entire record, which includes only the evidence admitted at trial and exposed to the
crucible of cross-examination. Article 66(c), UCMJ; United States v. Bethea, 22 C.M.A. 223, 46
C.M.R. 223, 224-25 (C.M.A. 1973).
Having reviewed the entire record, including the appellant's confession and the victim's testimony,
we are convinced the appellant's convictions are factually sufficient.7 CL provided detailed and
believable testimony about the events that transpired, and the appellant's confession corroborated
some of her testimony. Despite attempts to do so, the defense was not able to establish any material
contradictions or inaccuracies in her testimony. We agree with the members that the appellant is
guilty of the charged offenses.
Failure to State an Offense
Notice of the terminal element of an Article 134, UCMJ, offense is an essential part of due process,
as an accused must know and fully understand the offenses against which he must defend. See
United States v. Humphries, 71 M.J. 209, 216 (C.A.A.F. 2012); United States v. Foster, 70 M.J. 225,
229 (C.A.A.F. 2011). Whether a charge and specification state an offense and the remedy for such
error are questions of law that we review de novo. United States v. Ballan, 71 M.J. 28, 33 (C.A.A.F.
2012). "A specification states an offense if it alleges, either expressly or by [necessary] implication,
every element of the offense, so as to give the accused notice and protection against double

milcase

10

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

jeopardy." United States v. Crafter, 64 M.J. 209, 211 (C.A.A.F. 2006) (citing United States v. Dear,
40 M.J. 196, 197 (C.M.A. 1994)); Rule for Courts-Martial 307(c)(3).
Charge III and its Specification alleged a violation of Article 134, UCMJ, in that the appellant
committed indecent acts upon the victim, a female under the age of 16, not his wife, by committing
certain acts upon her with the intent to gratify his sexual desires. The Specification did not allege one
of the three possible clauses of the terminal element: prejudice to good order and discipline, service
discrediting, or a crime or offense not capital. The appellant did not contest the wording of the
specification at trial.
Because the appellant did not object to the missing element at trial, we analyze this case for plain
error and in doing so find that the failure to allege the terminal element was "plain and obvious error
that was forfeited rather than waived." See Humphries, 71 M.J. at 215. In the context of a plain error
analysis of defective indictments, the appellant has the burden of demonstrating that: "(1) there was
error; (2) the error was plain or obvious; and (3) the error materially prejudiced a substantial right of
the accused." Id. at 214 (quoting United States v. Girouard, 70 M.J. 5, 11 (C.A.A.F. 2011)) (internal
quotation marks omitted). "[I]n the plain error context[,] the defective specification alone is
insufficient to constitute substantial prejudice to a material right." Humphries, 71 M.J. at 215 (citing
Puckett v. United States, 556 U.S. 129, 142, 129 S. Ct. 1423, 173 L. Ed. 2d 266 (2009); United
States v. Cotton, 535 U.S. 625, 631-32, 122 S. Ct. 1781, 152 L. Ed. 2d 860 (2002)). Therefore,
reviewing courts "look to the record to determine whether notice of the missing element is
somewhere extant in the trial record, or whether the element is 'essentially uncontroverted.’" Id. at
215-16 (quoting Cotton, 535 U.S. at 633; Johnson v. United States, 520 U.S. 461, 470, 117 S. Ct.
1544, 137 L. Ed. 2d 718 (1997)). If this is the case, the charging error is considered cured and
material prejudice is not demonstrated. Id. at 217.
The only mention of any of the clauses of the terminal element during the trial was by trial counsel
during closing arguments when, after recounting the facts alleged in the Specification, he argued to
the jury that, "It should take you about five seconds to realize that committing these horrible acts on
an Air Force Installation on a 13-year-old child is prejudicial to good order and discipline in the United
States Air Force." The defense did not address this point.
Our superior court has specified that identifying a theory of criminality during closing argument alone
does not constitute sufficient notice to find a lack of prejudice from omission of the terminal element
on the charge sheet. United States v. Goings, 72 M.J. 202, 208 (C.A.A.F. 2013). Because notice of
the missing element is not "somewhere extant in the trial record," as required by Humphries, it was
plain and obvious error to omit the terminal element from the Specification alleging indecent acts
under Article 134, UCMJ. That error prejudiced the appellant's right to notice. Accordingly, we
dismiss the finding of guilty for Charge III and its Specification.
Prosecutorial Misconduct and Perjury
We have considered the appellant's fourth and fifth assigned errors, raised pursuant to United States
v. Grostefon, 12 M.J. 431 (C.M.A 1982), and find them meritless.
We have reviewed the appellant's claim of prosecutorial misconduct under the standards of United
States v. Halpin, 71 M.J. 477, 479 (C.A.A.F. 2013), United States v. Edmond, 63 M.J. 343, 347
(C.A.A.F. 2006), and United States v. Argo, 46 M.J. 454, 457 (C.A.A.F. 1997). We have paid special
attention to the "overall effect of counsel's conduct on the trial, and not counsel's personal
blameworthiness." United States v. Thompkins, 58 M.J. 43, 47 (C.A.A.F. 2003). Having examined
trial counsel's conduct as well as the fairness of this trial, we find no merit in the appellant's claim.
The appellant claims the victim committed perjury, pointing to statements in the Article 32, UCMJ, 10

milcase

11

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

U.S.C. § 832, investigation which he claims could be used to contradict her. He then relates this back
to his argument that the evidence was insufficient to support a conviction. We have already
addressed the issue of factual sufficiency and there is no need to rehash it. Trial defense counsel
subjected CL to a vigorous cross-examination. The members believed her, and we are similarly
convinced by her testimony and the other evidence in the record of trial, to include the appellant's
confession. We find no merit to the appellant's claim
Cumulative Error
The appellant avers that cumulative errors occurred at trial that should compel us to set aside the
findings and sentence. In this argument, the appellant raises eight errors he alleges transpired during
trial, some with several subparts.
As our sister court observed, we "evaluate the fairness of the appellant's trial using the cumulative
error doctrine." United States v. Parker, 71 M.J. 594, 630 (N.M. Ct. Crim. App. 2012) (citing United
States v. Dollente, 45 M.J. 234, 242 (C.A.A.F. 1996); United States v. Banks, 36 M.J. 150, 171
(C.M.A. 1992)). As the Parker Court stated, Dollente requires us to evaluate the errors
[ajgainst the background of the case as a whole, paying particular weight to factors such as the
nature and number of the errors committed; their interrelationship, if any, and combined effect;
how the [trial] court dealt with the errors as they arose (including the efficacy-of any remedial
efforts); and the strength of the government's case.71 M.J. at 603 (second alteration in original).
Some of the errors alleged by the appellant include supposed errors by the military judge in his
instructions, misstatements of the evidence by the prosecutor, the denial of the right to an educated
jury due to the prosecutor's failure to present expert testimony on child behavior that would favor the
appellant's case, and that a testifying AFOSI agent was allowed to give human lie detector
testimony. We have reviewed the appellant's allegations and find no error. Rather, we find rulings
and decisions made well within the sound discretion of the military judge. There was ample evidence
of the appellant's guilt and there were no errors that materially prejudiced his substantial rights.
Under these circumstances, the appellant was not denied a fair trial, and the cumulative error
doctrine is not applicable. See United States v. Pope, 69 M.J. 328, 335 (C.A.A.F. 2011); Dollente, 45
M.J. at 242.
Visitation Rights
Citing United States v. Ouimette, 52 M.J. 691 (C.G. Ct. Crim. App. 2000), the appellant claims the
USDB's refusal to allow him visitation rights with his children illegally constituted a "harsher [and]
excessive sentence and punishment" because (1) he did not commit any offense against his own
children, (2) he was issued a meritless no-contact order, and (3) the USDB administrative system
improperly lists him as single with no dependents. The appellant submitted documents indicating he
is under a blanket restriction from having any visitation and from making any contact with his own
children (even indirectly through contact via his wife).8 He sent a request to the USDB Commandant
for an exception to this policy but was denied. He filed a complaint with the Inspector General, and
although he states he has filed a complaint pursuant to Article 138, UCMJ, 10 USC § 938, the record
lacked any other indication or evidence of this assertion.9
We review allegations of cruel and unusual punishment de novo. United States v. Lovett, 63 M.J.
211, 215 (C.A.A.F. 2006). As our superior court noted:
[T]he Eighth Amendment prohibits two types of punishments: (1) those "incompatible with the
evolving standards of decency that mark the progress of a maturing society" or (2) those "which
involve the unnecessary and wanton infliction of pain.” We apply the Supreme Court's

milcase

12

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

interpretation of the Eighth Amendment in the absence of any legislative intent to create greater
protections in the UCMJ./d. (citations omitted). Except for specific situations not applicable to
this case, Article 55, UCMJ, 10 U.S.C. § 855, is coterminous with the Eighth Amendment,10 and
we will apply that standard to both provisions. See United States v. Pena, 64 M.J. 259, 265
(C.A.A.F. 2007); United States v. Matthews, 16 M.J. 354, 368 (C.M.A. 1983).
A violation of the Eighth Amendment is shown by demonstrating:
(1) an objectively, sufficiently serious act or omission resulting in the denial of necessities; (2) a
culpable state of mind on the part of prison officials amounting to deliberate indifference to [the
appellant's] health and safety; and (3) that he has exhausted the prisoner-grievance system . . .
and that he has petitioned for relief under Article 138, UCMJ.Lovett, 63 M.J. at 215 (omission in
original) (footnotes omitted).
Applying these standards, we find no violation of the Eighth Amendment or Article 55, UCMJ. The
appellant's complaint does not amount to a serious act or omission resulting in a denial of
necessities. Typically, such serious acts or omissions include matters such as denial of needed
medical attention, proper food, sanitary living conditions, or even physical abuse. See United States
v. Avila, 53 M.J. 99, 101 (C.A.A.F. 2000). The appellant's deprivation is more akin to routine
conditions associated with punitive or administrative segregation such as restriction of contact with
other prisoners, of exercise outside a cell, of visitation privileges, of telephone privileges, and/or of
reading material. See Id. at 102. We also note that not all visitation or outside contact was withheld
from the appellant, just a certain segment of it. This partial, rather than full, restriction on the
appellant's ability to communicate with friends and family also supports the Government's case. See
Turner v. Safiey, 482 U.S. 78, 107 S. Ct. 2254, 96 L. Ed. 2d 64 (1987); Henderson v. Terhune, 379
F.3d 709 (9th Cir. 2004). Also, the appellant has not shown the Commandant acted with a culpable
state of mind. He did not arbitrarily select the appellant and deny him contact with minors. He was
merely enforcing the USDB's rules.
We emphasize that the USDB rules about visitation with children are enforced for the protection of
minors. That the appellant has to undergo a strict screening policy before being granted permission
to visit his children is an administrative safeguard to protect minor juveniles from those convicted of
child sex crimes. It is not an additional punishment or a method of enhancing the sentence already
adjudged. Accordingly, we find no merit to the appellant's claim.
Propriety of Charges
The appellant argues that the offenses of carnal knowledge and indecent acts were improperly
charged and should be dismissed because the legal actions to bring him to trial on these offenses
occurred after 1 October 2007. According to the appellant, Executive Order 13447 and the 2006
National Defense Authorization Act amended the Manual for Courts-Martial, and eliminated these
two offenses. He argues that because the Executive Order states that nothing in the amendments
would invalidate certain legal actions, to include investigations and referral of charges, that began
prior to 1 October 2007, and the legal actions that preceded the appellant's trial occurred after that
date, they were rendered invalid by the Executive Order because they occurred too late.
This argument is without merit. Executive Order 13447 and the 2006 National Defense Authorization
Act did not eliminate these two offenses in the sense that no one could be prosecuted for them if
legal action began after 1 October 2007. The Executive Order merely incorporated the amendments
to Article 120, UCMJ, and other provisions. It did not bar prosecution of violations of the law as it was
written prior to the amendments and the Executive Order.
These offenses were all alleged as perpetrated against a child between the ages of 12 and 16 years

milcase

13

©2021 Matthew Bender & Company, Inc., a member of the LexisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

old. As such, each has a 25-year statute of limitations and may be prosecuted any time within that
period. See United States v. Lopez de Victoria, 66 M.J. 67 (C.A.A.F. 2008). See also Article 43,
UCMJ, 10 U.S.C. § 843; Drafter’s Analysis, Manual for Courts-Martial, United States, A21-57, A27
(2012 ed.). The language cited by the appellant in the Executive Order does not bar the offense from
being prosecuted.
Review of CL's Mental Health and Medical Records
The appellant next alleges that either the military judge or the Government denied him a fair trial by
failing to provide him with relevant mental health and medical records of CL. The appellant alleges
that the records he sought would have demonstrated that the charged acts occurred not in 2004 but
in 2006, near the time she underwent a significant medical procedure.
A patient has a privilege to refuse to disclose and to prevent any other person from disclosing a
confidential communication made between the patient and a psychotherapist or an assistant to a
psychotherapist, in a case arising under the UCMJ, if such communication was made for the
purpose of facilitating diagnosis or treatment of the patient's mental or emotional condition.Mil.
R. Evid. 513(a). However, no such privilege exists when the records are "constitutionally
required." Mil. R. Evid. 513(d)(8). "To prevent unnecessary disclosure of evidence of a patient's
records or communications, the military judge may issue protective orders or may admit only
portions of the evidence." Mil. R. Evid. 513(e)(4).
"We review a military judge's decision to admit or exclude evidence for an abuse of discretion."
United States v. Jenkins, 63 M.J. 426, 428 (C.A.A.F. 2006) (citing United States v. Manns, 54 M.J.
164, 166 (C.A.A.F. 2000)).
At trial, the defense moved to compel production of CL's mental health records covered by Mil. R.
Evid. 513. Trial counsel provided the appropriate records to the military judge; however after
reviewing them in camera, he determined no records would be provided to the defense. The defense
did not move to produce any of CL's medical records. While trial defense counsel did file a notice
under Mil. R. Evid. 412 indicating a desire to cross-examine the victim about the alleged medical
procedure, he abandoned the effort when he learned a Government witness would testify the
procedure took place at a different time-a time trial defense counsel believed would be supported by
the mental health records. Based on this, trial defense counsel twice told the military judge they no
longer sought to pursue this matter.
We have reviewed the appellant's assignment of error, the defense’s filings under Mil. R. Evid. 412
and 513, trial defense counsel's representations to the military judge, and the mental health records.
We find no abuse of discretion in the military judge's decision not to release mental health records to
the defense. We similarly find no basis for relief in trial defense counsel's decision not to pursue
questioning about the alleged medical procedure. The decision of the defense to pursue this issue
resulted from a lack of evidence to support the defense theory, not from any action of the military
judge or the Government.
Military Judge's Instructions on Force Elements
The appellant alleges that the military judge's findings instructions concerning force in the forcible
sodomy and rape specifications erred in three respects: (1) his instructions on the forcible sodomy
specification erroneously lessened the Government's burden of proof by allowing the members to
find force occurred simply on the basis of CL's age; (2) his instructions concerning the rape and
forcible sodomy specifications improperly included the concept of constructive force; and (3) the
military judge failed to give a "mistake of age" instruction.

milcase

14

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

Whether the military judge properly instructed the members is a question of law we review de novo.
United States v. Maynulet, 68 M.J. 374, 376 (C.A.A.F. 2010). However, "[wjhere there is no objection
to an instruction at trial, we review for plain error." United States v. Payne, 73 M.J. 19, 22 (C.A.A.F.
2014).
We find no error-plain or otherwise-in the military judge's instructions. The military judge's
instructions concerning the forcible sodomy specifications did not allow the members to find force
solely because of CL's age; rather they properly presented CL's age as one factor the members
could consider in determining whether CL was incapable of giving consent. The military judge's
constructive force instruction was proper, as constructive force has long been held to satisfy the
requirement of force under the version of Article 120, UCMJ, applicable to the time of the appellant's
misconduct.11 See, e.g., United States v. Davis, 52 M.J. 201, 203 (C.A.A.F. 1999). Finally, we find
no plain error in the lack of a "mistake of age" instruction based on the lack of indication in the record
of trial that the appellant was mistaken as to CL's age.
Appellate Review Time Standards
We review de novo "[wjhether an appellant has been denied [his] due process right to a speedy
post-trial review . . . and whether [any] constitutional error is harmless beyond a reasonable doubt."
United States v. Allison, 63 M.J. 365, 370 (C.A.A.F. 2006). A presumption of unreasonable delay
arises when appellate review is not completed and a decision is not rendered within 18 months of the
case being docketed before this Court. United States v. Moreno, 63 M.J. 129, 142 (C.A.A.F. 2006).
The Moreno standards continue to apply as a case remains in the appellate process. United States v.
Mackie, 72 M.J. 135, 135-36 (C.A.A.F. 2013). The Moreno standard is not violated when each period
of time used for the resolution of legal issues between this Court and our superior court is within the
18-month standard. Id. at 136; see also United States v. Roach, 69 M.J. 17, 22 (C.A.A.F. 2010).
However, when a case is not completed within 18 months, such a delay is presumptively
unreasonable and triggers an analysis of the four factors elucidated in Barker v. Wingo, 407 U.S.
514, 92 S. Ct. 2182, 33 L. Ed. 2d 101 (1972), and Moreno. See United States v. Arriaga, 70 M.J. 51,
55 (C.A.A.F. 2011). Those factors are "(1) the length of the delay; (2) the reasons for the delay; (3)
whether the appellant made a demand for a speedy trial; and (4) prejudice to the appellant." United
States v. Mizgala, 61 M.J. 122, 129 (C.A.A.F. 2005); see also Barker, 407 U.S. at 530.
This case was originally docketed for appellate review on 11 July 2011 and this Court rendered a
decision on 18 July 2013. This exceeded the 18-month standard established in Moreno and is
therefore facially unreasonable. We have examined the factors identified in Barker to determine
whether the appellant suffered from a due process violation as a result of the delay. We find that no
such due process violation occurred in the delay leading up to this Court's 18 July 2013 decision. In
particular, the appellant has made no showing of prejudice under the fourth Barker factor. When
there is no showing of prejudice under the fourth factor, "we will find a due process violation only
when, in balancing the other three factors, the delay is so egregious that tolerating it would adversely
affect the public's perception of the fairness and integrity of the military justice system." United
States v. Toohey, 63 M.J. 353, 362 (C.A.A.F. 2006). Having considered the totality of the
circumstances and the entire record, when we balance the other three factors, we find the post-trial
delay in this case to not be so egregious as to adversely affect the public's perception of the fairness
and integrity of the military justice system. We are convinced the error is harmless beyond a
reasonable doubt.
As for the time that has elapsed since this Court's 18 July 2013 decision, we find no due process
violation. The Moreno standards continue to apply as a case continues through the appellate
process. Mackie, 72 M.J. at 135-36. The Moreno standard is not violated when each period of time

milcase

15

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNcxis Group. All rights reserved. Use ofthis product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

used for the resolution of legal issues between this Court and our superior court is within the
18-month standard. Id. at 136; see also Roach, 69 M.J. at 22. The time between our superior court's
action to return the record of trial to our Court for our action and this decision did not exceed 18
months; therefore, the Moreno presumption of unreasonable delay is not triggered. See Mackie, 72
M.J. at 136. Assuming the total appellate processing of this case raises a presumption of
unreasonable delay, we again conclude the delay was harmless under the Barker analysis.
While we find the post-trial delay was harmless, that does not end our analysis. Article 66(c), UCMJ,
empowers appellate courts to grant sentence relief for excessive post-trial delay without the showing
of actual prejudice required by Article 59(a), UCMJ, 10 U.S.C. § 859(a). United States v. Tardii, 57
M.J. 219, 224 (C.A.A.F. 2002); see also United States v. Harvey, 64 M.J. 13, 24 (C.A.A.F. 2006). In
United States v. Brown, 62 M.J. 602, 606-07 (N.M. Ct. Crim. App. 2005), our Navy and Marine Court
colleagues identified a "non-exhaustive" list of factors to consider in evaluating whether Article 66(c),
UCMJ, relief should be granted for post-trial delay. Among the non-prejudicial factors are the length
and reasons for the delay; the length and complexity of the record; the offenses involved; and the
evidence of bad faith or gross negligence in the post-trial process. Id. at 607. We find there was no
bad faith or gross negligence in the post-trial processing in any stage of the appellate review of this
matter. The reason for the delay between 18 July 2013 and our opinion today was to allow this Court
and our superior court to fully consider a constitutional issue of first impression: whether the
Secretary of Defense has the authority under the Appointments Clause12 to appoint civilian
employees to the service courts of criminal appeals. We conclude that sentence relief under Article
66, UCMJ, is not warranted.
Sentence Reassessment
Having dismissed Charge III and its Specification, we must determine whether we are able to
reassess the sentence. Applying the analysis set forth in United States v. Winckelmann, 73 M.J. 11
(C.A.A.F. 2013), we are confident that we can reassess the appellant's sentence to cure any
prejudicial effect of the error in the defective specification. Under the four factors identified in
Winckelmann, and analyzing this matter under the totality of the circumstances, we are confident that
absent the defective specification, the appellant's sentence would not change from that adjudged and
approved. See Id. at 15-16. We base this conclusion on three findings: (1) there has not been a
dramatic change in the penalty landscape and exposure because conviction for forcible sodomy
carried with it a maximum sentence to confinement of life; (2) the nature of the remaining offenses
captures the gravamen of criminal conduct included within the original offenses, and significant
aggravating circumstances addressed at the court-martial remain admissible and relevant to the
remaining offenses; and (3) the remaining offenses are of the type this Court has the experience and
familiarity with to reliably determine what sentence would have been imposed at trial. We therefore
reassess the appellant's sentence to the same sentence originally adjudged and approved.
Conclusion
We set aside and dismiss Charge III and its Specification and affirm the remaining findings and the
sentence as approved by the convening authority. The approved findings, as modified, and the
sentence are correct in law and fact, and no error materially prejudicial to the substantial rights of the
appellant regarding the affirmed charges and specifications occurred. Articles 59(a) and 66(c),
UCMJ.
Accordingly, the findings, as modified, and the sentence, are
AFFIRMED.

milcase

16

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

Footnotes

1
The convening authority's action states, in relevant part:
In the case of [the appellant], only so much of the sentence as provides for a dishonorable discharge,
confinement for 25 years, and reduction to the grade of Airman Basic (E-1) is approved and, except
for the dishonorable discharge, will be executed, but the execution of the first six months of that part
of the sentence extending to forfeiture of total pay and allowances is suspended for six months, at
which time, unless the suspension is sooner vacated, the suspended part of the sentence will be
remitted without further action.The action then noted that the adjudged reduction in rank and
forfeiture were deferred 14 days from the date the sentence was adjudged until the date of the
action. The action also waived mandatory forfeitures under Article 58b, UCMJ, 10 U.S.C. § 858b.
Therefore, the first part of the action's first sentence excludes the total forfeitures from approval,
while the second half of the first sentence purports to suspend execution of the adjudged forfeitures.
The appellant did not raise this as an issue, and both parties' appellate filings clearly indicate their
understanding that the adjudged forfeiture was not approved. The court-martial order accurately
reflects the language of the convening authority's action. For clarity’s sake, we explicitly find that the
convening authority's action unambiguously disapproved the adjudged forfeiture. See United States
v. Wilson, 65 M.J. 140 (C.A.A.F. 2007).
2
U.S. Const, amend. V.
3
U.S. Const, amend. XIV.
4
Issues 4, 5, 6, 8, 9 and 10 were raised pursuant to United States v. Grostefon, 12 M.J. 431 (C.M.A
1982). This Court's original opinion addressed issues 1 through 8. In supplemental assignments of
error submitted to this Court upon reconsideration, the appellant re-raised some but not all of the
previously submitted issues and raised new issues 9 through 11. It is not clear why the appellant
re-raised some but not all of the previously submitted issues. This Court has analyzed all 11 issues,
regardless of whether the appellant elected to re-raise them.
5
In addition to the comments cited by the appellant, we also point out the following statement by one
of the agents:
"

[Rjight now this is where the crossroad is. You need to make that decision of which way you are
going. This is where you have the option to A), go on and save your career and have a long living
career, or B), you can lie to me and you are going to watch your career flush down the
toilet.(emphasis added).
6
The appellant’s concern about his wife finding out about his extra-marital sexual conduct with an
underage relative is reflected in the record of trial. When the appellant's wife testified in findings on
his behalf, she admitted that she did not know that the appellant confessed to having sexual
intercourse with CL until shortly before trial, when trial counsel informed her of the appellant's
admissions.

milcase

17

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

S

-

7
Though not specifically raised, we also find that the appellant's convictions are legally sufficient. See
United States v. Humpherys, 57 M.J. 83, 94 (C.A.A.F. 2002); United States v. Turner, 25 M.J. 324
(C.M.A. 1987).
8
The United States Disciplinary Barracks' regulations prevent him from seeing any children without
first obtaining an "exception to policy."

9
Our July 2013 decision noted the absence of any indication or evidence that the appellant filed a
complaint under Article 138, UCMJ, 10 U.S.C. § 938. Despite submitting voluminous filings in this
case, the appellant still has not provided any such proof that he filed such a complaint. Even
assuming he has submitted such a complaint, our conclusion on this matter remains the same.

10
U.S. Const, amend. VIII.

11
The appellant was charged with raping CL on divers occasions between 1 July 2004 and 30
September 2004 in violation of Article 120, UCMJ, 10 U.S.C. § 920. See Manual for Courts-Martial,
United States, A27-1 (2012 ed.).

12
U.S. Const, art II § 2, cl 2.

milcase

18

© 202 ] Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

APPENDIX
D

U.S. v. Rafael Verdeio-Ruiz.
UNITED STATES COURT OF APPEALS FOR THE ARMED FORCES
74 M.J. 328; 2015 CAAF LEXIS 902
No. 14-0010/AF.
March 26, 2015, Decided

Notice:
DECISION WITHOUT PUBLISHED OPINION
Editorial Information: Prior History
CCA 37957.United States v. Verdeio-Ruiz. 2013 CCA LEXIS 680 (A.F.C.C.A., July 18, 2013)
Opinion

Petition for Grant of Review Denied.

milcase

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

APPENDIX
E

t

RAFAEL VERDEJO RUIZ vs. WARDEN EDGE
UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF TEXAS, TEXARKANA
DIVISION
2018 U.S. Dist. LEXIS 222281
CIVIL ACTION NO. 5:18-CV-22
December 13, 2018, Decided
December 13, 2018, Filed
Editorial Information: Subsequent History
Adopted by, Writ of habeas corpus dismissed, Objection overruled by Ruiz v. Warden, Fed. Corr. Inst.,
2019 U.S. Dist. LEXIS 35347 (E.D. Tex., Mar. 5, 2019)
Editorial Information: Prior History
United States v. Verdeio-Ruiz, 2013 CCA LEXIS 680 (A.F.C.C.A., July 18, 2013)
{2018 U.S, Dist. LEXIS 1>Rafael Verdeio Ruiz, Petitioner, Pro se,

Counsel
Texarkana, TX.

For FNU Edge, Respondent: Robert Austin Wells, LEAD
ATTORNEY, U S Attorney's Office - Tyler, Tyler, TX.
Judges: CAROLINE M. CRAVEN, UNITED STATES MAGISTRATE JUDGE.
Opinion
Opinion by:

CAROLINE M. CRAVEN
Opinion

REPORT AND RECOMMENDATION OF UNITED STATES MAGISTRATE JUDGE
Petitioner Rafael Verdeio Ruiz, a prisoner confined at the Federal Correctional Institution in
Texarkana, Texas, filed this petition for writ of habeas corpus pursuant to 28 U.S.C. § 2241.
The above-styled action was referred to the undersigned Magistrate Judge pursuant to 28 U.S.C. §
636 and the Local Rules for the Assignment of Duties to the United States Magistrate Judge for
findings of fact, conclusions of law, and recommendations for the disposition of the case.
Factual Background
In 2011, petitioner, a former active duty member of the United States Air Force, was tried by a
general court-martial and found guilty of four specifications: (1) rape of a person between the ages of
12 and 16, (2) carnal knowledge with a person between the ages of 12 and 16; (3) sodomy of a
person between the ages of 12 and 16; and (4) indecent acts upon the body of a female under the
age of 16. He was sentenced to a dishonorable discharge, 25 years of{2018 U.S. Dist. LEXIS 2}
confinement, reduction in grade from E-6 to E-1, and forfeiture of all pay and allowances.

lyecases

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

In military cases, the appeal process begins with the defense submitting matters to the convening
authority. RULE FOR COURTS-MARTIAL (R.C.M.) 11.05. Following that review, the convening
authority approved the dishonorable discharge, confinement for 25 years, and reduction in grade to
E-1. However, the convening authority granted petitioner clemency by disapproving the adjudged
forfeitures of pay and allowance, and by waiving the imposition of automatic forfeitures for 6 months
for the benefit of petitioner's wife and children.
The case was appealed to the Air Force Court of Criminal Appeals (AFCCA). The AFCCA set aside
the specification alleging indecent acts. Because the remaining offenses carried the same maximum
punishment, the AFCCA affirmed the sentence. Petitioner filed a motion for reconsideration. The
AFCCA affirmed its prior decision. On March 26, 2015, the United States Court of Appeals for the
Armed Forces (CAAF) denied petitioner's petition for review, and the CAAF subsequently denied an
untimely motion for reconsideration.
After his discharge from the United States Air Force on April{2018 U.S. Dist. LEXIS 3} 14, 2015,
petitioner sought habeas relief from the CAAF. The CAAF denied the petition on June 22, 2016.
The Petition
Petitioner contends he raised an affirmative defense that he mistakenly believed that the victim
consented to sexual acts, but the trial judge failed to instruct the jurors that the government had the
. burden of disproving his affirmative defense beyond a reasonable doubt. Petitioner challenges the
pay forfeiture portion of his sentence, asserting that he should either receive his pay or his sentence
should be reduced by one day for each day of forfeited pay. Petitioner contends he received
ineffective assistance of counsel because his attorneys failed to raise these issues, and also because
his appellate attorney failed to file a timely brief.
Analysis
The military has its own criminal justice system, which is governed by the Uniform Code of Military
Justice. Burns v. Wilson, 346 U.S. 137, 140, 73 S. Ct. 1045, 97 L. Ed. 1508 (1953). The UCMJ
provides for courts-martial, direct appellate review, and post-conviction review through the military
court system, and limited certiorari review by the United States Supreme Court. Fletcher v. Outlaw,
578 F.3d 274, 277 (5th Cir. 2009). Although federal courts have jurisdiction over habeas petitions
filed by military prisoners, the scope of review is limited.{2018 U.S. Dist. LEXIS 4} Burns, 346 U.S.
at 142. Federal habeas review of a court martial is limited to jurisdictional issues and determining
whether the military gave full and fair consideration to the petitioner's claims. Calley v. Callaway, 519
F.2d 184, 198 (5th Cir. 1975). It is the petitioner's burden to show that the military review was not full
and fair. Burns, 346 U.S. at 146.
Federal courts may not reevaluate and re-weigh the evidence presented in the military courts. Burns,
346 U.S. at 146. The United States Court of Appeals for the Fifth Circuit has held that review of a
military conviction is only appropriate if the petitioner meets each of the following four factors: (1) the
asserted error is of "substantial constitutional dimension," (2) the issue is a legal question rather than
a disputed fact determined by the military court; (3) there are no military considerations that warrant
different treatment of constitutional claims; and (4) the military courts gave adequate consideration
to the issues involved and applied the proper legal standards. Calley, 519 F.2d at 199-203. With
respect to the fourth factor, when an issue is briefed and argued before the miliary court, full and fair
consideration has been given, even if the military court summarily disposes of the issue. Fletcher,
578 F.3d at 278.
Petitioner states that none of the claims raised in this petition were{2018 U.S. Dist. LEXIS 5}

lyecases

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

litigated in the military courts. 1 Because they were not litigated in the military courts, the claims are
unexhausted. "Federal courts normally will not entertain habeas petitions by military prisoners unless
all available military remedies have been exhausted." Schlesinger v. Councilman, 420 U.S. 738, 758,
95 S. Ct. 1300, 43 L. Ed. 2d 591 (1975); see also Perguson v. Nicoli, 694 F.2d 101, 104 (5th Cir.
1982) (holding that constitutional claims must be exhausted in military courts before federal habeas
review). Where the issue was not raised before the miliary courts, the petitioner must show cause
excusing the procedural default and actual prejudice as a result of the error. Lips v. Commandant,
United States Disciplinary Barracks, 997 F.2d 808, 812 (10th Cir. 1993).
The accused in a military court has the right to raise any issues on appeal, and appellate counsel
must bring those issues to the attention of the military court in addition to the issues that counsel
finds worthy of appeal. United States v. Grostefon, 12 M.J. 431,436-37 (1982). In this case,
appellate counsel filed a brief, and then petitioner exercised his right to raise additional issues on
appeal to the AFCCA. The AFCCA addressed each of the issues that petitioner raised, as well as the
issues raised by counsel. The claims raised in this petition could have been addressed on direct
appeal, but petitioner did not bring the issues to the attention of counsel or the AFCCA in a timely
fashion.{2018 U.S. Dist. LEXIS 6) In this case, petitioner has not shown cause or prejudice for failing
to present his claims on direct review in the military courts. Therefore, the claims are procedurally
barred from consideration in a federal habeas proceeding.
Recommendation
This petition for writ of habeas corpus should be dismissed.
Objections
Within fourteen days after receipt of the Magistrate Judge's report, any party may serve and file
written objections to the findings of facts, conclusions of law and recommendations of the Magistrate
Judge. 28 U.S.C. § 636(b)(1)(C).
Failure to file written objections to the proposed findings of facts, conclusions of law and
recommendations contained within this report within fourteen days after service shall bar an
aggrieved party from the entitlement of de novo review by the district court of the proposed findings,
conclusions and recommendations and from appellate review of factual findings and legal
conclusions accepted by the district court except on grounds of plain error. Douglass v. United
Services Automobile Ass'n, 79 F.3d 1415, 1417 (5th Cir. 1996) (en banc); 28 U.S.C. § 636(b)(1);
FED. R. CIV. P. 72.
SIGNED this 13th day of December, 2018.
Isl Caroline M. Craven
CAROLINE M. CRAVEN
UNITED STATES MAGISTRATE JUDGE
Footnotes

1
Citing Watson v. McCotter, 782 F.2d 143 (10th Cir. 1986), respondent contends the military courts
gave full and fair consideration to petitioner's claims of ineffective assistance of counsel. In Watson,
the Tenth Circuit held that an issue that was briefed received fair consideration, "even though its

1yecases

3

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

opinion summarily disposed of the issue with the mere statement that it did not consider the issue
meritorious or requiring discussion." Watson, 782 F.2d at 145. In this case, petitioner raised his
claims of ineffective assistance of counsel in a motion for leave to file a supplemental assignment of
error that the AFCCA denied, and then he raised them in a petition for review that the CAAF denied.
There is no indication from either of these denials of procedural matters that the claims were
reviewed and rejected on the merits.

1yecases

4

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. AH rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

he received ineffective assistance of counsel because his attorneys failed to raise these issues, and
also because his appellate attorney failed to file a timely brief.
None of the petitioner's claims were litigated on the merits in the military courts. The claims
concerning the jury instruction and salary forfeiture were never raised in the military courts. Thus,
those claims are clearly unexhausted. The petitioner contends that he raised the ineffective
assistance of counsel claims in a timely manner. This objection lacks merit. In the military courts, the
accused has the right to raise any issues on appeal, in addition to the issues raised by{2019 U.S.
Dist. LEXIS 3} counsel. United States v. Grostefon, 12 M.J. 431, 436-37 (1982). Although the
petitioner exercised his right to raise additional issues, he did not raise the ineffective assistance of
counsel claims in his Grostefon brief. The petitioner later raised the ineffective assistance of counsel
claims in a motion for leave to file a supplemental assignment of error, but the Air Force Court of
Criminal Appeals (AFCCA) denied the petitioner leave to file the supplemental assignment of error.
The petitioner also raised the claims in a petition for review, but the United States Court of Appeal
for the Armed Forces (CAAF) exercised its discretion to deny review. Because none of the claims
raised in this petition were litigated on the merits in the military courts, the magistrate judge correctly
concluded that the claims are unexhausted.
The petitioner contends that the district court should consider the unexhausted claims because the
military courts will not review the claims in a habeas petition. However, claims that were not raised in
the military courts are deemed to be waived. Roberts v. Callahan, 321 F.3d 994, 995 (10th Cir.
2003). In order for a federal district court to review the merits of unexhausted, waived claims, the
petitioner must show cause for the procedural default and actual prejudice{2019 U.S. Dist. LEXIS 4}
resulting from the alleged error. Lips v. Commandant, United States Disciplinary Barracks, 997 F.2d
808, 812 (10th Cir. 1993).
The petitioner objects to the magistrate judge’s conclusion that the petitioner had not demonstrated
cause for failing to exhaust his claims. The petitioner alleges that military authorities lost his copy of
the trial record while his appeals were pending, and that he did not receive a new copy until he was
working on this petition. The petitioner contends that the loss of his trial record is cause for the
default, however, the petitioner has not demonstrated that the trial record was lost before the first
Grostefon brief was filed, or that he could not have raised the issues without the trial record.
Next, the petitioner contends counsel's delay in filing the motion for leave to file a supplemental
assignment of error caused the procedural default. The record shows that the AFCCA affirmed the
petitioner's sentence on July 18, 2013. United States v. Verdeio-Ruiz, 2013 CCA LEXIS 680, 2013
WL 3972293 (A.F.C.C.A. July 18, 2013) (unpublished). On April 29, 2014, the AFCCA granted the
petitioner's motion for reconsideration and allowed him to file a supplemental assignment of error.
The petitioner actually filed two supplemental assignments of error, which raised a total of three new
issues. The petitioner contends that he requested his attorney(2019 U.S. Dist. LEXIS 5} to raise the
ineffective assistance of counsel claims in a third supplemental assignment of errorM on June 1,
2014, which the attorney filed on June 24, 2014. Although the AFCCA addressed the merits of the
issues raised in the first two supplemental assignments of error, the AFCCA found that the third
supplemental assignment of error was filed "well after the deadline for supplemental briefs to be
submitted in this case and after oral argument." United States v. Verdeio-Ruiz, 2014 CCA LEXIS
607, 2014 WL 4803023, at *2 (A.F.C.C.A. Aug. 14, 2014) (unpublished). The AFCCA denied the
motion to submit the third supplemental assignment of error because it was untimely and because
the petitioner "made no attempt to explain why [the ineffective assistance of counsel claims] could
not have been raised earlier." Id. The record reflects that the petitioner did not request his attorney to
raise the ineffective assistance of counsel claims in a timely manner. Therefore, the short delay in
filing is not the cause of the procedural default. The remainder of the petitioner’s objections concern

1 yecases

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

the merits of his claims. Because he has not shown cause for the procedural default, it is not
necessary for the Court to consider the merits of the claims, or whether the petitioner was prejudiced
by the{2019 U.S. Dist. LEXIS 6} alleged errors. Further, the petitioner has not shown that failing to
address the merits of his claims will result in a grave miscarriage of justice.
The Court has conducted a de novo review of the objections in relation to the pleadings and the
applicable law. See Fed. R. Civ. P. 72(b). After careful consideration, the Court concludes the
objections are without merit.
ORDER
Accordingly, the petitioner's objections (#25 and #28) are OVERRULED. The findings of fact and
conclusions of law of the magistrate judge are correct, and the report of the magistrate judge (#24) is
ADOPTED. A final judgment will be entered in this case in accordance with the magistrate judge's
recommendation.
So Ordered this
Mar 5, 2019
Is/ Rodney Gilstrap
RODNEY GILSTRAP
UNITED STATES DISTRICT JUDGE

lyecases

3

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

7P.T
{

■

i.

APPENDIX
F

Case: 19-40277

Document: 00515866733

Page: 1

Date Filed: 05/18/2021

0Sntte& States! Court of Appeals!
for tfjr Jftftf) Circuit
No. 19-40277

Rafael Verdejo Ruiz,
Petitioner—Appellant,
versus
Derek Edge, Warden, Federal Correctional
Institution, Texarkana,
Respondent—Appellee.
Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 5:18-CV-22

ON PETITION FOR REHEARING
Before Davis, Stewart, and Dennis, Circuit Judges.
Per Curiam:
IT IS ORDERED that the petition for rehearing is DENIED.

APPENDIX
G
f

ncrtuyuMrvict\o ftin rurcoc lccial.urcrtAiiui\o a^jcinot

19 July 2017
AFLOA/JACE-LC
1500 W. Perimeter Road, Suite 1500
Joint Air Base Andrews, MD 20762
Technical Sergeant Rafael Verdejo
17670-035, A-3
Federal Correction Institution
Texarkana, TX, 75505-7000
Re: Court-Martial Documents Request Assistance
TSgt Verdejo:
Greetings. I hope this letter finds you well. I received your letter dated 24 June 2017,
requesting assistance in attaining records associated with your court-martial and appellate
process. I have enclosed the documents you requested. I made a request to TSgt Martin, the
paralegal at Air Force Appellate Defense, to print a copy of your electronic file. In addition, I
am enclosing my copy of your Record of Trial and my case file. Please note, that I do not have
another copy of the record of trial or the case file.
If you have any questions or require additional information, please contact me at 240-6124697 or michael.a.schrama.mil@mai1.mil.

Sincerely,

MICHAEL A. SCHRAMA, Major, USAF
Environmental Litigation Attorney

BREAKING BARRIERS...SINCE 1947

r

(

Case 5: 18-cv-00022-JRG,-*>MG Document 16 Filed 06/14/18 . age 1 of 29 PagelD #: 366

DEPARTMENT OF THE AIR FORCE
HEADQUARTERS AIR FORCE LEGAL OPERATIONS AGENCY

10 May 2017
Lieutenant Colonel Nicholas W. McCue
Deputy Chief, Appellate Defense Division
1500 W. Perimeter Road, Suite 1100
Joint Base Andrews, Maryland 20762
Mr. Rafael Verdejo
FCI
P.O. Box 7000
Texarkana, TX 75505
Dear Mr. Verdejo
My office has received your letter dated 19 April 2017, requesting our assistance with
certain matters. It is my understanding that your former appellate defense counsel, Maj Shane
McCammon, has already forwarded you a copy of your record of trial. Our office no longer
retains a copy of your record of trial.
With regards to the other documents you are requesting, I have forwarded your letter to
your other former appellate defense counsel, Maj Michael Schrama. I informed Maj Schrama
about what happened to your personal items and advised him that I would be forwarding your
contact information to him. Please contact him at the below address:
Major Michael A Schrama
Environment Litigation Attorney
Air Force Legal Operations Agency
Comm: (240) 612-4680
1500 W. Perimeter Road, Suite 1500
Joint Base Andrews, Maryland 20762
Be advised that my office does not maintain your DD214, nor your Office of Special
Investigations (OSI) report of investigation (ROI). As for your legal documents, Maj Schrama
might be able to help you with those.
Sincerely

NICHOLAS W. McCUE, Lt Col, USAF
Deputy Chief, Appellate Defense Division

BREAKING BARRIERS...SINCE 1947

(53~)
19-40277?369^

APPENDIX
H

f.

Case 5:18-cv-00022-JRG-Cn/lC Document 16 Filed 06/14/18 Page 26 of 29 PagelD #: 391
"NOTICE OF REQUEST"
To: Clerk U.S. District Court
Eastern District of Texas
Room 301 Federal Bldg
500 State Line Ave
Texarkana, TX 75501
From: Rafael Verdejo Ruiz #17670-035
FCI Texarkana
P.O. Box 7000
Texarkana, TX 75505
Re: Cease and Desist Request
PLEASE TAKE NOTICE, that I Rafael Verdejo Ruiz, sentient, moral being, request
that actions by members of my unit team, specifically, Mr. Amos (counselor) cease
and desist in his actions by limiting access to pertinent documents that I need
to pursue legal redress. Specifically, my Record of Trial and support documents
provided by my Appellate Attorney, Maj Schrama.
Upon arrival of my record of trial (ROT), it was opened, not in my precense,
further, I am unable to be in possession of said documents. I am only able to
view them in the precense of Mr. Amos which is limited due to his heavy work
load or lack of presence in his office.
Due to my right to appeal, I am being hindered in presenting arguments to
the Courts as I have to write-out any notes and copy (by hand) any documentation
I need in order to then go to the Law library and do my research and write out
any arguments. This has been extremely burdensome and unwarranted. This is a
further concern as in appeals, it is normal for a 30-day time limit to reply
to the courts. As the documentation is not readily available to me and when it
is available, I cannot take any documents with me to write my arguments, I have
to do too many unnecessary things in order to work on my case. This causes a
IV, V, and VI Constitutional Amendment Violation.
I respectfully request intervention for these actions to cease and desist,
that all ROT documentation be given to me immediately in order to pursue my legal
actions in a fair, accurate and timely manner and that no repercussions by any
staff member ensue due to my complaints. I have dealt with this process for aproximately
six months now and I am not content with attempting to work on my legal issues
while staff and inmates peruse the office or staff members watch football games
and take phone calls on my alleged "legal time."’
I, Rafael Verdejo Ruiz, declare under penalty of perjury that the above
information is true and correct.

'X

^ Die 3-fcl7

s\ .

#17670-03 SN.

Date

\

. i

\\

fa

£v-C-’:
&

l

O4

APPENDIX
I

K

:

TRULINCS 17670035 - VERDEJO RUIZ, RAFAEL - Unit: BML-S-A

FROM: 17670035
SUBJECl7°*Request to Staff*** VERDEJO RUIZ, RAFAEL, Reg# 17670035, BML-S-A
DATE: 07/07/2019 10:52:43 AM
To: R&D PROPERTY
Inmate Work Assignment: Unassigned
I have a pending case in the United States District Court, Eastern District of Texas, and in the United States Court of Appeals
for the Fifth Circuit, Case No. 5:18-CV-22.1 am in need of my property in order to respond and submit to the Courts.
I have been here since May from Texarkana FCI. Me and 2 other inmates travelled at the same time from Texarkana. They
have received their property, however, I have not.
pectfully requesting your assistance and verify if my property has been set aside. Upon arrival I was temporarily placed

I am res
in the SHU.

Thank You in Advance.

^iicAroAvc

to

SWL- (V

TRULINCS 17670035 - VERDEJO RUIZ, RAFAEL - Unit: BML-S-A

FROM: 17670035
TO: R&D Property
Request to Staff*** VERDEJO RUIZ, RAFAEL, Reg# 17670035, BML-S-A
SUBJECT:
DATE: 07/24/2019 12:16:09 PM
To: R&D PROPERTY
Inmate Work Assignment: Unassigned
I am respectfully informing you that I am notifying the United States Court of Appeals for the Fifth Circuit that I STILL have not
received my personal property which is essential to respond to said court regarding my pending issues in the case. Case No.
19-40277. My personal property has my legal documentation and research papers necessary which I have not received from
your department. I have been in FCC Beaumont since May 9, 2019.1 arrived here from Texarkana FCI. All inmates that arrived
with me from Texarkana have received their property.
I wrote an electronic Cop-out to your department on 7/7/2019, (10:52:43 A.M.) regarding this same issue. Additionally, every
Tuesday I have gone and personally spoken to staff about my property. No property has been found and have been told that I
will be placed on call-out when my property arrives.
Very Respectfully Submitted.
-Rafael Verdejo Ruiz

ielecTr-cmc.

SVfC,

2-T3

/

TRULINCS 17670035 - VERDEJO RUIZ, RAFAEL - Unit: BML-S-A

FROM: 17670035
TO: R&D Property
SUBJECT: ‘“Request to Star** VERDEJO RUIZ, RAFAEL, Reg# 17670035, BML-S-A
DATE: 07/25/2019 02:52:26 PM
To: R&D Department
Inmate Work Assignment: Unassigned
I am submitting an Informal Resolution Attempt form.
See attachment.
Very Respectfully,
I/M Verdejo Ruiz
—-VERDEJO RUIZ, RAFAEL on 7/25/2019 2:50 PM wrote:
>
BMX1330.17A
September 12,2012
Attachment A
DOCUMENTATION OF INFORMAL RESOLUTION ATTEMPT
Bureau of Prisons Program Statement No. 1330.16, Administrative Remedy Program,
(December 31, 2007), requires, in most cases, that inmates attempt informal resolution of
grievances prior to filing a formal written complaint. This form shall be used to document
your efforts towards informally resolving your grievance.
Inmate Name: Rafael Verdejo Ruiz

Reg. No.: 17670-035

Unit: SA

Specific Complaint and Requested Relief: I respectfully request my inmate property as the
relief requested. I have not received my inmate property. This is the 3rd time my property is
lost or missing while in BOP custody. I arrived here from Texarkana FCI and all inmates that
traveled here with me from there have received their property.
Efforts Made By Inmate To Informally Resolve Grievance (be specific): I have gone to the
R&D Department every Tuesday on "Open House" hours seeking information as to my
property. I have explained that I have an active case in the courts. I have been told that
when my property arrives, I will be placed on "call-out." I have also written two electronic
cop-outs to the R&D Department concerning this issue which have not been responded.
First Electronic Cop-out sent 07/07/2019
Counselor's Comments: _____________________________________________________

Correctional Counselor's Review / Date

Unit Manager's Review / Date

APPENDIX
J

Case 5:18-cv-00022-JRG^,</lC Document 9-1 Filed 05/24/18 \ age 30 of 61 PagelD #: 278

1 June 2014
INEFFECTIVE ASSISTANCE OF COUNSEL:
TRIAL DEFENSE COUNSEL (TDC) FAILED TO INTERVIEW AND PRESENT POTENTIAL
WITNESSES THAT WOULD DISPROVE OR PRESENT REASONABLE DOUBT OF THE
GOVERNMENTS SUPPORTING EVIDENCE. TDC DID NOT PRESENT WITNESSES DURING
SENTENCING. TDC DID NOT CONTRADICT OR PRESENT REASONABLE DOUBT AS TO THE
TIMEFRAME OF THE ALLEGATIONS AND POSSIBLE RELATED CIRCUMSTANCES.
The government's supporting evidence was the 1168 and OSI video interrogation which was used
by the government to support CML as telling the truth. As the government and TDC know, a "confession"
requires evidence in addition to the confession as a test of reliability.
I filled out an 1168 form as directed by the agents and was not re-read my article 31 rights nor the
advisement at the end of the form prior to signing it. TDC argued that the statements were extracted by
the use of coercion and unlawful inducement. However, TDC did not present evidence or testimony to
prove that the statements were not fact. TDC did not contradict or present witnesses that would have
shown that my statements were not fact.
During the Motion to Suppress Evidence and to the jury members, TDC failed to show
inconsistencies that show a false coerced "confession" or reasonable doubt. For example:
CML Testimony: Last act was in car during reception decoration at night prior to the wedding. (R at 345)
My statement: "we had the wedding and at sometime I ran out and had brief intercourse with her..." (R. at
473, Prosecution exhibit 5)
Looking at this, we can see that CML testified the act in car ocurred the night prior to the wedding.
however my testimony is that sex in the car ocurred sometime after the wedding.
Then there is the issue regarding whom I had sex in the car with, to which I said it was Amanda,
but the Agents stated it was CML.
Agent SA2 states: "Listen, Rafael, it was you and Caitlyn. Okay?" (Pros. Exh. 4, page 36)
Agent SA1 states: "--we've got information that you and Caitlyn did something in that vehicle at one
time." (Pros. Exh. 4, page 25)
Note the ill description of the person I identify is not CML, who is taller than me at aprox. timehack
of 17:10:23 of the OSI video. CML was 5' 7inches (Def. exh. C, at 389) and I am 5' 6 inches (Pros. Exh. 4
at 4). The individual I describe is aprox. 6 inches shorter than me in video.
TDC did not attempt to contradict the government's sole supporting evidence which was the 1168
and OSI video. Comparing the 1168 and video to CML's testimony would have shown a false coerced
"confession" to the judge in the Motion to Suppress or to the jury to cause reasonable doubt.
TDC failed to present to the judge in the Motion to Suppress the fact that agents tried to
"guarantee" to me when speaking of keeping things confidential (see p.35, pros exh 4) and that the agent
read the article 31 rights once, which he minimized and did not read the warning at the bottom of the 1168
prior to me signing it. Also TDC failed to mention the fact that in my 10 years in the Air Force, I was always
the junior enlisted until I arrived at my last base. I never was in a direct leadership role. At my first base I
was the lowest ranking individual. At second base in Hawaii I was in a detached unit and was the lowest
ranking individual of 3 enlisted members. At third base, Korea MSgt Settle became my mentor teaching
me leadership roles, however I was not in a direct leadership position over anyone. Then I PCS’d to
Tyndall where I was not in charge of any individual and was eventually given the NCOIC task of
Standarization and Evaluations where I was the only enlisted. I never wrote preformance reports,
Counseling statements, etc. on any individual except a statement requested regarding a senior individual
during a TDY in where there were issues that required my details. This lack of me leading individuals and
always being taken care of by my leadership for 10 years only made me more vulnerable to the Agents

19-40277.281

{

Case 5:18-cv-00022-JRG-(>iviC Document 9-1 Filed 05/24/18 b~ge 31 of 61 PagelD #: 279

coupled with the loss of my daughter, the complications in birth of my son, delicate state of my wife,
threats on my career and promises given by the agents.
TDC did not interview potential witnesses. My mother, Dimaris Ruiz would have testified that in
the alleged timeframe, she was in possession of the car and that I did not use this car while she had it.
She would also have testified that I was not at the reception preparations. This is important because CML
testified that I was at the reception preparation and that I took her in said vehicle to get headache pills and
had sex with her in this car. The only admission available is me mentioning sex in my car, clarified with
whom by the agents as mentioned above.
Aside from my mother, TDC did not interview witnesses that could contradict the 1168 statement
and the government's witness. Other bridesmaids, groomsmen, people that assisted the reception
decorations could have testified that CML remained with her grandparents and that I was not at the
reception during decorations the night prior to the wedding. These same people could have testified of
CML's demeanor and interactions with her.
TDC failed to inform me that Mrs.Delfina Rivero would not be available at trial and did not educate
me on my option to request a delay of trial until Mrs. Delfina Rivero returned from Mexico. If I knew I could
request this, I would not have agreed to the Stipulation of Fact submission since Mrs. Rivero could directly
contradict Ricardo Rivero and CML. I was under the impression that there was no choice but to submit the
stipulation of fact or else have no witness testimony whatsoever.
TDC did not discuss their defense strategy with me. TDC only spoke to me about testifying in
Motion to Supress and did not prepare me to testify except allowing me to review the video once. I was
unaware of TDC's lack of witnesses since l was ordered by my First Sergeant and OSI to not speak about
the ongoing investigation and trial. I was only instructed by the Defense Paralegal to prepare an unsworn
statement. TDC also instructed me not to speak to any potential witnesses regarding the case.
TDC failed to present to the jury the fact that CML changed her statements from Mexico 2004 to
Oklahoma 2006 at the request of the government as testified by CML in article 32 which goes to test her
reliability by the jury. TDC failed to present their available witness that would corroborate the timeframe in
their defense motion ( R. at 15). TDC failed to present to the jury that CML's allegations could be related to
her "medical procedure" which the government did not want to disclose dates or documents. TDC had at
their disposal a witness to contradict or cause reasonable doubt to the government's evidence and witness
and did not act to present it to the jury.
TDC failed to present any witness during sentencing that would "humanize" me in front of the jury.
TDC did not present me as a good person, rather a "good performer." TDC could have presented Mrs.
Delfina Rivero who was CML's granmother and mother of Ricardo Rivero and Aunt of Lilliana Verdejo as
testimony of good character if TDC would have requested a delay of trial until Mrs. Rivero returned from
Mexico. TDC could have presented my brother, Miguel Verdejo, SSgt, USAF. My mother, Dimaris Ruiz.
My wife, Lilliana Verdejo. My father. A friend. A co-worker. A neighbor. Anyone that knew me. Not
presenting a "live" witness to the jury only portrayed me as an individual no one cared for that was a "good
performer."
DECLARATION UNDER PENALTY OF PERJURY
The undersigned declares (or certifies, verifies, or states) under penalty of perjury that he is the
petitioner/movant in the above action, that he has read the above pleading and that the information
contained therein is true and correct. 28 U.S.C. s. 1746.18 U.S.C. s. 1621.
Executed at Fort Leavenworth, Kansas on 1June. 2014.
(Location)
(Date)

CX—% J

(Siffiaturg)

19-40277.282

/

APPENDIX
K

i

23 August 2013
IN THE UNITED STATES AIR FORCE COURT OF CRIMINAL APPEALS
UNITED STATES,
Appellee,
v.
Technical Sergeant (E-6)
RAFAEL VERDEJO-RUIZ,
USAF,
Appellant.

)
)

APPELLANT’S MOTION FOR LEAVE
TO FILE AND MOTION TO VACATE

).
)
)
)
)
)
)

Before Panel No. 1
Case No. ACM 37957

TO THE HONORABLE, THE JUDGES OF THE UNITED STATES AIR FORCE
COURT OF CRIMINAL APPEALS:
COMES NOW Appellant Technical Sergeant Rafael Verdejo-Ruiz, by and through his
undersigned counsel, and pursuant to Rule 23 of this Honorable Court’s Rules of Practice and
Procedure moves for leave to file his motion to vacate the decision of this Court, dated 18 July
2013, for the reasons set forth below. Appellant also hereby moves to vacate said decision.
Facts
On 25 June 2013, the Secretary of Defense, Chuck Hagel, issued a memorandum directed
to the Secretary of the Air Force that purported to appoint Mr. Laurence M. Soybel, a civilian
employee of the Department of the Air Force, as an appellate military judge to the Air Force
Court of Criminal Appeals (AFCCA). See Appendix. As authority of for this appointment,
Secretary Hagel cited “Title 5, United States Code, section 3101 etseqS Mr. Soybel served on
the panel that decided and issued the opinion in Appellant’s case.
Law
In Ryder v. United States, 515 U.S. 177, 188 (1995), the United States Supreme Court
held that a military appellant “is entitled to a hearing before a properly appointed panel” of a

(

[

■

service court of criminal appeals. “[P]roperly appointed,” id:, is a term of art and is a matter of
constitutional significance. The Appointments Clause of the Constitution provides that
[The President] shall nominate, and by and with the Advice and Consent of the
Senate, shall appoint Ambassadors, other public Ministers and Consuls, Judges of
the supreme Court, and all other Officers of the United States, whose
Appointment are not herein otherwise provided for, and which shall be
established by Law: but the Congress may by Law vest the Appointment of such
inferior Officers, as they think proper, in the President alone, in the Courts of
Law, or in the Heads of Departments.
U.S. Const, art. II. § 2, cl. 2.
Under 10 U.S.C. § 866(a), each Judge Advocate General is to establish a court of
criminal appeals, whose appellate military judges may be commissioned officers or civilians.
Judge Advocates General are authorized to appoint officers as appellate judges; however, in
United States v. Carpenter, 37 M.J. 291, 294 (C.M.A. 1993) (citing U.S. CONST, art. II. § 2, ^ 2,
cl. 2), vacated on other grounds, 515 U.S. 1138 (1995), the Court of Military Appeals held that a
Judge Advocate General’s appointment of a civilian judge to a service court was a violation of
the Appointments Clause. Carpenter explained that the lowest-level official who can appoint a
civilian to a military appellate court is the head of a department, if authorized by Congress. Id.
Consistent with Carpenter's holding that only a department head can appoint civilian
judges to military appellate courts, Edmond v. United States, 520 U.S. 651, 666 (1997) upheld
the Transportation Secretary’s appointment of a civilian to the Coast Guard Court of Criminal
Appeals under 49 U.S.C. § 323(a).1 The Edmond Court’s decision was based on 49 U.S.C. §
323(a), which grants the Secretary authority to “appoint and fix the pay of officers and
employees of the Department of Transportation and may prescribe their duties and powers.”
(Emphasis added). The Court reasoned that although the statute did not specifically mention
1 Congress had at that time established the Coast Guard was a military service and branch of the Armed Forces only
in times of war; otherwise, it was part of the Department of Transportation. Id. at 656 (citing 14 U.S.C. §§ 1-3).

V

Coast Guard judges, the plain language of § 323(a) gives the Transportation Secretary power to
appoint them. Id. at 656. Edmond emphasized the need for a Congressional grant of authority
for a department head to appoint inferior officers, noting that the Excepting Clause states that
“the Congress may by Law vest the Appointment of such inferior Officers, as they think proper,
in the President alone, in the Courts of Law, or in the Heads of the Departments.” Id. at 660
(emphasis added).
Analysis
Mr. Soybel’s appointment under 5 U.S.C. § 3101 violated the Appointments Clause, as
this statute does not authorize the Secretary of Defense to appoint “inferior officers.” Such a
congressional grant of authority, the Supreme Court and the Court of Military Appeals have
emphasized, is necessary so that a department head can appoint a civilian as an appellate judge
on a service court. See Edmond, 520 U.S. at 658; Carpenter, 37 M.J. at 294
The statute the Secretary relies upon, 5 U.S.C. § 3101, does not confer power to appoint
Article 66 judges. Instead, it concerns only employee payment classifications, providing in its
entirety as follows: “Each Executive agency, military department, and the government of the
District of Columbia may employ such number of employees of the various classes recognized
by chapter 51 of this title as Congress may appropriate for from year to year.” 5 U.S.C. § 3101.
Chapter 51, in turn, concerns pay and allowances for employees.2
The language of 49 U.S.C. § 323(a) provided the Transportation Secretary with implied
authority to appoint judges to the Coast Guard Court. 5 U.S.C. § 3101 does nothing of the kind.
Absent from Chapter 51 is authority to define the “duties and powers” of officers as Congress

2 Chapter 51 provides a plan for classification of positions where the basic pay rate is determined and so “individual
positions will, in accordance with their duties, and qualification requirements, be so grouped and identified by
classes and grades.” See 5 U.S.C. § 5101, etseq.

<

{

provided the Transportation Secretary in 49 U.S.C. § 323(a).3 Congressional authorization is a
prerequisite for a department head to appoint civilians to the service courts of criminal appeals.
And, unlike the Secretary of Transportation, Congress has not empowered the Secretary of
Defense to make such appointments.
Because Secretary Hagel lacked the authority to appoint Mr. Soybel to the Air Force
Court of Criminal Appeals, the panel was improperly constituted. And, as the Supreme Court
held in Ryder, 515 U.S. at 188, a military appellant “is entitled to a hearing before a properly
appointed panel” of a service court of criminal appeals. This Court should, therefore, vacate its
decision and assemble a new panel of properly appointed appellate judges.
WHEREFORE, Appellant respectfully requests that this Honorable Court grant this
Very Respectfully Submitted,

motion.

'v.__

SHANE A. McCAMMON, Capt, USAF
Appellate Defense Counsel
Air Force Legal Operations Agency
United States Air Force
(240) 612-4770

MICHAEL A. SCHRAMA, Captain, USAF
Appellate Defense Counsel
Air Force Legal Operations Agency
United States Air Force
(240) 612-4770

3 Instead, 5 U.S.C. § 5103 vests this power in the Office of Personnel Management (OPM), rather than in the
Secretary of Defense. See also 5 U.S.C. § 5103 (granting OPM authority over Department of Defense positions); 5
U.S.C. § 5105(a) (OPM is to create classification “standards for placing positions in their proper classes and
grades”).

I '

CERTIFICATE OF FILING AND SERVICE
I certify that an electronic copy of the foregoing was electronically sent to the Court and
served on the Appellate Government Division on 23 August 2013.
v

SHANE A. McCAMMON, Capt, USAF
Appellate Defense Counsel
Air Force Legal Operations Agency
United States Air Force
(240) 612-4770

MICHAEL A. SCHRAMA, Captain, USAF
Appellate Defense Counsel
Air Force Legal Operations Agency
United States Air Force
(240) 612-4770

Case 5:18-cv-00022-JRG

-C .C

Document 1-3 Filed 02/09/18 ( .ge 22 of 73 PagelD #: 131

6 September 2013
IN THE UNITED STATES COURT OP APPEALS FOR THE ARMED FORCES
UNITED STATES,
Appellee,

)

PETITION FOR GRANT OF REVIEW

)
)

v.

)

Crim. App. Dkt. No. 37957

)
)
)

Technical Sergeant (E-6)
RAFAEL VERDEJO-RUIZ,
USAF,
Appellant.

)

USCA Dkt. No.

/AF

)

TO THE HONORABLE, THE JUDGES pF THE UNITED STATES COURT OF
APPEALS FOR THE ARMED FORCES:
The undersigned counsel, on behalf of Technical Sergeant
Rafael Verdejo-Ruiz, hereby petitions the United States Court of
Appeals for the Armed Forces for a grant of review of the
decision of the Air Force Court of Criminal Appeals, on appeal
. under Article 66, Uniform Code of Military Justice, 10 U.S.C. §
866, pursuant to the provisions of Article 67(a)(3), Uniform Code
of Military Justice, 10 U.S.C. § 867(a)(3).
Respectfully Submitted,

r

mt-'.

SHANE A. MCCAMMON, Captain, USAF
Senior Defense Counsel
U.S.C.A.A.F. Bar No. 33983
Air Force Legal Operations Agency
United States Air Force
Unit 5275 Box 415
APO AE 09461-5415
011-44-(0)1638-523-608

19-40277.136

Case 5:18-cv-00022-JRgC ,C Document 1-3 Filed 02/09/18 (.

ge 23 of 73 PagelD #:
: 132

' MICHAEL A. SCHRAMA, Captain, USAF
Appellate Defense Counsel
USCAAF Bar No. 34736
Air Force Legal Operations Agency
1500 West Perimeter Road, Suite 1100
Joint Base Andrews NAF, MD 20762
(240) 612-4770

CERTIFICATE OF FILING AND SERVICE
I- certify that a copy of the foregoing was electronically mailed
to the Court and to the Director, Air Force Government. Trial and
Appellate Counsel Division, on September 6, 2013.

MICHAEL A. SCHRAMA, Captain, USAF
Appellate Defense Counsel
U.S.C.A.A.F. Bar No. 34736
Air Force Legal Operations Agency
United States Air Force
1500 West Perimeter Road, Suite 1100 ■
Joint Base Andrews NAF, MD 20762
(240) 612-4770

19-40277.137

r

Case 5:18-cv-00022-JRG-wJC Document 16 Filed 06/14/18

i

U

ge 25 of 29 PagelD #: 390
28 October 2013

IN THE UNITED STATES COURT OP APPEALS FOR THE ARMED FORCES
UNITED STATES,

MOTION TO TREAT
APPELLANT'S MOTION TO
VACATE BEFORE THE AIR
FORCE COURT OF CRIMINAL
APPEALS AS A MOTION FOR
RECONSIDERATION

)

Appellee,

v.

Technical Sergeant, (E-6),
RAFAEL VERDEJO-RUIZ, USAF,
Appellant.

)
)
)
)
)
)
)
)

Crim. App. No. 37957
USCA Dkt. No. 14-0010/AF

TO THE HONORABLE, THE JUDGES OF
THE UNITED STATES COURT OF APPEALS FOR THE ARMED FORCES
Pursuant to Rule 30 of this Court's Rules of Practice and
Procedure, the United States respectfully moves this Court to
treat a motion to vacate before the Air Force Court of Criminal
Appeals (AFCCA) as a motion to reconsider.
On 23 August 2013, Appellant filed a motion to vacate the
ruling of AFCCA alleging that one of the appellate judges who
decided his case was improperly appointed to AFCCA by the
Secretary of Defense.

(Appendix.)

In the interests of justice

and expediency, the United States requests this honorable Court
to promptly consider this motion as a motion for reconsideration
as a necessary initial step so that this case can be returned to
AFCCA for consideration of this motion.1

i

The United States also intends to file a Motion to Dismiss the petition in
this case, without prejudice, in order to return jurisdiction to AFCCA to
render a ruling on Appellant's Motion to Vacate.

U.S. v. Rafael VERDEJO-RUIZ.
UNITED STATES COURT OF APPEALS FOR THE ARMED FORCES
2013 CAAF LEXIS 1335
No. 14-0010/AF.
November 12, 2013, Decided
Notice:
DECISION WITHOUT PUBLISHED OPINION
Editorial Information: Prior History
CCA 37957-United States v. Verdeio-Ruiz. 2013 CCA LEXIS 680 (A.F.C.C.A., July 18, 2013)
Opinion

On consideration of Appellant's motion to attach documents and Appellee's motion to dismiss the
petition for grant of review without prejudice and motion to treat Appellant's motion to vacate before
the United States Air Force Court of Criminal Appeals as a motion for reconsideration, it is ordered
that Appellee's motion to dismiss the petition for grant of review without prejudice and motion to treat
Appellant's motion to vacate before the United States Air Force Court of Criminal Appeals as a
motion for reconsideration are hereby granted, and Appellant's motion to attach documents is hereby
denied as moot.

milcase

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

APPENDIX
L

C |C Document 1-3 Filed 02/09/18 L. .ge 37 of 73 PagelD #: 146

Case 5:18-cv-00022-JRG-

11 December 2014
IN THE UNITED STATES COURT OP APPEALS FOR THE ARMED FORCES
UNITED STATES,
Appellee,

)
)
)

v.

UNITED STATES' OPPOSITION
TO APPELLANT'S MOTION
TO ATTACH DOCUMENTS

)
)

Technical Sergeant (E-6)
RAFAEL VERDEJO-RUIZ,
USAF,
Appellant.

'

)
)

USCA Dkt. No. 14-0010/AF
Crim. App. No. 37957

)

TO THE HONORABLE, THE JUDGES OF THE UNITED STATES COURT OF
'
APPEALS FOR THE ARMED FORCES
Pursuant to Rule 30 of this Honorable Court's Rules of
Practice, and Procedure, the United States opposes Appellant's
request for this Court engage in fact-finding contrary to this
Court's rules and precedent.

The United States specifically

objects to Appellant'.s motions to attach declarations of fact
attached to his motion filed pursuant to United States v.
Grostefon.
The Air. Force Court of Criminal appeals issued their final
and pertinent decision in Appellant's case on 14 August 2014, and
.the reconsideration period before the lower court lasted 30 days
past that date.

So, Appellant had more than ample opportunity to

submit his documents to the Air Force Court, if he deemed them

1

actually relevant and necessary to his appeal, at a time when the
lower Court still had jurisdiction to review his case and his new
allegations.
Rule 30A of this Court's rules provides:

19-40277.151

Case 5:18-cv-00022-JRG-t>.,iC Document 1-3 Filed 02/09/18 K_»ge 38 of 73 Page ID #: 147

introduced the issues and the facts to the Court below.

The fact

that Appellant is filing this motion to add new facts pursuant to
United States v. Grostefon, 12 M.J. 431 (C.M.A. 1982) is of no
moment as even Grostefon appellants are bound by the substantive
and procedural requirements of practice before this Court.
Appellant's counsel commendably notes that "this information was
not previously raised" to the Air Force Court of Criminal Appeals.
(App. Mot. at 1.)
However, Appellant instead chose to wait to offer his new
declarations to a Court that lacks authority to receive it.

The

United States respectfully notes that this Honorable Court.lacks
the fact-finding powers that a Court of Criminal Appeals possesses
under Article 66, UCMJ.

See Article 67(c)-(d), UCMJ; Loving v.

United States, 64 M.J. 132, 159 (C.A.A.F. 2006); and Rule 30A(a)
of this Court's Rules of Practice and Procedure.

Appellant had

ample opportunity and time to introduce any evidence and any issue
he deemed necessary to the Air Force Court, and he elected not to
take advantage of his opportunities.

Such piecemeal appellate

litigation that flaunts the rules is truly regrettable and should
not be condoned or permitted.
Finally, there is a clear trend among far too many Air Force
appellants who seek to improperly supplement the record before
this Court.

The Rules should be enforced — even against

Grostefon appellants, and this trend should be discontinued.

3

19-40277.152

Case 5:18-cv-00022-JRG-cL,C Document 11-1 Filed 06/13/18 Cage 11 of 29 PagelD #: '339
11 December 2014

CPiM£5.

IN THE UNITED STATES COURT OF APPEALS FOR THE ARMED FORCES
)
' )
)

UNITED STATES,
Appellee,

v.
Technical Sergeant (E-6)
RAFAEL VERDEJO-RUIZ,
USAF,

•

Appellant.

)
)
)
)

UNITED STATES' OPPOSITION
TO APPELLANT'S MOTION
TO ATTACH DOCUMENTS
USCA Dkt. No. 14-0010/AF
Crim. App.’ No. 37957

)

TO THE HONORABLE, THE JUDGES OF THE UNITED STATES COURT OF
APPEALS FOR THE ARMED FORCES
Pursuant to Rule 30 of this Honorable Court's Rules of
Practice and Procedure, the United States opposes Appellant's
request for this Court engage in fact-finding contrary to this
Court's rules and precedent.

The United States specifically ■

objects to Appellant'.s motions to attach declarations of fact
attached to his motion filed pursuant to United States v.
Grostefop.
The Air. Force Court of Criminal appeals issued their final
and pertinent decision in Appellant's case on 14 August 2014, and
.the reconsideration period before the lower court lasted 30 days
past that date.

So, Appellant had more than ample opportunity to

submit his documents to the Air Force Court, if he deemed them

1 '

actually relevant and necessary to his appeal, at a time when the
lower Court still had jurisdiction to review his case and his new
allegations.
Rule 30A of this Court's rules provides:

X '

/

\

19-402^34^

L

Case 5:18-cv-00022-JRG- .vC Document 11-1 Filed 06/13/18 Vr ;age 12 of 29 PagelD #: 340

introduced the issues and the facts to the Court below.

The fact

that Appellant is filing this motion to add new facts pursuant to
United States v. Grostefon, 12 M.J. 431 (C.M.A. 1982) is of no
moment as even Grostefon appellants are bound by the substantive
and procedural requirements of practice before this Court.
Appellant's counsel commendably notes that "this information was
not previously raised" to the Air Force Court of Criminal Appeals. f
(App. Mot. at 1.)
However, Appellant instead chose to wait to offer his new
declarations to a Court that lacks authority to receive it.

"F
s

I

i—
-5 •

The

United States respectfully notes that this Honorable Court.lacks
the fact-finding powers that a Court of Criminal Appeals possesses
under Article 66, UCMJ. . See Article 67(c)-(d), QCMJ; Loving v.
United States, 64 M.J. 132, 159 (C.A.A.F. 2006); and Rule 30A(a)
of this Court's Rules of Practice and Procedure.

Appellant had

ample opportunity and time to introduce any evidence and any issue
he deemed necessary to the Air Force Court, and he elected not to
take advantage of his opportunities.

Such piecemeal appellate

litigation that flaunts the rules is truly regrettable and should
not be condoned or permitted.
Finally, there is a clear trend among far too many Air Force
appellants who seek to improperly supplement the record before
this Court.

The Rules should be enforced — even against

. Grostefon ^appellants, and this trend should be discontinued.

/

' V>A V \eJ S
Of fPS I h0/\
fv -VA. &
'

3

(

Case 5:18-cv-00022-JRG-CIViC Document 11-1 Filed 06/13/18

L

ge 13 of 29 PagelD#: 341
11 July 2014

IN THE UNITED STATES AIR FORCE COURT OF CRIMINAL APPEALS
UNITED STATES,
Appellee,

)

GOVERNMENT'S OPPOSITION
TO APPELLANT'S MOTION FOR
RECONSIDERATION

)
)

v.
Technical Sergeant (E-6)
RAFAEL VERDEJO-RUIZ, USAF,
Appellant.

)
)
' )
' )
)

ACM 37957
Special Panel

TO THE HONORABLE, THE JUDGES OF
THE UNITED STATES AIR FORCE COURT OF CRIMINAL APPEALS:
Pursuant to Rules 19(c) of this Court's Rules of Practice and
Procedure (Rules of Practice), the United States hereby enters its
opposition to Appellant's Motion for Reconsideration.
"

" As part of this Court's 7 July 2014 Order in this case, this
Court articulated that "appellant's motion does not explain why
this latest matter could not have been raised earlier during the
lengthy appellate processing of this case. "

As part of his Motion

for Reconsideration, Appellant still refuses to answer this basic
question.

As easy as it must seem for Appellant to disparage his

trial defense- counsel for the first time 3-1/2 years after his

|
1

i
|

conviction, Appellant needs to provide a proper basis why it took

1l

so long to discover it was all his attorneys' fault and why he

I

could not meet this Court's timelines.
•
-

_

■

'

_ ...

*****'■“■

.

WHEREFORE, the government respectfully requests that this
Court deny Appellant's motion for reconsideration.

/’Vyxi
19-4027%

APPENDIX
M

Case 5:18-cv-00022-JRgCM Document 1-3 Filed 02/09/18 ■ (
i

)

'

'

. -ge 43 of 73 PagelD #: 152

CHARGE SHEET
I. PERSONAL DATA
H04370| 2. SSN

1. NAME OF ACCUSED (Last, First. Ml)

VERDEJO RUIZ, RAFAEL

3. GRAOE OR RANK

583-81-1958

5. UNIT OR ORGANIZATION

26 October 2009
8. NATURE OF RESTRAINT OF

7. PAY PER MONTH
b. SEA/FOREIGN

SO.OO

6 Years

9. DATE(S) IMPOSED

C.TOTAL

None
$3,051.00

E-6

8. CURRENT SERVICE
a. INITIAL DATE
b. TERM

325th Operations Support Squadron (AETC)
Tyndall AFB, FL32403
a. BASIC

|4. PAY GRADE

Technical Sergeant

N/A

$3,051.00
II. CHARGES AND SPECIFICATIONS

10. CHARGE 1: Violation of ihe UCMJ, Article 120
Specification: In that TECHNICAL SERGEANT RAFAEL. VERDEJO RUIZ, United States Air Force, 325th Operations Support Squadron,
Tyndall Air Force Base, Florida, did, within the continental United Slates, on divers occasions between on or about 1 August 200# and on or
about 30 September 200#, rape Caitlyn M. Larson, a person who had attained the age of 12 but was under the age of 16.
^ ■> >r
CHARGE II: Violation ofthe UCMJ, Article 125
Specification: in lhat TECHNICAL SERGEANT RAFAEL VERDEJO RUIZ, United States Air Force, 325lh Operations Support Squadron,
Tyndall Air Force Base, Florida, did, within the continental United Stales, between on or about I August 200And on or about 30 September
2p0j$*commit sodomy with Caitlyn M. Larson, a child who had attained the age of 12 but was under the age of 16, by force and without the
consent ofthe said Caitlyn M. Larson.
CHARGE III: Violation ofthe UCMJ, Article 134
Specification: In that TECHNICAL SERGEANT RAFAEL VERDEJO RUIZ, United States Air Force, 325th Operations Support Squadron,
Tyndall Air ForceBase^lorida^did, within the continental.Unitcd States, between on or about l August 200#1ind on or about 30 September
if 200#/ commit •aSmdecentfac Wjpon the body of Caitlyn M. Larson, a female under the age of 16, not the wife of TECHNICAL SERGEANT
RAFAEL VERDEJO RUIZ, by placing his hands on her breasts and groin, with the intent to gratify the sexual desires of TECHNICAL
by Inserting his finger(s) into her vagina
SERGEANT RAFAEL VERDEJO RUIZ.

it

HI. PREFERRAL
11a. NAME OF ACCUSER (Last, First, Ml)

ANDERSON, BRETP.

b. GRAOE

LtCol

d. SIGNATURE OF ACCUSER

c. ORGANIZATION OF ACCUSER
323th Operations Support Squadron
e. DATE

Itt. ocT a.o\o

AFFIDAVIT: Before me, the undersigned, authorized by law to administer oath in cases of this character, personally appeared the above named
accuser thisday of _Oct
2010 . and signed the foregoing charges and specifications under oath (hat he/she is a person subject to the
Uniform Code ofMilitary Justice and that he/she cither has personal knowledge of or has investigated the matters set forth therein and that the same
are ttue to (he best of his/her knowledge and belief.
MALCOLM L. LANGLQ1S

325 FW/JA

Typed Name ofOfficer

Organization ofOfficer

Captain

Assistant Staff Judge Advocate

Grade

Official Capacity la Administer Oath
(See R.C.M. 307(b!(l) - must be commissioned officer)

'Signature

DD FORM 458, MAY 2000

PREVIOUS EDITION IS OBSOLETE.

Page _2_ of 2L PaSes

PAGE I

19-40277.157

c

Case 5:18-cv-00022-JI^Gi
{

C Document 1-3

Filed 02/G9/i8>;l ^ge 44 of 73 PagelD #: 153 .

i

12.

on )Z

20
/O
, the accused was informed of the charges against him/her and of the namcs(s) of
the necuserts) known to nte/fee KCM 308(a)). (See H.CM. 308 Ifitoilficallan cannot be mailt.)
325th Operations Support Squadron
Organization ofimmediate Commander

■ BRET D. ANDERSON
T)pe flame ofImmediate Commander

Lieutenant Colonel

y/:

tn

Signature
IV. RECEIPT BY SUMMARY COURT MARTIAL CONVENING AUTHORITY

13.

The sworn charges were received at 1030 hours,

ot

,20 10

12 October

325th Fighter Wing (AETC)
Designation ofCommand or

Tvndall- Air Force Base* Florida______
Officer Exercising Summary Cvnrf-Mantaldirrlsd/cllon (See R.C.M. 303)

FORTHE ’

COMMANDER

STAFF JUDGE ADVOCATE

DANIEL-'. J »• HIGGINS
Type Name ofOfficer

Official Capacity afOfficer Signing

LIEUTENANT flOT.flNF.T.
diode

Yl
Signal
V. REFERRAL, SERVICE OF CHARGES
b. PLACE
14a.
DESIGNATION OF COMMANO OF CONVENING AUTHORITY
Randolph AFB<
HFAnqilARTERR NINETEENTH ATR FORCE fAKTO’I
Referred for trial to the

general

court-martial board convened by

9 December

dated

20

10

C. DATE

Texas

9 December 2010

Special OTdex A-2

subject to the following instructions:1

To be tried as a

noncapital pa<n».
ft<

FOR THE COMMANDER
Command or Order

xric

Staff Judge Advocate

STEVEN B. THOMPSON

Official Capacity afOfficer Signing

Typed Name ofOfficer

Colonel
Grade

Signature
15.

On

14 Deoe-mber

.20 10

MALCOLM L. LANGLOIS
Typed Name of Trial Counsel
y

, 1 (caused to be) served a copy hereof on OSKfesS '^e above named accused.
CAPTAIN
Grade or Rank of Trial Counsel

r

Signature
FOOTNOTES; i - When an appropriate commander signs personally. Inapplicable Wards are stricken.
2 - See Ft.C.hf. S0((e) concerning Instructions, ifnone, so state.

DF0RM 458 (BACK), MAY 2000

PAGE 2

Page JL o;£ £TpaSeS

19-40277.158

APPENDIX
N

r

i

i

Case 5:18-cv-00022-JRG-C.viG< -Document 7-1 Filed 05/03/18 F«ge 23 of 29 PagelD #: 219
(

(

i
t

ENUSfHD PERFORMANCE REPORT (AB thru TS&Q
I. RATEE IDENTIFICATION DATA (Read API 3&-2406 eanlully belore cewpteting any item.)
2. SSN
I. NAME ft.II. Fun. Mlddls InltlBlI

3. GRADE

4. DAFSC

583-81-1958

VERDEJO RUIZ, RAFAEL

Of ■ PAS CODE

S. ORGANIZATION, COMMAND. ANOLOCATION

ACC Air Operations'Squadron, Detachmenl 2, Hickam AFB HI
7. PERIOD OF REPORT

18 Jun 2004

From:

1C052

SRA
HL1CFTS7

I

17 Jun 2005

1CIIC

0. REASON FOR REPORT

0. NO. 0AV6 SUPERVISION
Thru:

6b. SRID

291

Annual

If. JOS DESCRIPTION
V OUTY mu

Aircraft Delivery Coordinator
2. KEY DUTIES, TASKS. ANO RESPONSIBILITIES

Coordinates movements of aircraft with HQ ACC, HQ PACAF Operations Support Center, ACC Air Operations
Squadron (AOS) detachments and Delivery Control Center, as well as fighter wings operating in the Pacific
AOR. Organizes all HHQ message traffic and builds pilot mission packages for each aircraft movement. Coor­
dinates air refueling requirements and altitude publications. Coordinates arrival and departure times with tran­
sient maintenance, billeting, customs, weather forecasters, base operations and transportation. Orders computer
'i flight plans and assists in the preparation of domestic and international flight plans. Processes and approves all
2 travel authorizations. ADDITIONAL DUTIES: Functional Systems Administrator, Workgroup Manager,
'c Security Manager, Supply/Equipment Custodian, Urinalysis Trusted Agent, Unit Leave Manoger, Information
.- Assurance/COMPUSEC Manager, Vehicle NCO, Telephone Control Officer and Fitness Assessment Monitor.
111. EVALUATION OP PERFORMANCE
1. HOW WELL DOES RATEE PERFORM ASSIGNED OUTIES7 (Consular quality, quantity. anHltmollnau olduties partatmad)
-------- IrufteUhi. An
l
* unprofessional
L{ performer.

:

r

[s

U
i •.
IJ

Good performer.
Pariormi routine
l____ I dullee eaUihelonly,
t

□

Excellent performer.
Constetonify produces
high quality work.

-r-'y Th* exception.
Absolutely sgpenor
/\1 in all area*.

2. HOW MUCH DOES RATEE KNOW ABOUT. PRIMARY DUTIES? (Consider whether ratio has fochn/cof export/jo and Is ablo to apply
the knowledge)
Cota not hove lha basic
knowledge necessary to
perform duller.

1

□

Ha* idtQUale toennfeof
knowledge to ■aU&ftetoilfy
porfoirn dultai.

3. HOW WELL DOES RATEE COMPLY WITH STANDARDS?
|
I

*' Falls to meet minimum
: standards.

;

i-------1 Extensive knowlidge ol
I
1 alt primary (Juliet and
I
related petitions.

!EI

Excels In knowledge ol
»U related positions.
Masters all duties.

(Consider dress and oppoarwico, watght and litnoss, customs, end codrteilos)

MmU AY Force
J flandord*.

□
□
□

Exemplifies too
military standards

Sals the eximpie for
other* to follow.

4; HOW IS RATEE'S CONDUCT OK/Of F OUTY? (Consider (inondo) responsibility, respotl tor authority, support hr organizational oetMUes,
and maintenance of Government facilities)
.

;

Unacceptable.

Acceptable.
1.

Sett the example
for others

&

Exemplifies the standard
of conduct.

5. HOW WELL DOES RATEE SUPERVfSE/LEAO? (Consider how wvN mombor sols and enforces standards, displays inWatiYO end
sothconManc*, provides guidance and foadbock, and fostors teamwork)
•—
; Effective. Obtains
\S\ Exceptionally
;
{ satisfactory
IniffseiWe
Highly itfociVa.
I eHecBvo .eader.
resulii.

n

i.l

6. HOW WELL DOES RATEE COMPLY WITH INDIVIDUAL TRAINING REOlffREMENrs? (Consider upgrade training, professional military
education, proficlency/qualification, and contingency)
r-------- Ooos no! comply with
minimum training
__roquframenl*.

□

Complies with most
* training roqutromonu.

J

CompMi# wllh ait
training raqutremsnls.

Ei

Comlilonlly exceeds
all (raining
requirements

7. HOW WELL COES RATEg COMMUNICATE WITH OTHERS7 (Consider ratae’s verbal end written shits)
|—•—*; Unoblo to expraei
{
thought! cloarty.
l___ . Loch's orgonlrabon.

AFIMT 910,20000601, V2

_____ ConsleUniiy able (o
Organizes and expresses
Ihoughta satiifaclonty-

I *

* crgonlxi end express
| Hesscteeriyand
COftCitaV.

PREVIOUS EDITIONS ARE OBSOLETE

!E!

Highly skilled writer
and communicator.

FOR OFFICIAL USE ONLY (Wb.n fn.d In)

f

‘jo
CUri*-ilv|

pzcptT

19-40277.222
I

r

(

Case 5:18-cv-00022-JRGK../ie Document 7-1 Filed 05/03/18 Xage 24 of 29 PagelD #: 220

r
i

RATEE NAME:

IV. PROMOTION RECOMMENDATION

VHRDEJO RUIZ, RAFAGL

(Compart this relee v» !h cI/iwq/Mp same oradg ancMAS}
NOT
NOT RECOMMENDED
RECOMMENDATION

CONSIDER

..i_

..5....

RECOMMENDED

RATER'S

DOS TIME

REAOY
4__

RECOMMENDATION

ADDITIONAL RATER'S

2

. L...

3

RECOMMENDATION

vJ
c

immediate
PROMOTION

4
I

3

X
X
9

V. RATER'S COMMENTS

• Outstanding professional who displays craftsman-levei knowledge; performs at the level of a seasoned NCO
- Ensured compliance of flight go/no-go items for over 3,000 student aircrew members/four sq; accident free ops
a
- Audited 1.1 million gallons ofjet fuel worth 990 thousand dollars; ensured 100% accountability of resources
u
o
- Systemized 800+ Coronet Mission Packages—supported fighter/bomber aircraft on JCS and PACAF combined
■o
■ dxcrcises RED FLAG, COBRA GOLD and COPE TIGER—aircrew lauded his efforts—perfect every time
: Constantly strives to ensure information is securely provided to necessary authorities using DMS program
34
- Provided crucinl last minute clearance requests for Det 2 missions to proceed through foreign airspace
•e
o
; j Self starter! Currently in final course of Airport Resource Management through CCAF—maintains 3.4 GPA
o
Diplomat! Liaised with Air Force, Navy, USMC and Defense Accounting and Finance Services to address
5
a critical flaw in base Defense Travel System resulting in 75% faster processing limes in voucher settlements
Orchestrated and returned S8,000 of office computer equipment; facilitated upgrade of det computer systems
Singled-handiiy removed and installed ground-to-air radio; saved squadron $ 1,000 in installation charges
a\
.mbitious airman whose professional attitude is evident in every job he tackles—Promote ahead ofpeersl
oM
•j

E

.1

iilipflrfomianco fatdbaek wai aecempltsnod on:

01 Apr 2003

(Continent with Via dinction (n AFt36-M06. II not accomprished. attlt tfitnemn.)

a

2 V
5 .
■a

_
y

306, GRADE. BR OF SVC. ORCN, COMO 4 LOCATION

ASHANDA D. BROWN, TSgt, USAF
Jtetachmem 2, ACC Air Operations Squadron
j jUckam A t;B HI

□ATE

DUTY NTLE

NCOIC,- Aircraft Delivery
SSN

9808

:]X

VI. AODmONAL RATER’8 COMMENTS

20 Juo 200S

SIGNATURE

ifetsfcb(e!4nrr^'*

- Dynamic, imaginative and motivated individual who takes charge to assure efficiency and mission success
— Meticulous ADPE manager; ensured 100% accountability of S30.000 of computer enterprise equipment
- Active and involved unit ISSO; maintained computer systems security integrity; error-Tiree inspections
- Dedicated professional; graduated from Airman Leadership School with an overall 89% academic average
- Achievement oriented; attained highest rating of "No Discrepancies" on annual SAV as Security Manager
- Best young talent I've seen in 24 years—towers above his peers—definitely promote at the earliest opportunity!
NAME, GRADE, 8R OF SVC. ORON. COMD 4 LOCATION

OUTY TITLE

ROBERT M. VALEK, Lt Col, USAF
Detachmcnl 2, ACC Air Operations Squadron
MckamAFBHI

SSN

OATE

Commander

20 Jun 2005
SIGNATURE

•1336

INSTRUCTIONS
Reports written by a senior rater or the Chtel Master Sergeant or the Air Force (CMSAF) will not be endorsed.
Reports wntlen by colonels or cblltens (GS- tS or higher) do not requite an additional talar; however, endorsement Is permitted unless prohibited by the
Instruction above.
Whan the rater's rator ts not at toast a MSqI or civilian (GS-0T or higher), tho additional rotor is tho next official In the feting chain serving In the erode of
MSgt or higher, or a civilian m tho grado ot GS-07 or highor.
Whan tho finst evaluator (rater or additional rater) is not an Air Fare* officer, enlisted, or OAF civilian, an Air Force advisor review ts roqutrad.
All evotuators enter only last (our numbors of SSN.
VII. COMMANDER'S REVIEW

X

CONCUR

AF IMT01O. 20000001, V2

NONCONCUR (Attach AF Form 77)
(REVERSE)

signature

/

/FOR OFFICIAL USE ONLY" (V/fiin ilUod «n|

£ HI

of w

C UMaUj

19-40277.223

r

Case 5:18-cv-00022-JRgC.
>JC Document 7-1 Filed 05/03/18J
(.

’

age 12 of 29 PagelD #: 208

■;

(
ENLISTED PERFORMANCE REPORT IAB thrv TSGT)
j^JjATEE IDENTIFICATION DATA /Heed AFi 3B.iJnx
1. NAME tUrt. first, Middle IrVlM

'

CBfc/ulty before completing env Horn!
2. SSN

VERDEJO RUIZ, RAFARI.

583-81-1958 I Air"**

A. DAFSC

1C052

5. ORGANIZATION, COMMAND. ANO LOCATION
Si. PAS CODE

56tb Airlift Squadron (AETCT Aim*
7. PERIOD Of REPORT

Flow: 17 Oct 2000
II. JOB

"

acr

8b. SRIO

nv

AMOJFCWC loJIAM

--------------------- ■——
8. NO. OAYS SUPERVISION

Thru: 17 Jun 2007.

8. REASON FOR REPORT

155

description

Initial

1. DUIYTITIE

I

AVlption Resource Management Specialist

J

p KEY

d

duties,

TASKS, AND RESPONSIBILITIES

"

’

_____________ __________________

aSS, SSc" mTr”l2 to? pSSMSSf'-H

■5

SWi Publications,

I

To

r,

3

'«-« \
>u>

Fevaluation op performanJ ralm°SM^er, Honnr Guard Trains, -Security Force, R^dv Au^nt^

o\^
o v

m
□
m
(\ja

1. HOW WEIL DOES RATEE PERFORM ASSIGNED DUTIES?

x

r\ a

tCemidet quality. quantity, end timeliness o/ duties

□
□
%»°£«™7EE KMOW Aaour PRIMARY DUTIE87
.□
□
ca
□
ESI
□
□
K)
□
□
□

1n*N]el»nt. An
unprofessional
perform*.

%%

Good perform*;.
P«rfomie routine
dollaa aab'afeclarSy.

a

t--------- —__ ___________ f ---------

y

A
M

Hat tdequaie technical
knowledge to utlsfae*
'orily perform dutte».

3. HOW WELL DOES RATEE COMPLY WITH
caurtesieef

□
□
□
□

Unacceptable,

Th* exception.
Absolutely superior
In *11 «raai,

£aetl* ,n knowledge of
*11 refeted positions,
WniH.d ail duties.

(Consider dree, end appearance, weight end fitness.

Acceptable,

B. HOW WEU DOES RATER SUPER VISE/LEAD7
self-canUdonce, provides guide nc*

Effective, Obtains
satisfactory
reiufte.

.».<?S£5

□

Sola tht axtmpla for
othet* to foOovr.
respect far euihori^.

Exemplifies top
military standards.

E*aoiplIfJ*a th* standard
of conduct.

end enforces standards, displays Initiative end

□

Highly effective.

"cnmttCMEHTat

Compllta with most
naming t*qurammla.

customs, end

support for organizationai

a

Sals tha example
for othtrs.

(Consider how welt member sets
end feedback, and fosters teamwork}

Do«» not comply with
. minimum training
(■quir*<ninis.

rev)

IIvCl

STANDARDS?

Meet* Air Foie*
standard!. ■

»• •

Extanahra knowledge of
III primary dutlsi and
ralatadpofliionc.

4. HOW IS RATEE'S CONDUCT ON/OFF DUTY?
activities, and ms/hrenanc* of Sov.mmen,

Inatfoctfve,

ta

performedj

tCenside, whether rent hes technical expertise and Is .ble ,o

Oo*a nothwa the basic
knowledge necessary io
perform duties.

F»d* to meet minimum
standard!.

Eit«)itn) pitlermir,
Consistently produces
Wflh quality work.

(XI

Compf.ea with all
training requirements.

Exceptionally
effective faadar.

.........

Consistently exceeds
bll training rtqutrtrmnls.

7- HOW WELL DOES RATEE COMMUNICATE WITH OTHERS?

o

(Consider retec's verbal end written sklltsl

Unsbfo to *spr*as
thoughts clsaify,
Inekt organisation.

Orgmuti and oxprsa.iai
thoughts latiilactorUy.

AF FORM 910, 20000601 (EF-V2)-------

Comistsmly abfa to
organis* tnd ssp/«aS
idtai dearly and
condsaly.

I
L . ,J

Highly atdied wiltar
communicelor.

PREVIOUS EOITIONS ARE OBSOLETE.
FOR OFFICIAL USE ONLY

IWhan filled inf

if \d> *f ^

19-40277.211

r

(

Case 5:18-cv-00022-JRG-Ci.viCyOocument 7-1 Filed 05/03/18 K*gp'13 of 29 PagelD #: 209
(■

i
bNUSTEP PERFORMANCE REPORT (AB thru TSgt)
I. RATEE IDENTIFICATION OATA (Rotor to Aft 36-1406 tot instructions on completing mis taem)
2 SSN
1 NAM ilaxl. ft'Sh Mifuse initial}
! y GRACE

VERDEJO RUIZ, RAFAEL

•I OAFSC

TSut

583-81-1958 |

S CRGANIZA riON. COMMAND. LOCATION. AND COMPONENT

325lh Operations Group (AETC). Tviulnll AFB FL (AD)
i 9 NO DAYS SUPERVISION
From*
Tlmr
18 Jun 2009
17 Jun 2010
249
S PERIOD OF REPORT

V

1

t

■=

!T SRID

0.11TX
TXOJFHLS
{10. REASON FOR REPORT
I
Annual

II. JOB DESCRIPTION
1 CUTY TITLE

2 SIGNIFICANT ADDITIONAL OUTYlS)

NCOIC, OG Standardization & Evaluation

Vehicle Control Officer, Supervisor of Flying Resource
Manager

3. KEY DUTIES. TASKS. AND RESPONSIBILITIES

T,

IC052

6 PASCOOE

-

IL,mil Inti la 4 linos)

Inspects and evaluates squadron Aviation Resource Management Systems (ARMS), analyzes use ul*resources
Reviews nnd updates applicable AETC, 19 AF, 325 FW, and OG operating instructions 1AW HHQ guidance
Generates and manages ull stan/eval administrative files, recall rosters, and mission essential flight documents
Prepares flight authorizations nnd monitors individual flight, training requirements, and allocated flying hours

III. PERFORMANCE ASSESSMENT
I, PKIMARY/AODITIONAL DUTIES (Far SSfjl/TSgt also consider Supervisory, Loodorshlp and Technical Abililios)
Consider Adapting, Learning. Quality, Timeliness. Professional Growth end Communication Shills

2

'Does Not Meal *

Meats *

Above Average

(Limit text to 4 Unas)

'

yj* Clearly Excoods

w

I

r

>.
C.

£

I
I%
t
\
\

3v,

o Tracked required test training for 40 pilots...led to 100% end of year closeout with 80+ complete checkrides
a Maintained 30-volume pubs library for F-15C, F-22 and Air Battle Managers...O findings ID'd during SA'V
gManaged Flight Crew Info Fife/Tech Order Pubs prgms and flight safety instructions checklist... 100% accurate
gin-processed 25 new student pilois—confirmed aviation orders/physicais/chamher rqmts...O training delays
« jj. STANDARDS, CONOUCT, CHARACTER & MILITARY BEARING {For SSgl/TSgt a/so considar Enforcement of Standards and Customs & Courtesies)
.fionsldef Dress A Appearance. Personal/Profossional Conduct On/Off Only
te*l to 2 (inns)

Above Average
Cleaily Exceeds
* Meets *
.2 1 £ : _ Does Nol Meet
•| ^ ^Led 4 sqdn inspections...executed Go/NoGo/stundardization for 12 lC0s...cnsured AF standards/compliance

Tip5*! ^Synchronized precise electronic files migration process...providcd |00% critical documentation accountability
(Maintains Air Force Physical FUnoss Standards)
c \^ FITNESS
..
%

l

O

t

| Ooos Not Meet

Moots j

(For refer/afs, limit text to 1 hne)

Exempt

4. TRAINING REQUIREMENTS {For SSgl/TScjt also consider PM£, Off*duty Education, Tnchnicel Growth, Upgrade Training)

!
5
\
i

Consider Upgrade. Ancillary, OJT and Roatfinesc {Umtl /ox/ to 2 linos}
Ooos Not Meet

Moots I

• Above Avorago

Clearly Exceeds

- First-race sys knowledge...completed Patriot Excalibur training...enabled accurate real-time crew trng updates
- Exemplary scholar; accomplished jump & lit pay re-certification training-enhanced professional development

I

5
f

5, TEAMWORK/FOLLOWERSHIP (Foe SSgt/TSgl .iIso consiiior Leadership, Team Accomplishments, RocogniHon/Reutnrd Olhors)
Consider Team Building. Support of Tnarh. Followorshtp {Limit tout to 2 linos)

i

I
5
I

* Ocas Mol Moot

• Meals

Above Average

Clearly Exceeds

- Engaged leader, trained additional personnel on stnn/evai procedures...increased work center efficiency 30%
s.
- Advanced RED FLAG cadre team mbr,..schedu!ed 732 sorties and 1,307 hrs...executed the mission w/ 0 errors
6. OTHER COMMENTS
Consider Promotion, Fuluro Outy/Assignmenl/Educalron Recnmmcndolions and Salely. Security £ Human Rotations

!
|
!
s

!
:
I

itimil ml lo 3 lines)

- Submitted three Case Management System tlighl/jump pay modifications to finance... 100% review completed
- Superior aviation mgmt professional...skillfully managed diverse and complex (askings with admirable results
IV, RATER INFORMATION
NAME. GRADE. BR OF SVC. ORON. COMMAND AND LOCATION

DUTY TITLE

MATTHEW M. THOMAS. Maj, USAF
325th Operations Group (AETC)
Tyndall AFB FL

Chief of Standards and Evaluations

AF FORM 910, 20080618

SSN

3323

PREVIOUS EDITIONS ARE OBSOLETE

DATE

29 Jun 2010

SIGNATURE

THOMAS.MATTHKW.M. 1232413W
PRIVACY ACT IMFORMATtON; Ih* fnfemuuen in IMS
u
FOR OFFICIAL USE ONLY. P»«ite| UW Ih# Pitocy A«l of \914.

i

psy. 7>o

19-40277.212

r

r
Case 5:18-cv-00022-JRG-V,\/ip.^ Document 7-1 Filed 05/03/18 \ age 14 of 29 PagelD #: 210
I
V. OVERALL PERFORMANCE ASSESSMENT
Gvgfatl Pet/c/mjnee D»/mg Recalling Pnr-ud
POOR
ASSESSMENT

(»

.-AJEENFME.
I

NEEOS IMPROVEMENT

VERDEJO RUIZ. RAFAEL

AVERAGE
iD

ABOVE AVERAGE
• 4>

TRULY AMONG THE
2EST.5)

RATER'S

y
y

ASSESSMENT
ADDITIONAL RATER'S

;

ASSESSMENT

j

Iasi feedback was perfoimcd en-

j5 Dec 2009

11 •*«i'Mck was not accomplished maeconlaneo wlhAFI 36.2406. stale me reason

VI. ADDITIONAL RATER'S COMMENTS (Limit Inna j linos/

l
5
i
■6

.£
C

2
C

NON-CONCUR

SSN

-------------- ----- ——------------------------------------------j DATE

I 29 Jun 2010
SIGNATURE

• 2099

1IA LLM AN.WESLEV.P. 1178647730,
FUNCTIONAL EXAMINER

OUTY TITLE

AIR FORCE AOVISOR
DATE

c

&
W

I

f

3-0)
3

l

Jr
H

I

Commander

w

i

t

OUTY TITLE

WESLEY P. HALLMAN. Colonel. USAF
325lh Operations Group (AETC)
Tyndall AFB FL

JjjlAME. GRADE, BR OF SVC. ORGN, COMMAND AND LOCATION

a

1

NAME, GRADE, BR OF SVC. ORGN. COMMAND AND LOCATION

VII. FUNCTIONAL EXAMINER/AIR FORCE AOVISOR
flndtcalo npphcnbh review by mn/kfng tho appropriate box.)

>>

t
I
J

v/ CONCUR

- Exceptional oversight ot pre-flight documentation...ensured 100% compliance of mission fit irng requirements
-•Revamped duty sections continuity books...stream!ined complex office procedures...reduced position trng 3fi%
- Dynamic mannger/lender; committed to job accomplishment and exccllence...promotion to TSgl well deserved

.>•

SSN

SIGNATURE

JJIII. UNIT COMMANDER/CIVILIAN DIRECTORIOTHER AUTHORIZED REVIEWER
&AME. GRAOE. BR OF SVC. ORGN. COMMAND AND LOCATION

JVF.SLEY P. HALLMAN. Colonel. USAF
325lh Operations Group (AETC)
Tyndall AFB FL

v/; CONCUR

DUTY TITLE

NON-CONCUR
OATE

Commander
SSN

29 Jun 2010
SIGNATURE

2099

HALLMAN.WE.SLEY.tM I78fi47730.

i \ tit. RATEE'S ACKNOWLEDGEMENT

E

*

t

mdtp'm reeJSi oMfe^ert” M' C0"S,ilUl° “S'"'"6"1

'

• «K"o»lcd3»

No

SIGNATURE

OATE

VERDEJO RUIZ.RAFAEL.1243270894.

f
\

?

i

««qu...d feedback was accomplished du„n9 the reporting period

y Yes

30 Jun 2010

wmrntmmmmM
INSTRUCTIONS

PRIVACY ACT STATEMENT
4(/THORNY Title 10 Untied Slates Cdto. Socttoo 8013 »mrf £scci/lrvo Qrdor 9397. 22 Novwnbar 10-13

PURPOSE- Inlarmatronrs needed feruenlkatian atlho uldiv,duM'.i name and Social Seemly Number ISSN) os captured on tlio tom ar the I,me ulr.vmo
ROUTINE USES <\tjy speoficotty cs dtsetasad outside Iho DcD .w a toutino uso pursuant to 3 U S C. S52,){h)(3)
DISCLOSURE' Oisdoxure is mandatory; SSN is used for positive identification.

s
!
5

AF FORM 910, 20060618

PREVIOUS EDITIONS ARE OBSOLETE

PRIVACY ACT INFORMATION:
FOR Of FICIM. USE ONLY. FntacVlAW ThePrincrArt ol is J<.

!

i
i

f'y

<jf

Hi

19-40277.213

(
Case 5:18-cv-00022-JRG-b.viC;
Document 7-1 Filed 05/03/18 C^ge 15 of 29 PagelD #: 211
/
(\

# !

eNLjSTED PERFORMANCE REPORT (AB thru TSgt)
I. RAISE IDENTIFICATION PATA(flt?fcf fa API 36^06 loftnsl/ucUons on comptp.ung this teem)
t »'MM

iiJsf. Pint

tfiitw)

2 SSN

VERDEJO RU12. RAFAEL

|J GfMDS

583-81-1958 [

4 CAFSC

SSgt

S ORGANIZATION. COMMAND, LOCATION AND COMPONENT

IC052

•j PASCOOE

17 SHID

325lh Operations Support Squadron (AETC). Tyndal! AFB FL (AD)

TX0JFHQ8

i. PERIOD OF REPORT

TO REASON FOR REPORT

•From'

3 MO CAYS SUPERVISION

18 Jun 2008

I 7 /tin 2009

Thar

233

•0.11TX

Annua!

If. JOB DESCRIPTION
1. CUTYTiTie

Avialion Resource Management. Journeyman

Flight/Aircrew Training Monitor

3. KEY OUTIES, TASKS. AND RESPONSIBILITIES ILrnil test to V linos)

-------------------------------------------------------------------------------- ---- ---------------------- -

- In/oul-processes aircrew members into ARM data system ensuring members meet uli AF! & DoD requirements
- Monitors physiological requirements, flight physical status currencies, and conducts night/jump record reviews
- Audits and maintains aviation career actions and services upkeep on 450+ aircrew members and parachutists
- Assists in creating & interpreting policies/procedures related to aviation resource management system (ARMS)

■■

III. PERFORMANCE ASSESSMENT

2

t. PRIMARY/AODITIONAL OUTIES (Far SSgt/TSgt also consider Supervisory, leadership end Technical Abilities)
Qgnafecr Adapting, Louring, Quality, Timollnoos, Piotessionul Growth and Communication Shills (Limit tact to 4 tines)

?<

i-

i

2. SIGNIFICANTAOOtTfONAL OliTY(S)

2

•_

Does Not Mod

Ideals i

1 Above Average i^ Clearly Exceeds

-published 75 aeronautical orders...awarded advanced ratings/badges...accurately documented aviation status
& •SPerformed 40 lit records reviews...inslructed aircrews of individual requirements... 100% (light status ready
tn ■jjj^udited ?0+ ill record folders...fixed 65+ minor discrepancies... 100% crror-lree aviation sve documentation
■fflstute performer w/ responsibility exceeding rank-validated quarterly flight pay entitlements worth S2 million

ii
l

A

n

i

K

5

I
I
l
:
\
s
i
S
i
t
i
i

I
?
!j
\

I

S1

^ STANDARDS, CONOUCT, CHARACTER A MILITARY BEARING (Far SSgt/TSgt also consider Enforcement at Standards end Customs S Courtesies)
Otcm & Appeflranco. PorsonatfProfessionQl Conduct OnfOl/ Duly fLintil text to 2 tinos)
'?* •

Doss Nol Mod *

Metis |

Above Avttraga

Cleady E*coods

Administered critical SABC procedures on seizure victim...briefed medic team upon arrival...youth’s life saved
jyolmiteered at General Tommy Franks museum opening...manned infofrefrcslunent stand...epitome of AF image
j. FITNESS (Maintains Ate Force PhysicalFitness Standards) (Forrelor/als. limit lout to itmn)
Doos Not Meet

Mads :

*; Exempt

4. TRAINING REQUIREMENTS (For SSgUTSgt also eonsidot PME. Ctt-duly Education. Technical Growth. Upgrade Twining)
Consider Upgrade, Andllaiy. OJT and Readmes* tUmil lost lo 1 lines)
*

t Ooos Not Moal

; Moats '

. Aoove Average

yj' Clearly Exceeds

• Completed 28 hrs Auto Svc Experience tech...one •esl away from mechanic cert...enhanced personal knowledge
• Mastered 12 OJT HARM office requirements...cxpandcd overall knowledgc...roduced office workload by 30%
5. TEAMWORK/FOLLOVVEnSHlP (For SSgl/TSgt also consider Leadership. Team Accomplishments. Recoamlian/Reword OthersI
Constdor Teem Building, Support of Team, Fol/oweiahip fLtinil text to 2 fines)

r

Doos Not Meal

Meets t

• Above Ave/ogo 'yj Ctoaily Exceeds

Assisted 2FS...tnanagcd msn employment ops at Nellis AFB...trackcd 81 sorties/I 26.2 hours with zero errors
Filled Stan-Eval position during manning short tail; (lawlessly ensured aircrew safety of fiit>hl...zuro trng delays
. OTH6R COMMENTS

'

’

~

"------------------------------------ —---- :------------------------------------- --------------------

Consider Promotion, Future Duty/Ass|gnmont/Eduea(ion Rocommcndaltoos and Safety, Security & Human Relations

(Utuil

- Developed student roster tracking tool-updated dala/removed obsolete info-increased office efficiency 25%
- Talented NCO with keen understanding ot command objectives...ready for increased responsibility...promote
IV. RATER INFORMATION

~

NAME, GRADE. BR OF SVC. ORGN, COMMAND AND LOCATION

I

VIRGINIA K. BOAK, MSgt, ANG
325th Operations Support Squadron (AETC)
Tyndall AFB FI

1

AF FORM 910, 20080618

----------------------------------------- --------------------------------- --------- -------- !------------------DUTY TITLE

OATE

NCOIC, HARM Office
SSN

7849

PREVIOUS EDITIONS ARE OBSOLETE

16 Jul 2009

SIGNATURE

BO.MC.VIItCilNlA.K. I III 1103753
PRIVACY ACT INFORMATION: Hu, mfonmllon In Ihla lone .1
FOR OFFICIAL USE ONLY. PioncIlAW Hit Privacy Ad ol 1974.

f*a St

cf C1l

19-40277.214

r

f

Case 5:18-cv-00022-JRG-y.vlC Document 7-1 Filed 05/03/18 VUge 16 of 29 PagelD #: 212
• j.
(
'■

C ..

(.
V. OVERALL PERFORMANCE ASSESSMENT
Performance Oufino Reooitmo P-jfioo
ASSESSMENT

\ *ATE= UAMB

POOR

MEEDS IMPROVEMENT

ll>

•:i

VERDEJO RUIZ. RAKAEL

AVERAGE
•31

’ •••DOVE AVERAGE

!

TRULY AMONG THE

BEST 151

M)

RATER'S

I

V

ASSESSMENT
ADDITIONAL RATER’S

!

ASSESSMENT

Last feedback was performed on:

i

9 Jan 2009

•f feedback was not accomplished in accordance with AFl 36-2406 stale the reason.

VI. ADDITIONAL RATER'S COMMENTS ILmnt text to 3 tines)

St

L■-

NICHOLAS H. REGISTER, Mnj. 1JSAF
325th Operations Support Squadron (AF.TO
fl-yndall AFB.FI

y

K

DUTY TITLE
SSN

I fi iul 2009

SIGNATURE

2763

gilt. FUNCTIONAL EXAMINER/AIR FORCE ADVISOR
Olndizato applicable raviaw by motklng the appropriate box.)
AME. GRADE. BR OF SVC. ORGN, COMMAND AND LOCATION

DATE

Current Ops Flt/CC/F-15C IP

*4

Tf
I
s \t
.5VI

NON-CONCUR

- Assisted in ICO's bowl-a-thon...efforts raised $175 in contributions...donated funds to ICO Heritage Ceremony
- Participated in Black History Month Ceremony...performed 5 songs for 120 spectators...event lauded success
- Highly motivated NCO w/infinite potential....cxcepticmnl leader & mentor....promotion to TSgt well deserved!
NAME. GRADE. BR OP SVC. ORCN. COMMAND AND LOCATION

r»

y/ CONCUR

REG1STER.NICHOI.AS.H. 1052971680
FUNCTIONAL EXAMINER :

DUTY TITLE

AIR FORCE AOVISOR
| OATE

I

I
SSN

O

gjll, UNIT COMMANOER/CIVIUAN DIRECTOR/OTHER AUTHORIZED REVIEWER

SIGNATURE

y/. CONCUR

IAME. GRAOE. BR OF SVC. ORGN. COMMANO AND LOCATION

DUTY TITLE

^RYAN F.. SHORTER. Capt, USAF
25lh Operations Support Squudron (AETC)
'yndnll AFB FI

F.xccutive Officer
SSN

NON-CONCUR
OATE

20 iul 2009

SIGNATURE

2073

SHORTER.BRYAN.E. 1045886693.

IX. RATHE'S ACKNOWLEDGEMENT

I understand my signature does nol constitute agreement ot disagreement I acknowledge all required feedback -Max accomplished during Itio repelling period
and upon receipt of this report.

y, ^

^

SIGNATURE

Member unable to sign
BOAR. VIRGIN I A.K.1101103753

DATE

20 Jut 2009
INSTRUCTIONS

Complete this report IAW AFl 36-2406. Reports vtrillen by Colonels or civilians (GS-15 or higher, or Supervisory Pay Bond 3), do nol require an additional
rator: however, endorsement by the rater's rater is permitted unless Urn report is written by a senior rater ar the Chtet Master Sergeant at the Air Force.
Whenlhe rater's rater is not at least o MSgt or civilian (GS-07 orhlghor. or Supervisory Pay Band 11. the additional rater is the next olliciel in the rating
chain mealing grade requirements. An overall rating ol 2 or nogatlve comments requite the EPR to bo rctorrod IAW AFl 36-2406. Rationale ter any
additional avutuulor nonconcurring with an overall rating must be included. Section VIII Reviewer nonconcurrenco must bo included on an AF Form 77.
Loiter ol Evaluation. II ralea is deployed, provide copy and toodbock via e-maiVIclocon
PRIVACY ACT STATEMENT
AUTHORITY- Title 10 United Stales Cede. Section 6013 and Executive Order OJST. 72November 1943
PURPOSE: tiitermalian is needed ter vonhenhen cl Urn individual's name and Social Sccunly Number ISSN) as caplwed on Iho form .if llio lime aiming
ROUTINS USES' May specifically be disclosed outside Iho OaO as a roiilino use pursuant la S US C 5S2a(b)(3)
DISCLOSURE' Cisctor-ure is mandatory: SSN ts used far positve identiiicattan

r
I:

ii

AF FORM 950, 20D80S18

PREVIOUS EDITIONS ARE OBSOLETE

PRIVACY ACT INFORMA flONt Th« Information In IM» form o
FOR OFFICIAL USE ONLY. Proloci IAW (ha PiKacf Act of 1974.

i

l
IX

.* 4?

\

19-40277.215

:■(

;

Case 5:18-cv-00022-JRG-CiviC Document 7-1 Filed 05/03/18 Vagfe 17 of 29 PagelD #: 213

r

\

t

)

(

'■

t.

ENLISTED PERFORMANCE REPORT (AB thru TSgt)
I. RATES IDENTIFICATION DATA /Rate/ to Aft 36-2*106 for instructions on completing this him}
1 HAM tUSI. First. S/iCate In,Mi}
. 2 SSN
3 GRACE

VERDEJO, RUIZ R.

;

•A CAFSC

583-SI-1958

S ORGANIZATION, COMMAND, LOCATION. AND COMPCN6NT

!

1

OP0RFC50

3 FERIOO OF REPORT
Fiom1
ISJun2007

10 REASON FOR REPORT

II. JOB DESCRIPTION
1 DUTY TITLE

9 NO. OAYS SUPERVISION
Thru:

17 .lun 2008

'

~

200 ’

2

•=

2. SIGNIFICANT ADDITIONAL DUTYIS)

4

z
'i

'---------- ------------------------------------------------- —

PERFORMANCE ASSESSMENT
------------------------------------------------------------—
PRIMARV<ADDITIONAL DUTIES (For SSgt/FSgtalso consider Supervisory. Leodorship ond Technical Abilities)
!
“gmlder Adaplmg, Learning, Quality. Trnieltnos., Pro/Mjlonol Growlh and Communicalion Skills ilfniil lost to 4 linos}

_

e{

V'-A

!

Annual

- Maintains accurate records of50t- pilots. ensuring completion of all HHQ required night and ground training
- Maintains Aviation Resource Management System (ARMS), vital to tracking requisites for flight authorization
- Performs Go/No-Oo procedures critical to ensure all pilots meet required training necessary for safety of High!
- Manages Ready Aircrew Program (RAP); all CMR/BMC wartime mission readiness capabilities documented

=

.5

DR 173

COMSEC Manager, IMPAC Curd Holder, and
Equipment Custodian

3. FEY CUrlES. TASKS. AND RESPONSIBILITIES (Limit lux! to S linos)

Z.

1C052
7 SRIO

-3ih Fighter Squadron (PACAF). Osan Air Base. Republic of Korea

Assistant NCOIC, Squadron Aviation Resource
Management (SARM)

■

SSgl
f> pas ccoe

j Ooos Nol Moot •

Meela

; Above Average

Clearly Exceeds

5prebted software Go/No-Go tracker-ensured pilots met all medical, safety, and training requirements lor (light
gvieticulous training expert-tracked 1,000+ A-10 sorties along Demilitarized Zone; ensured combat proficiency
I gmpeccnbly managcd/majntained two $ 115K equipment accounts—increased accountability from 40% to 100%
j-cf lawlessly audited 4,000 sorties & 6,000 hours; zero errors-crucial to maintaining squudron combat readiness
"§ STAN0AR0S- CONDUCT. CHARACTER <3 MILITARY BEARING (For SSgVTSgl also consider Enforcement at Standards and Customs A Comlosios>
tgnsidsr Oless S Appearance, ParionallProIes slonal Conduct OnJOIf Duly (Limrl lest to 1 linns}
jjj

I__• Ones Nol Moot '_' Macla ;

Above Average

Cleoily Exceeds

- ARMS Advisory Group President-organized quarterly training; boosted morale & camaraderie between ICOs
- Trained new Airman in SQ ARM duties; achieved 5-level cert 6 months ahead of schedule; 87% on EOC exam
3. FITNESS tUainlains Air Force Physical Fitness Standards) (For lefcmts. imllotllo tine)
'

i
!

Ooos Not Meel ^/\ Wools •

~

—

'

--- --------

. Exempt

A. TRAINING REQUIREMENTS (ForSSgl/TSgt also considerPUE, OK-duly Education, technicot Growth, Upgrada Framing) Consider Upgrade.
Ancillary. OJT ond Readiness (bmil lost to 2 linos)
---------------------------------------------—
1

| Does Not Moat •

L-

Wools

‘ Above Average

Clearly Exceeds

■

- Improved knowledge of JCS system used to evaluate readiness; completed Status of Resources Training Course
- Keen on career development; attended EPR writing seminar—sharpened supervisory writing skills/productivity

f

5. reAMWORK/FOLLOVYERSHIP (For SSgt/TSgt also considar Leadership, ream Accomplishments, RecognitiontReward Others) Consider Team
Building. Support o! Team, Followership I'Lrmit loti to 2 l.ncsl
"
----------------------------- —---------------- ——
06ej Not Meet

i

/.teats

; homo Avenge

; dearly Exceeds

- Superb knowledge; trained 2 new ICOs during 50% shop turnover-100% of various office & ARMS tasks met
- Stalwart volunteer! Base patrol member/dorm reviews; contributed to safety/quality of life for all 7AF Airmen
foxnJ2Pr?*s<)OMMENTS ,Con!,dorPronw,ion-Fulure Outy/AssigimianbEducolion Ftocommandolions and Safoty. Seemly S Human Regions) {Unlit

I

I
i
!
l

i

l
i

?

l

i

- Diligent COMSEC nmnager; oversaw and ensured 100% accountability of 180 daily/warlime classified items
- Dynamic leader who is beads above the rest; Del 2 NCO of the Quarter. Jul-Sep ’07-pfomotc ahead ofneers
IV. RATER INFORMATION
NAME. GRADE, OR OF'SVC. ORGN. COMMAND AND LOCATION

~—
DUTY TITLE

\

----------------- ---- ----------- —-------------------------------------- -----------DATE

JOSEPH H. SETTLE HI, MSgt, USAF
Squadron Superintendent
17 Jun 2008
25th Fighter Squadron (PACAF)
SSN
SIGNATURE
F
Osau Air Base, Republic of Korea
3226
SF.TTLEJOSEPH.II.hu 152875173
AF.FORM 910, 20070625
PREVIOUS ECITIONS ARE OBSOLETE
PRIVACY ACT INFORMAtlOH: th. InlKmxdon In It,;, form I,
FOR OFFICIAL USE ONLY. PrsUci tAW |h» Pityjcy Aet of 19/4.

F

3H eP f#
CUtviiri^

19-40277.216

r

Case 5:18-cv-00022-JRG^,t/IC Document 7-1 Filed 05/03/18 \,age 18 of 29 PagelD #: 214
(

'

V. OVERALL PERFORMANCE ASSESSMENT
Performance Oudnn Reported Ported
ASSESSMENT
RATER'S

FCCRMI

IUTEE NAME.
.SEEDS IMPROVEMENT

VERDEJO* RUIZ R.

AVERAGE Ol

ABOVE AVERAGE Ml

I

^
J

TRULY AMONG THE
BEST #5)

I

y

ASSESSMENT

i
i

AGOITIONAL PATER'S

i

ASSESSMENT
J

§

.ast feedback wis performed on*

6

15 Apr 2008

11 feedback was not accomplished in aceoroaneawiinAFISS^dOB, Hole the coaion

3

C
*0
I. ADDITIONAL RATER'S COMMENTS (Lwnf (ext fo 3touts)

c

>/ CONCUR

Unique expertise; only SARMS expert deployed lo F.x COPE TIGER '08; flawlessly tracked 65 sorties/120 hrs
Assisted in reconstruction of ARMS Irng events/profiles-coinpleted implementation of new PACAF guidance
Highly motivated selfstarter with great leadership skills; definitely ready for shop chief duties-proinote now!

V

JC

.5

Jf/JE, GRAOE. SR OF SVC. ORGN. COMMAND ANO LOCATION

'^3:gDDNEY J. STOKES, Lt Col, USAF
§y t5jth Fighter Squadron (PACAF)
Air Base. Republic of Korea

OUTY TITLE

-

■

-$SN

s

SSN

qng UNIT COMMANDER/CIVILIAN DIRECTOR/OTHER AUTHORIZED REVIEWER

: #AE. GRADE. BR OF SVC. ORGN COMMAND AND LOCATION
RODNEY J. STOKES. Lt Col, USAF
25th Fighter Squadron (PACAF) .
Osun Air Base, Republic of Korea

I
s

DUTY TITLE

ft"' o
z

STOKF.S.RODNEY'.J.I IS2870562,
FUNCTIONAL EXAMINER '

•o ;■«

S

17 Jun 2008
SIGNATURE

0113

\ UWE, GRAOE. BR OF SVC. ORGN. COMMAND AND LOCATION

K

DATE

Commander

2\ J % FUNCTIONAL EXAMINER/AIR FORCE ADVISOR
w r > Vyfcfl/o appheoblo fevnw by marking th* Appropriate box.)
.,

NONCONCUR

DATE
SIGNATURE

y/ CONCUR

OUTY TITLE

HON-CONCUR
DATE

Commander
SSN

AIR FORCE AOVISOR

18 Jun 2008
SIGNATURE

0113

STOKES.RODNF.Y.J.1152X70562.

IX. RATEE'S ACKNOWLEDGEMENT

1

I understand my signature dots noi cansitule agreemtnl or disagrremenl I acknowledge allrequired foodback was accomplished during Iho /opening perled and
upon foce>pt of this report.

J

SIGNATURE

I

OATE

18 Jun 2008.

VERDEJO KUtZ.RAFAKL.RAFAIiL.12-13270894.
INSTRUCTIONS

Compfafs this report MV API 36-2 406. Reports written by Colonels or civilians fGS-15 or higher, or Supervisory Pay Band 3). do not require an additional
rater, hoviovor, endorsement by the rater's niter is permitted unless the report is written by a senior rater ortho Chief Master Sergeant ol Ine Atr Force.
When the rater's taler Is not at least e MSgl or civilian (GS-OI or higher, or Supervisory Pay Band 1), the additional rotor is the next oHleiat in the rating
enain meeting grade tequiromonls. An overall rating ol 2 or iwgahve comments require the EPRlo be rotorred IAW AFl 36-2406. Rationale tor ;my
additional evaluatornqnconcurring with an overall rating must be included. Section VIII Reviewer nonconnurrence must be included on an AF Form 77,
Loiter of Evaluation. It ratee is deployed: provide copy end Redback via e-maiuielecnn.
PRIVACY ACT STATEMENT
AUTHORITY Tide to Un-lod Stoles Code. Boermii 6013 and Secretary at the Airforce aodErocntive Order 0307, 72 November 1543.
PURPOSE intoimahon is needed lor vonhcntian at me individual's o.t/no and Social Socially hiimhor ISSN) as c.ipfu/cd on I ha term at llro time of rating
ROUTINE USES: None RATIONALE. This intoraiauan wnlnr.t to disclosed outside OeOehon/iets

1

OISCLOSURE Disclosure is mandatory: SSN is used Inr positive idenUtknUon.

I

V

\
[
■

i
i
i

AF FORM 910. 20070625

PREVIOUS EDITIONS ARE OBSOLETE

PRIVACY ACT INFORMATION: Tli. Inlsrmsljon In tin. form It
FOR OFFICIAL USE ONLY. Protect IAW lh« Prlvjey Acini ISM.

?

i
5

s

j>(L^t 35"

i
f
f
!

C-UThentuj pU-W

r

19-40277.217

l

r-

/—

Case 5:18-CV-00022-JRG-p-iviC Document 7-1 Filed 05/03/18age 19 of 29 PagelD #: 215
r
ENLISTED PERFORMANCE REPORT (AB thru TSGT)
I. RATES IDENTIFICATION DATA iRaad AFI36-74C6 carefully toIota eempiahngeny Hem )
t NAME Hast. Full. Miiale Initial)
2. SSN

VERDEJO RUIZ, RAFAEL

3 GRADE

583-81-1958

A. DAFSG

5 ORGANIZATION. COMMAND, AND LOCATION

Ea PAS CODE

ACC Air Operations Squadron, Detachment 2, Hickam AFB HI
7. PERIOD OF REPORT
j
c

From:

3

It. JOB DESCRIPTION
1 OUTY TITLE

V
2
c

l
w

•Vj
“

18 Jun 2006

IC052

SSGT

365

17 Jun 2007

1 Cl 1C

HUCF.TS7

S. NO DAYS SUPERVISION
Thru:

6b SRID

9. REASON FOR REPORT

Annual

Aircraft Delivery Coordinator
7. KEY DUTIES. TASKS, AND RESPONSIBILITIES

Coordinates movements of aircraft with HQ ACC, HQ PACAF Operations Support Center, ACC Air Operations
Squadron (AOS) detachments und Delivery Control Center, as well as lighter wings operating in (he Pacific
AOR. Organizes all HHQ message traffic and builds pilot mission packages for each aircraft movement. Coor­
dinates air refueling requirements and altitude publications. Coordinates arrival and departure times with tran­
sient maintenance, billeting, customs, weather forecasters, base operations and transportation. Orders computer
v flight plans and assists in the preparation of domestic and international flight plans. Processes and approves all
-. Jravei authorizations. ADDITIONAL DUTIES: Functional Systems Administrator, Workgroup Manager,
/\ security Manager, Supply/Equipment Custodian, Urinalysis Trusted Agent, Unit Leave Manager. Information
ftssurance/COMPUSEC Manager, Vehicle NCO, Telephone Control Officer and Fitness Assessment Monitor.
1

I jt. EVALUATION OF PERFORMANCE

K

i
•J>v

y 1, HOW WELL DOES RATEE PERFORM ASSIGNED DUTIES?

□

ii- f—**< IftafftaonLAn
'^I
| .unprofessional
\.. Z I____ • performer

(Consider quality. quantity, and timeliness of duties performed)

□

Good performer.
Performs routine
dulies satisfactorily.

Excellent performer.
Consistently produces
mgn quality work.

El

The eicflption
Absolutely superior
in aU areas

J 2. HOW MUCH DOES RATEE KNOW ABOUT PRIMARY DUTIES7 tCansiitcnHheihcr nice ha* technical eipartiaa anditablo to apply
the kno-.vlodge)

n

i—, Has adequato technical
i
| knowtodge lo satisfactorily
I
» perform dulies

Does not hove the basle
i knowledge necessary to
I perform dulies.

Li

Excels in knowledge of
all related positions.
Masters all duties.

Extensive knowledge of
dll primary duties and
Waled positions.

3. HOW WELL DOES RATEE COMPLY WITH STANDARDS? (Consider dress nnrf appaatancr, weight ond (ilnBss. customs, end courlo.vos)

□

I Falls to meet minimum
standards.

□
□
□

4. HOW IS RATEE'S CONDUCT ON/OFF DUTY?

: Unacceptable

□
□

Meets Ait Foice
standards.

Sets the example for
others to follow.

|\yj Exemplifies lop
mmiaiy standards.

(Considar financial responsibility, respect for authority, support lor organizational activities,
and maintenance of government facilities)~~
.

Acceptable

Sets the axampto
for olhers. .

Exemplifies the standard
of conduct

5. HOW WELL DOES RATEE SUPERV1SE/LEAO? (Consider how welt member sets and enforces standards. displays Initiative and
self-confidence, provides guidance and feedback, andfoslors teamwork)
Effective Obtain?
Exceptionally
satisfactory
Ineffective
J
j Highly effective.
effective leader.
results.

iKi

6. HOW WELL DOES RATEE COMPLY WITH INDIVIDUAL TRAINING REQUIREMENTS?
education, proficiency/qualificatlon, and contingency)

□

Ooes not comply witn

• Complies with most
| training requirements

minimum training
requirements.

n

/Consider upgrade training. professional military

Complies with all
framing requirements.

I Consistency exceeds
1 * all (raining
J requiromonts.

7. HOW WELL OOES RATEE COMMUNICATE WITH OTHERS? (Consider ralee's vorbai end written skills)

i

Unab;e to express
j ihcugnti cearty
J Lacks oigamzalipn

AF IMT 910, 20000601, V2

i

l

Consistently able lo
organtu and oxpross
Highly Miiledwhler
idoas clearly and
and communicator
concisely_________
PREVIOUS EDITIONS ARE OBSOLETE
FOR OFFICIAL USE ONLY (When f,red .n)

;
! Oiganrzei.and expresses
j thoughts satisfactorily.

I

&

fAtn*T

19-40277.218

c

(

Case 5:18-cv-00022-JRG-v,„/IC Document 7-1 Filed 05/03/18 .^uge 20 of 29 PagelD #: 216

C\

!
(

t

IV. PROMOTION RECOMMENDATION

*ATEEN/>Me*

tOmpirt Nni ratio wi(h others of Me same orage ana APS)
NOT
MOT RECOMMENCED
It ECOMMEN CATION
RECOMMENDED

RATER'S

ADDITIONAL RATER'S
RECOMMENDATION
V, RATER'S COMMENTS

S

2
I
i

RECOMMENDATION

CONSIDER

THIS TIME

1

n

i

□
t

VERDEJO RUIZ, RAFAEL

2

3

u-

I

REAOY-

UMEDtATE
PROMOTION

4

$

i

!
4

5
I

- Highly dedicated NCO with extensive job knowledge and leadership skills—continuously exceeds expectations
- Ensured COMPACT objectives met thru excellent support of aeft movement in RED FLAG & COPE TIGER
V
- Superb VCO- discovered multiple injury-causing discrepancies to GOV-*cnsurcd 100% operation and safety
— Maintains vehicle S2,500 ground-to-air equipment—keeps fleet 100% operational—critical for (lightlineops
- Flawlessly assembled/programmcd new SIPRNet computer-accelerated classified da4ta transfer by over 75%
5
- Outstanding ADPE Manager—assessed/replaced six DCO laptops—prevented multiple mission show-stoppers
3
- Incomparable PTL-provided fitness guidance-oversight of program led to 100% pass, 62% rated "Excellent”
u
- Repaired 150+ system issucs/upgrades—no task too big—maintains proficiency in rapidly changing career field
£__ - Razor-sharp NCO-maintains 20 additional duties w/100% compliance-received outstanding on I5ABW SAV
jjNatural teacher-saved 20 hours by locally training geographically separated personnel in ARMS workarounds
v ’ 2AF Sergeants Association car wash volunteer—earned over $650 for first term Airmen graduation ceremonies
&
^Member of Pacific Revival Center Music Ministry-volunteered 18 hours per week-community faith enhanced
-A proven leader to his peers and supervisor-well worthy of STEP promotion to the rank of technical sergeant

'i■
j

ft
iA
w

I
!

f*
3

i

i

performance foeabael vres accompltihodon:

19 Jan 2007

fCo/wnlMl vwfh mo direction fa AFl 3$-7496. ttnot accomplished, state tha reason.)

S
o
ifi^ME, GRADE. BR Of SVC. ORGH. COMO & LOCATION

ourr TITLE

SlSHANDA D. BROWN, TSgt, USAF
Setflchmcnl 2. ACC Air Operations Squadron
$ickam AFB HI

SSN

NCOIC, Aircraft Delivery

VI. ADDITIONAL HATER'S COMMENTS

[
?

■

f
>

CATE

19 Jun 2007

98 OS
iXI g'QNCJ

INCOHCUR

- Exemplary NCO! Exceptional judgment/communication skil&piface him above peers—generates stellar results
- History maker-built mission packages &' flight plans for first-ever F-22 AEF deployment-1(10% msn success
Analyzed, researched and repaired critical brake system malfunction on unit's GOV used for mission launches
— Prevented over 70 hours in mission delays and saved the Air Force from paying significant repair costs
- Managed unit SI5.000 ADPE equipment—100% control and accountability of resources—ceased loss of assets
- Driven to success by self-motivation and strong sense of purpose; impeccable character—promote immediately!
NAME. GRADE. 8R CF SVC. ORGN, COMD 4 LOCATION

DUIYT/TLE

THOMAS E. CHESLEY, Lt Col. USAF
Detachment 2, ACC Air Operations Squadron
Hickam AFB HI

SSN

DATE

Commander

19 Jun 2007

3697

.3

INSTRUCTIONS
Reports willen by a seniorralet or the Chief Nosier Soijeanl oilho Air Fane (CMSAF) will nor he endorsed.
t>> <MW'7f/3 °r Civilians (GS-IS or higher) no no/ require an additional rater, however, endorsement is permitted unless proluotied by me

5

When the rater's ieltr is net at least a MSgi or civilian (GS-07 or higher), the additional rater is the next atticial in the reting ehein serving in the gredo at
MSgf or higher, or 3 ctttton in th6 grade 0/ GS*07 or higher.
When the ISnel evaluator (rater or addition at rater) is not an Air Force ollicer. enlisted, or DAT civilian, an Ait Foico advisor review is reouhad
Al) evaluators enter only Iasi tour numbers of SSN.

i

VII. COMMANDER'S REVIEW

l

X

i

,CONCUR

;

AF IMT9I0, 20000S01, V2

7/7
i NONCONCUR (Attach AF Form 77)

(reverse)

SlOj

FOR^ffrClXl USE ONLY (When men m|

fAP

0,1 op C$

C,\x/W/U’v|

19-40277.219

r

r

Case 5:18-cv-00022-JRG-CiviC Document 7-1 Filed 05/03/18 F^ge 21 of 29 PagelD #: 217

f

:

i

(

t

ENUsTfep PERFORMANCE REPORT (AS thru f$&T)
I. RATES IDENTIFICATION DATA (RoedAFI 3&-1406 carefully before completing any item.)
1. NAME fteif. first. Middle Initial)
2. SSN

VERDEJO RUIZ, RAFAEL

A. OAFSC

3 ‘GRADE

583-81-1958

5. ORGANIZATION, COMAtANO. AND LOCATION

&L PAS CODE

I ACC Air Operations Squadron, Detachment 2,’Hickam AFB HI
18 Jun 2005

17 Jun 2006

Thru:

et>. SRID

• HLICFTS7

I. NO. DAYS SUPERVISION

T. PERIOD OF REPORT
From:

1C052

SSGT

365

1CIIC

S. REASON FOR REPORT

Annual

(I, JOB DESCRIPTION
I. DUTY TITLE
T

Aircraft Delivery Coordinator
2. KEY 0UTISS,TASKS, AND RESPONSIBILITIES

Coordinates movements of aircraft with HQ ACC, HQ PACAF Operations Support Center, ACC Air Operations
Squadron (AOS) detachments and Delivery Control Center, as well as lighter wings operating in the Pacific
i
AOR. Organizes ail HHQ message traffic and builds pilot mission packages for each aircraft movement. Coor­
dinates air refueling requirements and altitude publications. Coordinates arrival and departure times with tran' dent maintenance, billeting, customs, weather forecasters, base operations and transportation. Orders computer
•S
Sight plans and assists in the preparation of domestic and international flight plans. Processes and approves all
3 "■
travel authorizations. ADDITIONAL DUTIES: Functional Systems Administrator, Workgroup Manager,
gccyrity Manager. Supply/Equipment Custodian. Urinalysis Trusted Agent, Unit Leave Manager, Information
d fri .ssurance/COMPUSEC Manager, Vehicle NCO, Telephone Control Officer and Fitness Assessment Monitor.

*w

id

.2

I. EVALUATION OF PERFORMANCE

9

\
I

e

t

1
I

3

HOW WELL DOES RAT EE PERFORM ASSIGNED DU7IES7

E
□
□
□
□

Inefficient. An
unprofessional
performer.

□
□
□
□
□
□
□

(Consider quality, Quantity, end timalfnoss of duties performed)

Good performer.
Perform* routine
duties eellifitforHy,

2. HOW MUCH DOES RATES KNOW ABOUT PRIMARY 0U7IES3
the knowledge)

i
i
5

I

Does rat have (he baste
knowledge necostary to
perform dub at.

□
□
□
□
□
□
□

Excellent performer.
ConxleienUy produces
high quattyvrorfc.

is

The exception.
Absolutely superior
In ell erase.

(Consider whether inlet hee technical expertise and Is able la apply

Hat adequate technical
knowledge to satisfactorily
perform duties.

Extensive knowledge of
nil primary dultoi end
related poaJItons.

13

Excel* In knovAedge o(
all nsleled positions.
Mailers all duties.

3. HOW WELL DOES RATEE COMPLY WITH STANDARDS? (Consldar dress end epposronce, weight end fitness, customs, end courtesies)

ii

!
!

Fide to meet minimum
xlmde/dj.

Meets Arr Foma
standard*..

4, HOW IS RATEE'S CONDUCT ON/OFF DUTY?
end malnlonence of government fee/Itties)
Unacceptable.

Seta the exempli for
olhsre lo follow.

Exemplify* top
military standards.

(Consider financial rcsponstbiVly, respect forauthority, support for ofQBnhetlonal cclfwf/es,

Acceptable.

Sets the example
for others.

El

Exemplifies the stsndard
of conduct.

lx!

Exeipttonsliy
efledlv* leader.

8. HOW WELL DOES RATEE SUPERVISE/LEAD? (Consider how weltmambar sets end enforces standards, displays Initiative end
aolf-confidenco, provide a guiVgrtca end feedback, andfostare loomwort)

Ineffective.

EJTodWo. Obtains
satisfactory
results.

Highly effective.

8. HOW WELL DOES RATEE COMPLY WITH INDIVIDUAL TRAINING REQUIREMENTS?
education, proUclency/qualihcetlan, end contingency)

C

Ooea not comply vrfih

minimum training
requirements.

Compiles with most
(reining requiremenli.

(Consider vpondo (mining, professionetmilitary

Complies with ell
training requirements.

tv--y Conetttenlly exceeds
! ell (raining
requirements.

7. HOW WEU POES RATEE COMMUNICATE WITH OTHERS? (Consider ralea’a verbet end written ,U111)

n

!
I

Unable to exprese
thoughts dearly.
Lacks organization.

AFIMT 910, 20000601, V2

i

Consistently able (o
orginko and express
&I Highly skilled wilier
Ideas dearly end
' end communicator
concisely.
PREVIOUS EOITIOMS ARE OBSOLETE.
FOR OFFICIAL USE ONLY (WI>ai>Mtdin>

Organizes and expresses
ihoughls satisfactorily.

I

i
?

\

i
I

I

i

3?

'■•F

faef-vr
i

>:
i

19-40277.220

r

r

Case 5:18-cv-00022-JRG^_..VIC Document 7-1 Filed 05/03/18 Vage 22 of 29 PagelD #: 218
f

r

\
IV. PROMOTION RECOMMENDATION

RATEE NAME:

tCompin ihh fata* vnlh otaorsa/the stmeendaan&APS)
NOT
NOT RECOMMENDED
AECOMMENOAT/ON
RECOMMENOEO
THIS TIME
1
7
RATER'S
RECOMMEHOATION

LJ

i

CONSIDER

RECOMMENDATION

PROMOTION

4

f

X!

□
<_

7

V, RATER'S COMMENTS

•MMEOtATE

READY.

□
□

i

1

ADDITIONAL RATER'S

VERDEJO RUIZ. RAFAEL

- A multi-talented NCO whose remarkable skills and endless dedication to mission reflect unlimited potential
- Outstanding mission accomplishment-integrated 900+ Coronet msn packagcs-directly supported DoD/foreign
aircraft sorties in Exercise COPE TIGER/COBRA GOLD/Operations ENDURING and IRAQI FREEDOM
- Augmented 535th Tmg Office—revamped outdated aviation resource management database; automated periodic
r
updating, auditing and posting of training process; corrected essential safety information-saved 40+ man-hours
u.,
- Superior speaker? Briefed post mission procedures at PACAF ICO workshop-increased 30+ ICOs awareness
3
- Quarterbacked self-help project to secure office after incident—restricted entry to Det personnel—saved $2K
l - Superintended Det 2 GOV program-verified over 65 inspections-maintained a 100% vehicle operation rate
- Exceptionally effective leader-supervised unparalleled fitness program-100% passed, 30% rated "Excellent"
| Flawlessly controlled Det's Si 0,000 equipment account-ensured positive control of over 25 high-theft items
'•qX 3 Ambassador in blue! Active member of community band—voluntarily performed 550+ hrs—troops recognized
jjO a Dedicated to self-improvement-eamed 18 credit hrs towards bachelor of science degree-maintained 3.5 GPA
g yt 5s>cllar duty performance Sc positive attitudc-fosters pride, teamwork and camafaderie-promote immediately!
~ <- 9««l p.rfornianci liadb.cT wi acoomplillwg on:

iAl
!

09 Jan 2006

<Conshtenl will ifti dtnebon to AFI3S-U0S ttnol eeeempmhed. .Iti. I/it resign.)

E

tfWE. CRADE. BR OF SVC, ORGN. COMO t LOCATION

DUTY TITLE

'j:

i&ASHANDA D. BROWN. TSgt, USAF
Bciachment 2, ACC Air Operations Squadron
(fjieknm AFB HI

SSN

3

OATE

NCOtC, Aircraft Delivery

VI. AOOmONAL RATER'S COMMENTS

19 fun 2006

9808
IV|

CONCUR

I

j

NONCONCUR

- Top-notch NCO! Performs every function with the highest degree ofintegfity, professionalism and excellence
- Managed S30K+ in Det 2 computer systems-upgraded 11 Office Automation Systems/Computer Enterprise
Systems in record time; coord w/PACAF to update security patches—boosted network system connectivity 75%
- Take-charge! Minimized repair/down-time of SIPRNET/FALCON VIEW computer sysiems-vital for msn ops
- Spearheaded Det Security prgm-0 discrepancies during I5AW COMPUSEC inspection-lauded "Outstanding"
- First class performer; consistently exceeds requirements; winner ACC AOS NCO of the Quarter-p'romote now
NAME. CRA0E.8R OFSVC. ORGN. COMO*LOCATION

DUTY TITLE

THOMAS E.CHESLEY, U Col, USAF
Detachment 2, ACC Air Operations Squadron
Hickam AFB HI

SSN

OATE

Commander

>9 Jun 2006

3697

INSTRUCTIONS

Roportj wrirten bye ten,or roler or the Chiel Metier Serpeentot the Air Feme (CMSAF)vallnotbe endorsed.
Nutantionebove'
c,vil,°ni tGS’,s 0/
done! require ert eddihenel nice however, endorsement Is permitted tiniest prohibited by the
am'l0n''nhni (h° n0X'°“ “*
**••"*» "> >»o trod, o,
When the linalevnluolar Inter or additional refer) It not on Air Ferco etfieor. entitled, or DA civilian, anftWr
advisor foviow is foqulraa
All evaluators enter only last tour numbers of SSN
Vlf. COMMANDER'S REVIEW

X

CONCUR

AFiMrjio. aeaeoioi, V2

f

j NONCONCUR iAtoc/t AF Form 771

(ReVFRSS)

sign;

rune
Y FOR OFFICIAL USE ONLY (Whtnfilud w)

\

31 rf Hf
d iITt in t*j

c

19-40277.221

r
n.

Case 5:18-cv-00022-JRG-b,wC ; Document 7-1 Filed 05/03/18 .C^ge 25 of 29 PagelD #: 221
(

(

ENLIstED PERFORMANCE REPORT (AB thru TSXZT)
I. RATEEIDENTIFICATION DATA \Read API 36-HOS CBielully talon completing any item.)
2 SSN
1 NAME (latt, Flrft, Mioor. tnloolj

4. DAF5C

3. GRADE
So PAS CODE

S. ORGANIZATION. COMMAND, AND LOCATION

J

97th Operations Support Squadron (AETC), Altus AFB OK

£

7. PERIOD OF REPORT

3

From*

5

18 Jun 2003

e

Aviation Resource Management Journeyman

M

o
o

312

17 Jun 2004

Tnru:

If. JOB DESCRIPTION
1 OU1Y TITLE

6b. SRIO

AM0JFHR4

6. HO. DAYS SUPERVISION

O

•o

IC052

SRA

583-81-1958

VERDEJO RUIZ, RAFAEL

0J1AM

9. REASON FOR REPORT

Annual

2. KEY DUTIES. TASKS. AND RESPONSIBILITIES

Responsible for the collection, input, update and audit of aviation service data for the Aviation Resource Mgmt
System. Initiates actions to support fit management policy/procedures including interviews w/aircrew members
_ to obtain flying-related data. Maintains control/accountability of fit record folders for 437 permanent party and
\ 3,000 student pilots, navigators, loadmasters, boom operators and engineers. Performs in-processing and
LS out-processing functions. Reviews medical recommendations for flying, Duty Not Involving Flying (DNIF)
I status reports, aeronautical orders, physiological training, flying attachment letters and aviation service data.
« Prepares/processes aeronautical and military pay orders. Audits flight mgmt reports and source documents to
« ensure accuracy of information. Distributes reports and lists for Host Aviation Resource Management (HARM)
1 office. ADDITIONAL DUTIES: Environmental Safety Representative, Physical Training Leader

ill
K l-

Ml. EVALUATION OF PERFORMANCE

■E-Si *
7

\ C

O
O

4

1. HOW WELL DOES RATEE PERFORM ASSIGNED DUTIES?
«

tnoffidont. An
I unprofessional

:

(ConsScftrcjuaHty, quantity, and timeliness of dutios performed)

Good performer
Performs routine
J duties satisfactorily.

performer

l.

Excehonl performer.
| Conslitentty produces
quality work.

The oxcapllon
Absolutely suporicr
\/2S} In afl areas.

2, HO W MUCH DOES RATEE KNOW ABOUT PRIMARY DUTIES? (Cansidur vrnether iBIee /las technical ayperttsa ana is able to apply
{he ftnowfetfQOj
—
—
Excels in knowledge of
Has adoquate tschnieal
Extensive knowledge of
, Does not havo iho baste
all related positions.
knowledge to satisfactorily
ao primary duties end
| knowledge nocossory to
Masters off dutfoc.
porform duties
related positions.
purfoimdutlett.

□

□
□

□
□
□

3. HOW WELL DOES RATEE COMPLY WITH STANDARDS? (Consider dress and appaaranca. weight and fitness, customs, and courtaslos)

’

Fads to meet minimum
| standards.

Moots Afr Force
standards.

Sets tno example for
others to follow.

X'

Exemplifies lop
miltlory standards.

4. HOW IS RATEE'S CONDUCT OH/OFF DUTY? {Ccnsidor financial rcspontibthly, rospocl hr authority, support for organizational activities,
and mointenanca of government lactllUos)

□

* Acceptable.

Unacceptable.

Sets the example
for ethers

\\y
✓C

Exemplifies (he standard
of conduct

5. HOW WELL DOES RATEE 6UPERV1SE/LEAD7 (ConsJderhotf well member sots and enforces standards, displays rnifrafrve and
setficonfldenca, provides guidance end fetdOscK, and fosters toemv/orJc)
I-----—\ Effective. Obtains
Exceptionally
:
I satisfactory
j Highly effoebve.
Ineftactive.
offocbve leader
i
*J results
6. HOW WELL DOES RATEE COMPLYWITH INDIVIDUAL TRAINING REQUIREMENTS?
education, pioriclancy/quatitication, and contingency)

Dues not comply with
|
• minimum trainmo
! roquiromonM

*

j

Complies with most
Ira-nlnp requirements.

;t

(Consider upgrade training, prolesslonal military

Complies with ah
liatning requirements.

lr-’ T Consistently oxcaods •
oil training
/\l requirements

7. HOW WELL DOES RATEE COMMUNICATE WITH OTHERS? (Consider ratee's yertat and wntten shills}
Cons-stenily able to
unaots to express
• Highly skilled writer
organize end express
Organizes and expresses
thoughts doofty.
and communicator
thoughts oatiifactor.ty
ideas clearly and
Lacks organization
concisoty
PREVIOUS EOITIOHS ARE OBSOLETE
FOR OFFICIAL USE ONLY (When Mlad ia|
AFIMT 010, 20000601, V2

n

J

n

X:

C-Urn incej

19-40277.224

(

Case 5:18-cv-00022-JRG-wlC . Document 7-1 Filed 05/03/18 wge 26 of 29 PagelD #: 222
/

\

IV. PROMOTION RECOMMENDATION

RATES NAME:

iCorr.para irvs /at§e win othats et tho sama grade ana AFS)
NO*
NOT RECOMMENDED
RECCMMENOATiON
RECOMMENDED

RATER'S

CONSIDER

READY

3

9

4

2

9

4

THIS TIME

1

VERDEJO RUIZ, RAFAEL
IMMEDIATE

PROMOTION
5

X!
X

RECCMMENOATIOM

::
' r
■i
C
c
CL

•u
C
I

&
o

fi

CJ .

m

ADOiTICMAL RATER'S
RECOMMENDATION

:

i: •

i

V. RATER’S COMMENTS

S

i

- Unparalleled work ethic, acute attention to detail and dedication vital to 97 OSS and HARM office successes
- Zero discrepancies in HARM office during ’04 HQ AETC- ORI-absolutety superb; key to sq "Excellent" rating
- Critical to mission success; monitored/maintained grounding go-no-go currencies for 3,000 student aircrew
— Meticulously tracked and posted requirements—ensured only current and qualified aircrew Hew at all times
- Extremely well organized and mission oriented, selected to instruct two Airmen on HARM office procedures
- Flawless guidance on operating procedures-dramaticalty improved the quality of the mission at Altus AFB
.- Coordinated daily w/ the flight surgeon's office-100% accurate DNIF status reported daily to all flying units
5 Self motivated! Completed nine credits towards CCAF degree in Airport Resource Management w/ a 3.5 GPA
< Commitment to fellow Airmen as the Assistant Program Manager for Airmen Against Drunk Driving (AADD)
Selflessly devoted his off-duty time to AADD; contributed 20+ hours to protect ourmost valuable resources
n Model for A’F fitness standard! Pivotal role in organizing and implementing the new AF fitness program for sq
3 - Led squadron in physical fitness over twice a week; helped ensure squadron meets & exceeds AF standards
~i Leadership excels above peers, consistently raised the bar; ready for increased responsibility; promote ASAP!
yau performance feedback vm accomplished on:
to

30 Jan 2004

(Conshtont with iht dfnetion in AFl 3&-2406. If ootaeco/ppfiififd, alele (Ae coo son.)

2

8
M

Same, grade, dr or svc. orgn. como a location

2 URITA A. RORIE. SSgl, USAF

97th Operations Support Squadron (AETC)
Altus AFB OK.

CUTY TITLE

DATE

Assistant NCOIC, Host Aviation Resource
Management
SSN

VI. ADDITIONAL RATER'S COMMENTS

if*

2804
'Sri CONCUR

|

j

NONCONCUR

~

- My SI Airman! Sets the example for all others to follow in lime management, self-improvement and dedication
- Distinguished as the 97th Air Mobility Wing Aviation Resource Management Airman of the Year for 2003
- Handpicked by Honor Guard NCOIC to promote "esprit de corps" to all new Airmen assigned to Altus AFB
- Briefed at the First Tern Airman Center on the rewarding & challenging experiences the Honor Guard offers
- Outstanding attitude, military bearing, dress and appearance; exhibits a professional AF image for all to follow
• Dedicated and talented Airman with infinite qualities for leadership &. responsibility-promote ahead of peers!
NAME. GRADE. BROF SVC. ORGN. CCMO A LOCATION

ANDREW J. LESH1KAR. Maj, USAF
97th Operations Support Squadron (AETC)
Altus AFB OK

DUTY TITLE

"

------------

Commander, Operations Flight/ C-17 CC.TS
Evaluator Pilot
SSN

8848

SIGNATURE/

DATE

J •/

4/vnxv 6WAufyr?

INSTRUCTIONS
------------------- :---Reports millen by a senior rotor or tho Chid Master Sergeant of the Air Foreo (CMSAF) will not ho endorsed.
Reports wntfen by calends or civilians IGS-tS or higher! do not require a/i additional talar; howevar, endorsement is permitted unless prohibited by tho
When the rater’s rater is not ot least a MSgl or civilian fCS-OY or higher), the additional rater is Ilia nest official in the rallno chain serving in the grade ot
MSgtorhi$he/tori} civifum initio grade of CS-07 zr hiqhat.
v
When the final evaluatnr (rulerot additional rater; is not an A,r Force officer, enlisted, or OAF civilian, on Air Force advisor review is required
All evaluators enter oniy /«/ four numbors ot SSN
VII. COMMANDER'S REVfeW

CONCUR
AF IMTOIO, 30000801. V2

NONCONCUR {Attach AF Form 7?)
(REVEM

SIGNATURE

2

*"s FOR OFFICIAL U

INLY

(When filled in)

of ^

c/e/nent

1

four

19-40277.225

(

Case 5:18-cv-00022-JRG-CiviC Document 7-1 Filed 05/03/18age 27 of 29 PagelD # : 223
/

C

ENLISTED PERFORMANCE REPORt (ABVrnJ TSQT) y
I. RATHE IDENTIFICATION DATAfReBd AFI36-2406 cawfully before completing any Hem.)
1. NAME flad, Pint,

tndb/)

2L SSN

VERPEJO RUIZ, RAFAEL

3. GRADE

1C052

S. ORGANIZATION. COMMAND, AND LOCATION

;

ft*. PAD COOS

56th Airlift Squadron fAETC), Altus AFB OK

Ob.SRlO

AMOJFCWC

7. PERtOO OF REPORT

From: i8JUXl 2002

4. OAFSC

583-81-1958 |A1C

«. NO. DAYS SUPERVISION

Hire 17Jun2003

0J1AM

«. REASON FOR REPORT

365

Annual

.

II. JOB DESCRIPTION

1. ourYUTue
Aviation Resource Management Journeyman
2. KEY DUTIES, TASKS. AND RESPONSIBILITIES

Posts and maintains aircrew flying time and currency requirements on an automated web based program.
Maintains flight publications and aircrew related forms. Generates flight orders and related go/no-go records.
Processes incoming and outgoing students. Manages student aircrew training records in selectively manned
, C-5 transition training unit. Maintains and updates support publications and forms in local and trip mission
ij kits. Inputs aircrew member currency requirements into Aviation Resource Management System (ARMS).
Reviews personnel action requests on aircrew members to determine the effect on their flight status.
c
„ ADDITIONAL DUTIES: Alternate Passport Clerk, Assistant NCOIC Unit Control Center (UCC), Alternate
5 AVPOL Monitor, SARMcmber, Alternate Personal Wireless Communications Systems Manager (PWCS),
- Alternate Ancillary Training Manager. Honor Guard Trainer, Security Forces Augmentee._______________
~ III. EVALUATION OF PERFORMANCE____________________________________________ _______________________________________________
S

1. HOW WELL DOES RATEE PERFORM ASSIGNED OUTIES?

□
V
□

tneftdaot. An
unprafeaalonai
performer.

□
□
□
□
□
□
□

(Comtekequality, quantity, and Vmetlnosa ot dutiesperformed)

n

Good ptrfoaMr.
Performs iDtitlno
duties fla|lff*ctarVy.

2. HOW MUCH DOES RATEE KNOWABOUT PRIMARY DUTIES?
apply V)e knowledge)
Does nol have the basic
khovriedge noeewry lo
perform duties.

Hat ed equals technical
taowfodoo lo tsUsfae*
lority perform duties.

3. HOW WELL DOES RATEE COMPLY WITH STANDARDS?

courtesies)

n

Fail* to meet minimum
standards.

Excellent performer.
Consistently produces
high quoSty work.

IE)

The McepHon
Abwlirtety superior
tn all era**.

(Consider Vihethor rstoo tios f*cfinical expertise and la able lo

□
□
□
□
□
□

Extensive knowledge of
all primary outlet and
rotated posiKon*.

ESI

Exart* In knowtedgo of
a9 rtrtaled posfdont.
Mastered *K duU&a.

(Consider dross end appearance, Weight and fftnoss, customs, and

Meet* Mt Force
standards.

Set* tha example for
otfwi to follow.

[S3

Exemplifies top
millory standard*.

4. HOW IS RATEE'S CONDUCT OM/OFF DUTY? (CcnsUdor financial responsibility, respect tor authority, support for or^ontzaVonal
adMttes, ondmalnlemnco of government facilities)

□
□
□
□

Unacceptable.

Acoeptebte.

xi

Sot* the example
brothers.

Exempltftee th* * bndsrd
of eorxJucf.

S. HOW WELL DOES RATEE SUPERVISE/LEAD? (Consider haw wet member sets end enfomis standards, displays Initiative end
soH-conUdanas, provides guidance endfoodbeck. and fosters teamwork)

Ineffective.

Effoctfv.. Obtain.
tab'slodory
ratuKs.

6. HOW WELL DOES RATEE COMPLY WITH INDIVIDUAL TRAINING REQUIREMENTS?
military education, proflrfcncy/quoltficBljon, and contingency)
Ooe* rot comply with
crvnrnum training
requirements.

Complies with most
training requirement*.

7. HOW WELL DOES RATEE COMMUNICATE WITH OTHERS?
Unotfa to express
thoughts daarty.
Lock* organization

AF FORM 910, 20000601 (BF-V1)

Organizes and aiprauo*
thoughts sadsfadority.

1X1

Highly effective.

Exceptionally
offoetfve teador.

(Consider upgrade training, professional

Compfod wthall
lraln<tg requirements.

XI

Consistency excoedi
•X training requinemeTKs.

X3

Htptiy skilled wnlnr
and commoocelor.

(Consider niton's verbal and Mitten skills)
ComlalKrtiy fit/oto
organtza and oipreaa
bass dearly and
concisely.

PREVIOUS EDITIONS ARE OBSOLETE

FOR OFFICIAL USE ONLY (Wlwi filtad n)

5t 44 of

1

l

fOCfat

19-40277.226
t

f._

Case 5:18-cv-00022-JRG-v^C:;: Document 7-1, Filed 05/03/18 V age 28 of 29 PagelD #: 224

RATEENAME: VERDfejQ RUlZ.

IV, PROMOTION RECOMMENDATION (Ccmpzn lh!s mat vvi'tfi o/fmra cfffta awtgnda indAFS)
T
NOT
NOT RECOMMENDED
RECOMMENDATION
RECOMMENDED

RATER'S
RECOMMENDATION
ADDITION*!. RATER'S
RECOMMENDATION

AT TH/S TIME

CD
CD

CD
CD

IMMEDIATE

READY

CONSIDER

PROMOTION

CD
(D

CD
CD'

(El
ESI

V. RATER'S COMMENTS

'
■5

*3

c
to
u

0

£

- The office microscope; processed daily and monthly ARMS audit products; reviewed 300 pages monthly
— Identified and corrected an average of 30 errors per month—kept ARMS shop 100% accurate all the time
- Attended Oracle Report Writer Course; graduated w/100% average earning the Academic Excellence Award
— Used knowledge gained firom this course to maintain a revolutionary web-based aircrew currency system
— Gnve aircrew instant access to their currency training; virtually eliminated overdue flight training events
- Extremely reliable airman; handled multiple responsibilities after short-notice TDY of 58 AS ARMSNCOIC
— Assisted the 58 AS ARMS office ensuring all tasks were complete while still performing his primary job
- Trustworthy; assisted sq training office in updating and managing student training folders and flying time
— Lauded by 97 AMW HARM Chief for accuracy of student updates; the only squadron that had zero errors
- Responsible; appointed to serve as trainer for 51 honor guard members and managed $38,000 training budget
— Performed in highly visible full honors funeral detail for the Space Shuttle Columbia Commander, Colonel
Rick Husband; spent 4 days training 22 members of his flight to properly honor this fallen America hero
- Priceless asset; embodies the professional airman; HARM duty a must—absoluteiy promote ahead of peers!
10 Oct 2003
a.ui p*Torm»ne« (Hdbsck wu eecompliihod on:
(Coni/Nvof tvftt the direction /p API 3&-2404.)
Kcomp*tti*d,sWt tbm rwntofl.l

6^
a

.2

—

C

8

S
%
HNAME. GRAOE, BR OF SVC. ORGN. COMO i LOCATION

DUTY TITLE

jJSA M. BITTON, SSgt, USAF
36th Airlift Squadron (ABTC)
. jMtusAFBOK
'!■ ADCHTtONAL RATER'S COMMENTS

NCOIC, Aviation Resource Management
SSN
Sl(
0466
X CONCUR

DATE

r\

_______ n[A„.
!3» IM- OrffavT
NONCONCUR

, J- Assisted m the management of the squadron Aviation Petroleum, Oils and Lubrication (AVPOL) process
; 7 — Tracked 1.1M gallons of fuel worth S990K; flawless auditing led to 100% accountability—best in 97 OG
' 3- Prudently monitored the unit flying hour program; reconciled daily and monthly Aircraft Utilization Report
j — Expertly accounted for 250 plus flying hours per month ensuring hours matched w/maintenance analysis
- Fierce publications manager; maintained aircrew fit msn kits—updated six kits daily, 120 forms & zero errors
- Superior Performer! Selected as 97 OG "ARMS AMN of the Qtr" three of four qtrs: promote immediately!
NAME. GRAOE. BR OF SVC. ORGN, COMO & LOCATION

DUTY TITLE

MARK A. BOVA, Maj, USAF
56th Airlift Squadron (ABTC)

Assistant Operation? Ofticcr
,

DATE-,

r?

_

03

SSN

Altus AFB OK

1165
INSTRUCTIONS

Reports written by e senior rotor or tho Chief Master Sorgeentol the Air Force (CMSAF) will not bo endorsed.
Reports wilton by colonels or civilians (OS-15 or higher) do ml require on addiltonsl rater; however, endorsement is permitted unless prohibited by
the Instruction above.
Mien the rater’s rater Is not el hast e MSgt or civilian (OS-07 or higher), the additional rater Is the next olticlel In the rating chain serving In the grade
ofMSgl or higher, or o civilian in the grade of GS-07 or higher.
Mien the firm! eve/uetor (rotor or additional rater) is not onAIrForto othcorore DAF civilian, onAk Force advisor rovtaw is required.
Alt evaluators enter only lest four numbers of SSN.

l

VII. COMMANDER'S REVIEW

X

CONCUR

/

NONCONCUR (Attach AFForm 77)

AF FORM V10,20000601 (REVERSE) (EF-VP

]

//^9

/

^tAiATt_____
L

/FOrJoFFICIAI. USE ONLY (Wtwo aiud in)

4S'

Hi

19-40277.227

Case 5:18-cv-00022-JRGtD.viC Document 7-1 Filed 05/03/18X^ge 29 of 29 PagelD #: 225
/A

T\
IV, PROMOTION RECOMMENDATION tCompau this rate* with othvtct tht aarte
recommendation

NOT
PECOMMENOEO

RATER'S
RECOMMENDATION
ADDITIONAL RATER'S
RECOMMENDATION

NOT RECOMMENDED
AT THIS TJME

ana AFS!
CONSIDER

RATEENAMEi VLRDEJO RUIZ,
■MMEOIATE
PROMOTION

REAOY

b

b

□

1X1

b

m

B

B'

(XI

B

V. RATER'S COMMENTS

i

X
sN&

- Focal point ofThe 56th Airlift Squadron Operations Center; kept the operations center running smoothly
— Important player; helped the squadron transition to a completely new and updated scheduling program
— Invested off-duty hours to input aircrew personnel data for over 70 aircrew members into the ARMS
- Mastered intricate mission review process as a three level; critical link in chain of mission accomplishment
— Collates flight data; ensures mission forms are complete/accurate and all flying hours are accounted for
-- Input/audited over 800 flight mission folders; provided accurate data in compliance with AF instructions
- Assisted in the operation of the squadron Aviation Petroleum, Oils and Lubrication (AVPOL) process
— Created excel spreadsheet to track oyer 98,000 gallons of fuel a month; increased efficiency by 75%
- Completed 5-level CDC—perfectly blended studies, office workload and base honor guard—scored 84-%
- Dress and appearance always unapproachable; unmatched military bearing aqd professional attitude
— Trainer on the Altus Air Force Base Honor Guard-represented the wing at over 100 ceremonies
> Maintained 100% controi/accountability of the flight crew information file—enhanced flight safety
3- Exceptionally talented Airman—does an outstanding job and has the potential to go far in the Air Force!
A.«tt p«rfofmine« l«*4baek w«* accomplish*! ©ft:
14 Mar 2002
(Corufilint wHh tho dlraeihn In AF136’3406.)

ft .3

^f/ not MccompHihed, ttaft th• raison.I *

5

•r

3

1

• JNAME. GRADE. BR OF SVC, ORGN, COMO & LOCATION

0UTY TITLE

LlSA M. BITTON, SSgl. USAF
■ JSth Airli ft Squadron (AETC)
iAlnis AFB OK
Vl. ADDITIONAL RATER'S COMMENTS

Chief. Avlalion Resource Management______________

OATE

SSN

0466

18 Jtrn 2002

TXkMn. fthhfcy-,

IX CONCUR

|

| NONCONCUR

t- Pugnacious warrior and bedrock of the ARMS shop; never hesitated to tackle any assigned taskings
) — Monitored all critical training requirements for over 70 aircrew members; ensured squadron readiness
- Swiftly built student flight training folders—ensured critical documentation readily available for instructors
- Flawlessly managed 400 flight publications and forms—ensured mission kits were accurate and current
— Efforts significantly contributed to section receiving an "Excellent" rating during 2002 HQ AETC ORI
- Highly skilled performer with superior job knowledge—56th AS Airman o
Year for 2001—promote!
NAME. GRADE, BROF SVC, ORGN, COMD & LOCATION

oury TITLE

DAVID E. HAFER. JR.. Maj, USAF
5ddi Airlift Squadron (AETC)
Altus AFB OK

Operations Officer

OATE

SSH

// ,
5101

9959

19 Jun 2002

ry-jj.;/
7
r

INSTRUCTIONS

Reports written by t senior refer or tho Chief Mestor Sergoent o I the Air Force ICMSA FI will not be endorsed.
Reports written by colonels of civilians IGS-IS or higherI do not require en edditionei reter; however, endorsement is permitted unless
prohibited by the instwetinn above.
When the rotor's reter if not el leest 0 MSgt ot elvilien IGS-07 or higher), tho edditionei reter Is tho post ol/ieiel In the retlng ehein solving it
the gredo of MSgt or higher, or e civilian in tho grode ol CS-07 or higher.
When the line! eveluetor tretcr or edditionei reter) is not on Air Foret o/licer or e DAF civilian, en Air Force edvisor review Is required.
Alt eueiuetors enter only test lour numbers ol SSN.
VII. CQMMAHDEH'S REVIEW

X
1

CONCUR

NONCONCUR tAntehAFFour, III

AF FORM 910. 20000801 /REVERSE! IFF-V21

sigkuture

FOR OFFICIAL USE ONLY lWh«n M .4 ini

i

f
?

!
5

p V?

19-40277.228

APPENDIX
O

y,

is TEE UMITEB STATES COURT OF APPEALS
FOR TEE FIFTH CIRCUIT
RAFAEL VERDEJO RUIZ,

§

Petitioner,

§

v.

§

CASE M>: 19-40277

§

DEREK EDGE, WARDEN,
Respondent. §

REQUEST FOR RECONSIDERATION AM) RECORSIDERATIOH EH BMC
Petitioner requests reconsideration and reconsideration En Banc because
this

court

erred by

failing

to

follow

its

own

circuit and Supreme Court

precedent and due to the exceptional circumstance of deciding whether there are
additional

exceptions

that

allow civilian courts to review military court-

martial claims. It has been 45 years sind Galley v. Callaway, 51S F. 2d. 184,
1975 U.S. App. LEXIS 12794 (5th Cir. 1975) and Burns v. Wilson, 346 U.S. 137, 73
S.Ct.

1045, S7 L. Ed. 1508 (U.S. S. Ct. 1953), which do not reflect Supreme

Court and circuit precedent in Evitts v. Lucey, 105 S. Ct. 830, 83 LED2B 821,
469 U.S. 387 (U.S.. S. Ct. 1984); Massaro v. United States, 538 U.S. 500 (U.S. S.
Ct. 2003); Martinez v. Ryan, 182 LEB2B, 566 U.S. 1 (U.S. S. Ct. 2012); Sullivan
v. Secretary, 837 F, 3d. 1195 (11th Cir. 2016); Finley v. Johnson, 243 F. 3d.
215 (5th Cir. 2001); United States v. Alanis, 88 Fed. Appx. 15 (5th Cir. 2004);
Johnson v. Zerbst, 304 U.S. 458 (U.S. S. Ct. 1938); and Eheuark v. Shaw, 628 F.
2d. 297

(5th Cir.

1980) decisions to name a few. The cases mentioned, among

others included in this request reflect that the prior rules and decisions in
Burns and Cailey have been altered.
This

court

also

erred

in

following

Supreme

Court

precedent regarding

petitioner's addition of arguments of lack of subject-matter-jurisdiction (see
Petitioner's appeal brief dated 5 A.ugust 2019 addressing court's lack of powrer
to

review;

Request

to

Review

Military

Appeal

Review's

Subject

Matter

Jurisdiction dated 23 October 2019 which clarifies that military appeal was
conducted by resorting to procedural rules to remedy the expiration of their
appellate jurisdiction along, with subsequent submissions of violations of speedy
trial which barred prosecution. See also Petitioner's Reply Brief dated 5 March
2020, Request for judgment on the Pleadings dated 13 March 2020, Request for
Summary Judgment dated 22 March 2020). (This court in its final decision Granted
the

request

to Supplement his reply Brief,

See Petitioner's 27 MArch 2020

request to file supplemental response by treating his motions as supplements to
his 12 March reply brief). This court acknowledged that petitioner raised the

i

'It

subject-matter jurisdiction argument when deciding against Respondent1 s motiov:
for

summary

dismiss),

dismissal

yet,

(Per

Curiam decision denying

Respondent’s motion to

in its final decision denied review of this claim.

This is

against Supreme Court precedent. See for example, Huddleston v. Nelson Bunker
Hunt Trust Estate,
(circuit

court

1G9 B.R.

authorized

197,

to

1989 U.S. Dist.

LEXIS 15760 at LEXIS 7-8

examine jurisdiction

sua

sponte

even

though

district court did hot consider it; Absence of subject matter jurisdiction may
render judgment void where a court exceeds its jurisdiction.beyond the scope of
its authority; desicion by court lacking subject matter jurisdiction is void ab
initio;

and

"it

is

axiomatic

that

an

allleged

lack

of

subject

matter

jurisdiction may be raised at any time by a party or by the court sua sponte) .
This court acknowledged in Johes v. Valvoline Go • 9 1999 U.S. Dist. LEXIS 7830 at
LEXIS 4 that "Subject-matter jurisdiction can never be x^aived...". This court
has failed'^ b,o review ' Petitioher's ldek'‘of subject matter’jurisdiction claims.
This also goes against this circuit' s-followed'-precedent ih Clisby v. -Jones, 969
F.>2d., 925,'935 (Ufa Gir.),.

-.

.

'

This court also failed to accept Petitioner's ielaisa of trial ineffective
■■■: assistance of counsel. This court has also already acknowledged that trial-IAG
■v

may

be raised on collateral review regardless if the claim was available to be

raised on direct appeal because IAC is excepted from the procedural bar because
requiring

a

criminal defendant

to

bring

claims

of IAG cannot be properly

resolved on appeal because there has been no opportunity to develop the record
of the merits of these allegations. See Alanis at I9i In Petitioner's ease, he
in fact did submit his IAG claims on direct appeal, yet, were not accepted nor
were they reviewed "by the military courts. Additionally, Petitioner could not
discover- that his

appellate counsel provided ineffective assistance by the

f ailure to present the claims properly to the military courts via a showing of
good- cause,
accept

without this showing the ' 3sSL-lita%' 'fc'Ohrt 'lacked jurlsdCetioh^ to

and ' review

Petitioner's

claims. ' The

fac-ts- are

undisputed

by

the

Respondent.
The cases and - argument included below also show, and prove that this court
and

the

district

court

erred

in

falling

to. construe as true petitioner's

presented, facts*:and evidence, Respondent failed to deny, controvert, and come
forward with controverting evidence. This court should be concerned; with the
motivation of Respondent in failing to controvert Petitioner's asserted facts.
The

underlying

claims,

to

include

facts

and

evidence

presented

by

Petitioner, also show a miscarriage of justice. Those facts and evidence are
also undisputed.

a

',)

Because this court has failed to follow its own circuit precedent and
Supreme Court precedent* because, this court failed to accept as true
Petitioner's uncontroverted facts and evidence in accordance with district caselaw* and because this court failed to address Petitioner's lack of subject
matter jurisdiction claims* Petitioner requests Reconsideration En Banc.
ARGUMENTS
la. THIS COURT VATT.ro TO ACCEPT AND REVIEW PETITIONER'S CLAIM OF LACK OF SUBJECT
MATTER JURISDICTION
In the denial order this court states:
"We will not review the plethora of new claims Ruiz has raised for the
first time in the many briefs and motions he has filed before this
court » « • Accordingly, the district court's dismissal of Ruiz's 52241 petition is
AFFIRMED • t> • " (denial at 3).
Petitioner has argued in subsequent motion the lack of subject-matter
jurisdiction by way of the military appellate court's lack of subject matter
jurisdiction by resorting to procedural maneuvers to remedy the jurisdictional
deadline when the first appellate decision was conducted with the illegal
appointment of Judge Soybel in violation of the appointments clause and the
"reconsideration" conducted, after Petitioner had submitted his request for grant
of review to the military Court of Appeals for the Armed Force® (CAAF). In thi3
instant, since the first decision at the Air Force Court of Criminal Appeals
(AFCCA) was illegal and Petitioner's request for a grant, of review divested the
AFCCA of jurisdiction, the "reconsideration." was also conducted illegally
because there is no remand from CAAF directing AFCCA to make any new decision.
"It is not until that appeal of right is complete that we can rest
assured the interests of justice have been served." See United States v. Wright*
160 F. 3d. 905, 908 (2d Cr. 1998).
The interest of justice is not served here where the first, appeal is
illegally conducted and the second decision is conducted without the remand from
the CAAF court. This is especially egregious knowing that a "reconsideration" in
the military courts is not conducted with de novo review unless instructed to do
so by the CAAF, In this case there exists no remand order to AFCCA.
"...Petitioner is not being afforded an appellate review of his findings
end sentence that ocsasports with the requirements of Article 66 and Article 70.
The rights must be recognized, enforeced and protected by the Government, by the
appellate attorneys, by the Court of Criminal Appeals, and by this Court.." See
Diaz v. JAG of the.Navy* 59 MJ 34 at 39 (CAAF 2003),

3

' \ 1

lb.

Petitioner also raised the issue of lack of Subject Matter jurisdiction as

to his trial. Specifically, the speedy trial violation for failure to prosecute
within 120 days of Petitioner's preferral of charges. Petitioner was preferred
charges on 12 October 2010 (ROA.157-158) and his trial and arraignment occurred
on 22 February 2011 (ROA.235). Excluding the. day of preferral, this equals to
130 days. Due to this delay, Petitioner did not have relevant witnesses such as
Mrs. Delfina Rivero who was away on a family emergency to Mexico. Nevertheless ;
Rule of Court Martial (RCM) 707 and Article 10, of the Uniform Code of Military}
Justice (UCMJ) are violated.

• ;1'X

"Sixth Amendment trial protections are triggered upon initiation of as
court-martial by preferral of charges. United States v. Grom, 21 MJ 53 (CMA}

■ -J

V.

V

1985). Rule for Courts Martial 707 provides a bright-line 120 rule for speedy'v;
•v
trial, triggered by either initiation of restraint ot preferral of charges. RCM\|};J^.:
707(a) • • • Violations of UCMJ art. 10 or the Sixth Amendment will preclude iU'v ^ .
prosecution. RCM 707(d)(1)." (emphasis added). "An accused is brought to trial
at arraignment, when he is "called upon to plead." See Doty, 51 MJ at 465.
Dismissal of the charges is the only possible remedy for denying the defendant a-i
speedy trial. See STRUNK v. United States, 412 U.S. 434, 37 LED 2D 56.
As petitioner showed, the military court lacked jurisdiction to try
petitioner after 120 days and was barred from prosecution in accordance with
Article 10, UCMJ, RCM 707, and the Sixth Amendment. Petitioner did not request
extensions and did not agree to exclusion of time for speedy trial purposes.
Petitioner in his original appellate brief addressed the inclusion of this
argument in his "Additional Facts Submitted" section (page 18 of Petitioner's
appeal brief dated 5 August 2019) addressing the inclusion of the 28 July 2019
brief to the appeal brief). Therefore, Petitioner's resubmission on 21 February
2020 of said brief was a mere rehash and insurance that the Respondent replies
to said claims. Nevertheless, the military court lacked subject matter;
jurisdiction oh these charges, this argument is not waivable and is exempt from
procedural bar which this court must also address.
2. PETITIONER PRESENTED FACTS WHICH IF ACCEPTED BT A JURY COULD RESULT IN

\
■V

ACQUITTAL EQUATES TO SUFFICIENT SHOWING TO EXEMPT BEING PROCEDURAL!? DEFAULTED.
Petitioner was tried for a timeframe and location of "within the
continental united states...on or about 1 August 2004 and on or about 301s
September 2004..." (ROA.157). In Petitioner's brief he has argued actual
innocence by way of showing the government's own evidence show Petitioner was
not within the continental United States and was not within this period of 1

t
:!

H

■

charges within the Continental United States, Petitioner was stationed in Hawaii
since June 2004 (R0A.222) and had not been back in the continental United States
until his assignment at Florida in 2008 (ROA.214). Petitioner asserted that at
his military trial the government provided no evidence that Petitioner was
within the continental United States during the preferral period charged. In
fact, Respondent provided no evidence either. At trial and during this habeas
process there has been no documentation presented as to when did Petitioner's
wedding occur. One thing for fact is certain: Petitioner's documents are
official military records signed by his Supervisor and Commanding officer
(ROA.211-228). The facts and documents are undisputed and uncontroverted by
Respondent. Trial counsel failed to present this defense to the jury and
constitutes deficient performance. Additionally, Petitioner showed that he could
not be found guilty for charge 1 and additional charge 1 because the statute
prohibits it. Because Petitioner has shown facts and evidence which went
undisputed by Respondent, specifically that Petitioner was not at the time of
the allegations in the original indictment, the amended indictment, nor the
illegally-broadened timeframe, petitioner should be exempt from being i
procedurally defaulted.
"...[A] showing of facts which are highly probative of an affirmative;
defense which if accepted by a jury would result in the defendant's acquittal
i
’■
"
constitutes a sufficient showing of 'actual innocence' to exempt a • « « claim from;
the bar of procedural default." See Finley v. Johnson.

M
V;- ■

V

The government at trial nor Respondent presented any evidence related to
the timeframe that claimed Petitioner was in the continental United States as Vi
indicted. See United States v. Trevino, 720 F. 2. 395, 1983 TJ.S. App. LEXIS^' H,.. :
15412 at LEXIS *17 (U.S, Ct. App. 5th Cir, 1983) (No evidence cannot be i 'S , V
sufficient evidence, compelling dismissal of count 1, not just remand for new;
trial with better evidence).

\

■

•'

.p*
3. THIS COURT ERRED BY FAILURE TO CONSIDER PETITIONER'S UNGONTROVERTED CLAIMS AS;a ■ ;-W
•
TRUE IN LIGHT OF DISTRICT CASE LAW.

■a. k.

This court in its denial states:
Based on our review of the record and submissions, we
Ruiz demonstrated an excuse for the procedural default of
ineffectiveness of appellate counsel
the purported
record • • « 9 actual innocence, or Martinez v, Ryan, 566 U.S.

are unpersuaded that. ,i;
'Sj
-\v-.
his claims based onv

loss of his trial,!'
1, 16-17 (2012). Wei
are likewise unpersuaded by Ruiz's arguments regarding the forfeiture component I
of his sentence • • * Accordingly, Ruiz has failed to show that the district court

' ''

? • • }

5

$

i

abused its discretion in dismissing his §2241 petition for failure, to exhaust
his military

remedies without

conducting

an

evidentiary hearing,"

(Appeals

decision at 3, internal citations omraitted).
It appears to Petitioner that this court when It. made its decision chose to
weigh

in

favor

of

Respondent

based

on

Petitioner's

conviction,

and

the

Respondent's status. Petitioner provided documentation and asserted facts that
have been undisputed and uncontroverted by Respondent. This court should be
concerned

with

the

motivation

of

Respondent

in

failing

to

controvert

petitioner's asserted facts. Respondent bore the burden of coming forward with
controverting evidence. See Jones v. Scott, 1995 U.S. Anp. LEXIS 41787 at LEXIS
*5

which

addressed

Koch

v.

Puckett.

907

F.

?.d

524,

529-30

(5th

Cir

1990) (emphasis added). In this case Respondent did not controvert nor did he '
come

forward with

evidence.

Instead,

merely made assumptions and tried to

mischaracterize facts.

i

"See Beverly Hills

Fan,

21

F.

3d

1558

at

1563

,

'V,

(explaining that the

defendant must "directly" controvert the plaintiff's allegations, and denials.'!
• %

that are either "inartfully phrased or craftily written" to avoid a direct

'.V .

refutation will not suffice)." See Crystal Semiconductor Corp. v, OPTi Inc.,

i

1997 U.S. Dist. LEXIS 20608, footnote 7.

v'

"Because

of

the

gov't

silence

on this

issue,

the

court must

:

s /v. .

accept

•

. .

■{% i,v

X%T~'

States v. \
XMartinez, 2006 U.S. Dist. LEXIS 97878 (5th List.. 2006), LEXIS *15. footnote 6.

Martinez's

uncontroverted

testimony

of

this

event."

See United

"Collins in both his initial brief and his recent supplement argues that'

X*

' Vr X'

;

„

there was no evidence at trial which would suggest that he caused or aided and\

X,

abetted the interstate transportation of such a check. We take the government's,
silence

on

this

point

as

agreement.

Collin's

conviction on this count is

reversed." See United States v. Adkinson, 158 F. 3d 1147, 1164 (U.S. Ct. App .. *

vxr-

5th Cir., Oct. 26, 1998).
"It is clear from the undisputed facts that Fitzgerald was denied the i,
\
effective assistance of counsel. The judgment denying habeas corpus is therefore |\:V.
■

!\

reversed and the case is remanded with directions to grant Fitzgerald's petition;
■

for habeas corpus." See Horowitz v. Henderson, 1973 IT,S. Dist. LEXIS 12547 at!
LEXIS *3.

!

"...During the federal habeas corpus proceedings, the Director again failed.
I
to present any evidence, either in his answer or in his motion for summary
judgment,

controverting

this

allegation.

Because

Wyatt's

allegation

was

supported by an affidavit from Wyatt, the court found that the allegation had

■

■

been established as a fact by a preponderance of the evidence." See Wyatt v.
Dretke, 2004 U.S. Dist. LEXIS 29289 at LEXIS *5-6 (U.S. Dist. 5th Cir • * 2004).
"Clearly, Ross involved a petitioner who asserted matters about which he
had no personal knowledge, i.e • 9 what a witness's testimony would have shown. In
contrast, Jones's sworn testimony was based on personal knowledge - he requested
that counsel file an appeal, which counsel failed to do. Jones made more than a
conclusory allegation, and the district court did not err in finding that
Respondent bore the burden to come forward with controverting evidence. See Koch
v. Puckett, 907 F. 2d 524, 529-30 (5th Cir. 1990)..." See Jones v. Scott, 1995
U.S. App. LEXIS 41787 at LEXIS *5.
As shown, this court has failed to follow its own case law. Petitioner's^
uncontroverted facts and evidence must have been construed as true and the cases
|v ■-

remanded with instructions to grant petitioner habeas relief. Respondent merely!"
i
provided craftily written denials that avoided direct refutation. Respondent^
s.
claimed petitioner's facts lack merit in one instant and then in another claim,'
that even if the claims had merit, that they were not stronger than the claims j \
V •
raised by appellate counsel (Respondent reply to Petitioner's brief). Do\ \
;
Petitioner's cl ims have merit or not? Petitioner's craftily written denials
. >
V
•,*
0
should not have been entertained. Further, Respondent was to come forward with
controverting evidence. Where in the record is there controverting evidence? s _ V, -W
------------------------ -------------------:X.
Respondent provided none. Therefore, this court committed error by being!
,
.A’,
a.
"unpersuaded" by Petitioner's claims. In this request for Reconsideration En
i
:\
Banc petitioner has once more stated in these individualized sections thej^
undisputed facts.
\
"This court must follow its own precedent unless it is overruled by this X;

;

■

V

court en banc or by a decision of the Supreme Court." See United States v.

%

Lechuga, 229 F. App'x 317 (5th Cir. 2007).
4. PETITIONER DID NOT RECEIVE FULL AND FAIR APPELLATE REVIEW WHICH OVERCOMES
: ■ v* 's
PROCEDURAL DEFAULT.
Petitioner has claimed above in subsection la that the military appeal,X-'
'.l.
lacked subject matter jurisdiction. This is suffient to overcome procedural;

4'v-

default. This issue was not addressed in the court's denial as mentioned above.
Additionally, in the same fashion, Petitioner also argued that his trial

■

■,

• X.
\

■'-

s-

;*y

was not full and fair. This court also failed to address this claim in
accordance with Clisby. Petitioner will again address this issue.
Petitioner did not receive full and fair review of his claims because
Petitioner submitted his affidavit Trial-IAC claim to his appellate attorney on

7

1 June 2014 (ROA. 281-282) . Declarations were sent by his mother (R0A.284), and
wife (R0A.338). On 24 June 2014, before Petitioner's appeal became final, his
appellate:, counsel submitted Petitioner's IAC claim (ROA.288). Petitioner's appeal "reconsideration" decision was made on 14 August 2014 (ROA.286). The
military appellate court in its decision did riot accept Petitioner's submission
and it was not reviewed. The decision states:
II

.On 24 June 2014, well after the deadline for supplemental briefs to be
submitted in this case and'after oral argument,, the.appellant moved for leave tofile yet .another supplemental assignment of errors, alleging he received
••

ineffective assistance of counsel. Given that this. Court has repeatedly allowed!
the- appellant to raise additional issues: out of’ time during this lengthy
appellate processing, of . this matter, and given that the appellant made - no,
attempt to explain why this latest issue could not have been raised earlier, we
denied the .appellant's motion to submit this: latest supplemental assignment of i
errors." (ROA.288 emphasis, added).
r
i

As .mentioned, Petitioner's trial IAC claims were not accepted by the
appellate court. The IAC claim was not reviewed either (how can the court review \
■V' ^
something not accepted for review?). In fact, in the enumerated issues reviewed
\-.
, VY
Trial IAC is not even mentioned (ROA. 287). Respondent does riot deny that all of
\
V.
petitioner's claims were submitted via appellate counsel. Respondent does not
\ .
provide a single piece of document directly sent to the military court by v
petitioner. This is uncontroverted.
'V
The military, appellate court did not accept the trial IAC claim for failuret
to show good cause. Good cause must be shown for any late submission. See AFCCA
rules 19(b) and 19(d) (Crim. App. R. 150.24, 150.25, and 150.19(d)).
■‘
As shown, the appellate court refused to accept petitioner's IAC claim at a
time when the court had not made a final decision of the case. Appellate counsel
failed' to provide good- cause to the military courts (ROA.288). Petitioner's
Appellate counsel in its motion-to the court only provided the, history of the
case and failed to show good cause (ROA.276-278). In fact, Opposing, appellate
counsel (government) submitted their own motion objecting to this submission
(ROA. 342-344):
The government's opposing motion to appellate defense counsel's submission
of Petitioner's IAC claims state that:
"The Air Force Court of-Criminal Appeals issued their final and pertinent
decision in Appellant's case on 14 August 2014, and the reconsideration'period
before the lower court lasted 30 days past that date. So, Appellant had more

$

-*v„

Vs.

than ample opportunity to submit his documents to the Air Force Court, if he
deemed them actually relevant and necessary to his appeal, at a time when the
lower court still had JURISDICTION to review his case and his new allegations."
(ROA.342).
"However, Appellant chose to wait to offer his new declarations to a Court
that LACKS AUTHORITY to receive it." (ROA.343)
and,
"As part of this Court's 7 July 2014 order in
articulated that "appellant's motion does not explain
could not have been raised earlier during the lengthy
this case." As part of his Motion for reconsideration,

this case, this Court
why this latest matter,
appellate processing of:
Appellant still refuses,

to answer this basic question • • • "(ROA.344).
!
Therefore, in accordance with AFCCA rules 19(b) and 19(d) (Crim. App. R.
150.24, .25, and .19(d) the rules are .jurisdictional in order for the court to)
accept and review Petitioner's trial-IAC claims. These rules are jurisdictional..
See United States v. Rodriguez, 67 MJ 110 at 112, 2009 CAAF LEXIS 2. Just as^
Congress authorized CAAE to prescribe its own rules under Article 144, 10 USC, —^
Cv §944, in the same fashion Congress gave the Judge advocate general authority to
' n\ :•.
prescribe rules for the Courts of Criminal Appeals pursuant to Article 66(f), 10
V
USC §866(f)(1994), 32 CFR 150.
\
Therefore, failure to provide effective appellate counsel caused:
petitioner's Trial IAC claim to be denied acceptance and review on direct)
appeal. Appellate counsel should have known that he must show good cause in;,
order to have Petitioner's claims to be accepted for review in the military
appellate courts. Appellate counsel failed to present good cause when he •\ .
submited the request on 24 June 2014. He also failed to show good cause in his
i.
reconsideration request. Appellate counsel continued to be deficient by failing:
to attempt other avenues still available to correct his mistake such as a writ;
-'of habeas corpus (a writ of habeas corpus is not accepted in the military courts ', -,
after finality of appeals). "... [N] either the UCMJ nor the Manual for Courts
' s
Martial provide for collateral review within the military courts. See United:)
States v. Murphy, 50 MJ 4, 5 (CAAE 1998)." See Witham v. United States, 355 F.',
3d. 501, 2004 U.S. App. LEXIS 427 at LEXIS *10 (U.S. Ct. App. 6thLCir.).
Therefore, it is undisputed that Petitioner submit ed his trial IAC claims
on direct appeal at a time when the military appellate court could have accepted
his claims, however, it was appellate counsel who failed to demonstrate cause in
its motion for the military court to have jurisdiction to accept and review the

)

v
v.

i

claim. Seeking relief or redress to the military courts by any avenue available
prior-to

the

finality

of

appeals

is

still

related-to

appellate

counsel's

deficient performance,
4b, At a bare minimum, in light of Johnson v. Zerbst and Massaro v. United
States, the military court failed to accept petitioner's IAC claim.
An

IAC

claim

raises

the

jurisdictional question whether

answered

in

Johnson v, Zerbst : the court's jurisdiction at the beginning of trial may be
lost in the course of the proceedings due to a failure to complete the court via
the unavailability of counsel. Thus, if counsel is ineffective, petitioner was
deprived

the

constitutional

guarantee of providing counsel for an accused,s
!

Second, because the military court nor the UCMJ provide for collateral attack,
thi3 is the only option petitioner has to address his claims.
"If these contentions be true in fact, it necessarily follows that no legal,\
remedy is available to grant relief for a violation of constitutional rights,,

!

*\

unless courts protect petitioner's rights by habeas corpus." See Johnson v,
v-

Zerbst at 467.
Appellate

<

IAC

caused

an

Improper

and

incomplete

appellate

review.

An \

.accused has a fundamental right to appellate review. This right is violated.
"A first appeal as of right therefore is not adjudicated in accord with du
eprocess of law if the appellant does not have the effective assistance of an
attorney. This result is hardly novel." See Evitts v. Lucey at 396.
4c, THE MILITARY COURT MANIFESTLY REFUSED TO CONSIDER PETITIONER'S CLAIMS
Because petitioner's claims were manifestly refused (even though denied for
failure to show good cause), in light of Burns v, Wilson, at 142-143, this court
and the District Court was empowered to review them da novo. Calley v. Callaway
also states that where it is asserted that "...the court-martial acted without
jurisdiction,

or

that

substantial

Constitutional

rights

have

been

violated...Consideration of such issues will not preclude judicial review for
the

military

must

accord

to

its

personnel

the

protections

of

basic

constitutional rights essential to a fair trial and the guarantee of due process
of law..." See Calley v. Ca&llaway at LEXIS *46 (emphasis added).
Effective assistance of counsel is a basic consitutional right. Therefore,
in light of Burns v. Wilson and Calley v. Callaway, this court is not precluded
judicial review and is empowered to review them de novo. Especially because the
military courts do not provide fo collateral review and because the All-Writs
Act does not allow the military courts to act in the face of another, specific
statute.

ro

V
':V V'
N
, \

I

Also, in this case the military court manifestly refused to consider
petitioner's claims on direct appeal due to appellate counsel deficiency. As
confirmed by Respondent there were numerous avenues available to have
Petitioner's claims reviewed. Appellate counsel failed to do so. Petitioner
submits with this motion a copy of the letter and envelope sent to his Appellate,
attorney requesting that he seek all avenues possible in pursuit of Petitioner's'
case along with an affidavit supporting that these are true and correct*
i
documents received from his appellate record.

’

"An attorney's errors during appeal on direct review may provide cause to
A
excuse^ a procedural default for if the attorney appointed by the state is \/; \
ineffective, the prisoner has been denied fair process and the opportunity to
Trit.V"'
comply with the state's procedures and obtain adjudication on the merits of his
claims." See Martinez v. Ryan at 278.
"[Nevertheless, when a state provides a right to appeal, it must meet the
requirements of due process and equal protection." See Rheuark v. Shaw, 628 F,
2d 297, 302 (5th Cir. 1980)(citing Supreme Court decisions Douglas v.
California, 372 U.S. 353, 83 S. Ct. 814, 9 L. Ed. 811 (1963) and Griffin v.
Illinois, 351 U.S. 12, 76 S. Ct. 585, 100 L. Ed. 891 (1956) in support of this
proposition.).
"...[A] party whose counsel is unable to provide effective representation
is in no better position than one who has no counsel at all." See Evitts v.
Lucey at 469 U.S. 396.
"If a State has created appellate courts as "an integral part of
the...system for finally adjudicating the guilt or innocence of a defendant,"
Griffin; v. Illinois, 351 U.S. at 18, the procedures used in deciding appeals
must comport with the demands of the Due Process and Equal Protection Clauses of
the Constitution, id. (quoting Evitts, 469 U.S. at 393). The court noted that
the Supreme Court had held that, to ensure a defendant's right to meaningful
y.

.

appeal,; the state must afford counsel to an indigent defendant, the counsel must
f:
be effective, and an indigent defendant must be provided with a free transcript
of the jCrial proceedings, id. (citing Evitts, 469 U.S. at 396, Douglas, 372 U.S. v.
at 358.4 and Griffin, 351 U.S. at 19-20). The court concluded that "an appeal v'j
that /b inordinately delayed is as much of a 'meaningless ritual' as an appeal%• .,
.r ■.'

that /<Is adjudicated without the benefit of effective counsel or a transcript of
the/trial court proceedings." id. (internal citations ommitted)." See Reed v.
//

Quar/terman, 504 F. 3d 465 at 486, U.S. Ct. App. 5th Cir., 9 Oct. 2007. (emphasis
/

"1i
A ;
s\

■V

•
•5:

■\

A

li

N:\

•f-

I.

Not only was the appeal adjudicated without the benefit of effective
counsel, Petitioner was precluded adequate review of his record of trial by the
loss of his record of trial at the hands of military prison officials.
Inadequate counsel and inadequate acess to his trial and appellate documents
causes this "meaningless ritual." Even though this court may have been
"unpersuaded," the fact remains that Respondent did not controvert or dispute
nor did he provide evidence to controvert causing this court to consider
/’

petitioners facts as true.
5. THE PRIOR RULES AND DECISIONS IN BURNS AND CALLEY V. CALLAWAY HAVE BEEN
ALTERED BY NEWER SUPREME COURT DECISIONS
Burns v. Wilson was decided in 1953. Calley v. Callaway was decided in
1975. After these cases were decided, Evitts v. Lucey was decided among other
cases cited within this request. These cases alter the prior decisions of Burns
and Calley v. Callaway. Trial IAC claims are not procedurally defaulted; subject
matter jurisdiction can be raised at any time and can never be waived;
inefectiveness of trial and appellate counsel are basic constitutional rights
and this court is under empowered and under an obligation to review such claims
regardless of any procedural default argument Respondent raised.
Petitioner has provided two questions which Calley v. Callaway and Burns
did not address. Specifically, whether an IAC claim can be raised at any time
and whether appellate-IAC is sufficient to overcome procedural default. This
court also failed to acknowledge that the military court manifestly refused to
accept Petitioner’s IAC claims empowering this court to conduct a de novo
review. This court failed to follow this precedent in Burns.
Petitioner has shown from the record that appellate counsel failed to
provide good cause, causing his claims to not be accepted in the military
appellate courts. No full and fair review exists by a failure to review these
claims and a failure to provide Petitioner effective appellate counsel as
guaranteed under the Sixth Amendment. This court should not and cannot presume
or be "unpersuaded" of the facts where Respondent completely failed to provide

\

controverted evidence whatsoever.
\ 6. THIS COURT FAILED TO CONDUCT THE STRICKLAND TEST IN REGARDS TO THE APPELLATE
IAC CLAIM.
This court concluded to be unpersuaded by Petitioner's Appellate IAC claim

. A

7. THIS COURT FAILED TO CONDUCT STRICTLAND TEST AS TO TRIAL IAC CLAIMS. THIS

'V.

V

COURT FAILED TO ADDRESS THE UNDERLYING CLAIMS PETITIONER SUBMITTED.
■

V.

\•
)V-.

,1

19-

\

To make clear, Petitioner addressed his Trial IAC claim in his original
habeas petition. Petitioner in that brief in support of the Petition addressed
J'
the IAC claims submitted to his appellate attorney (ROA.281-282). Petitioner
stated:
"Petitioner's grostefon brief complained of trial defense's ineffective
assistance of counsel claim • • • Petitioner submits this Grostefon submission as an
attachment for review and relief • • • " (ROA.30). Therefoer, Petitioner argued the
inefectiveness of counsel in his habeas brief by pointing to the original-denied
claims petitioner made at the military court.
This court failed to conduct the Strickland test as to whether appellate
counsel provided inefective assistance and whether Petitioner’s underlying
claims have merit.
This court only concerned itself with the procedural default argument
regarding ineffectiveness of appellate counsel; the purported loss of the trial
record; actual innocence; and the forfeiture component of the sentence. However,
as mentioned previously above, all of petitioner's uncontroverted facts must be
construed as true, especially in this case where Petitioner presented evidence
and Respondent provided none. Therefore this Court is incorrect in its final
decision for a failure to conduct the Strickland test and failure to construe
all of petitioner’s facts as true.
Although this court refused to consider petitioner's "plethora of new
claims," this court still failed to consider the original issues submitted to
include unwaivable Issues that can be raised at any time. This goes against
Supreme Court and circuit court precedent.
8. THIS COURT FAILED TO CONSTRUE PETITIONER’S CLAIMS TO RAISE ANY AND ALL
ARGUMENTS AVAILABLE
When Petitioner addressed his claim that appellate counsel failed to submit .
his claims timely to the military courts regarding his IAC claims (ROA.281-282),
this court did not question why would appellate counsel fail to take any step to
investigate the trlal-IAC claim. This is also deficient performance during
direct appeals. Appellate counsel also failed to advise Petitioner as to the
procedure and time limits involved as to his appellate rights. This is also
deficient performance. Surely this error comes from a failure to conduct the
Strickland test.
See Evitts v. Lucey, at 396 (Constitution guarantees a defendant an
effective appellate counsel, just as it guarantees a defendant an effective
trial counsel).

11

By a failure to conduct the Strickland test this court failed to adequately
determine whether petitioner's attorney on direct appeal was ineffective or
whether Petitioner's claim of ineffective assistance of trial counsel is
substantial. And the court did not address the question of prejudice.
9. SUMMARY OF ARGUMENT
In sum, Petitioner's conviction was conducted by a military court-martial.
This circuit, in determining whether to grant habeas corpus review and relief
utilizes Calley v. Callaway, which follows Supreme Court case law of Bums v.
Wilson. However, this case law is altered by way of Massaro v. United States,
Martinez v. Ryan, Evitts v. Lucey, and Johnson v. Zerbst to name a few. ;
Petitioner met the requirements when he showed cause and prejudice, that the'’
military courts manifestly refused to consider his claims, and did not conduct a
full and fair review, that the appellate review was legally inadequeate, and
that he was deprived substantial and fundamental constitutional rights and that
there is a miscarriage of justice. This court failed to assert as true the factsj
V .
presented by Petitioner and did not follow Supreme Court and its own Circuit j
A
case-law. Because there are newer Supreme Court cases which alter the 1953 Burns
decision and the 1975 Calley v. Callaway decisions, and because the facts are«
\ '•
uncontroverted, this court should reconsider whether its decision still stands. \
Failure to reconsider and apply Supreme Court precedent would affirm a decision
u
contrary to the Supreme Court decisions. It would be anarchy. See Hutto v.
Davis, 454 U.S. 370 at 375, 70 LED 2D 556 (1982).
The military appellate court and this court also erred by disregarding.
Massaro v. United States and Johnson v. Zerbst. A claim of LAC may be raised at
any time because compliance with this Constitutional mandate is an essential . \\ v
—--------JURISDICTIONAL prerequisite to a Federal Court's authority to deprive an accused 1 ,,V
of his life or liberty. Further, IAC is excepted from a procedural bar because 'V 'U!: \
requiring a criminal defendant to bring claims of ineffective assistance of\ A'V
\ •

counsel cannot be properly resolved on appeal because there has been no ^ \
opportunity to develop the record of the merits of these allegations. See United
YA siStates v. Alanis at 19 (Addressing Massaro v. United States).
Petitioner has asserted substantial constitutional right violations. As
A
such, they are not precluded from being reviewed by this court. In fact and law,
they may be raised on collateral review in a civil court because tje militarys,
lack the authority to review habeas corpus writs.
Petitioner provided evidence of 'actual innocence' which went undisputed by
respondent (Petitioner was not within the continental United States at the time

iH

:

' Jr

of the offenses). This sufficient showing also exempts his claims from being
procedurally defaulted. See Finley v. Johnson, 243 F. 3d 215 (5th Cir. 2001).
Therefore, this court erred by failing to construe Petitioner’s facts as true
and failing to follow Supreme Court and Circuit court precedent.
Further, even if habeas corpus review of convictions by court-martial is
limited to questions of jurisdiction, an IAC claim raised by a military
convicted may be raised at any time because it relates to jurisdiction. Failure
to provide effective counsel causes a "failure to complete the court" in
violation of the Sixth Amendment. "If this requirement is not complied with, the
court no longer has jurisdiction to proceed." See Johnson v. Zerbst at 467'
(emphasis added).
■■■■

Trial and appellate counsel also failed to advise Petitioner of the,
procedure and time limits involved. This is also uncontroverted.
Additionally, the original appellate decision was illegal due to the

'■i.

appontment of Judge Soybel. The second review "reconsideration" was also;
conducted illegally because there was no remand“ from CAAF to do so. This isiv

\.
•

especially egregious because it essentially means; that Petitioner has not
received a legal appellate review:
■!.

The appellant sought to raise an additional issue after the remand. \
However, we can only take action that conforms to the limitations and conditions
\' ft
n
prescribed by the remand from our superior court. United States v., Riley, 55 MJ
185, 188 (CAAF 2001)." See United States v. LaBella, 2014 CCA LEXIS 385,
footnote 3 (emphasis added).
Petitioner still asks this court, where is the remand from CAAF to AFCCA to
conduct the second "reconsideration" review? There is none. Once Petitioner
requested the grant of review, there has been no legal appellate review in
violations of Articles 66 and 70, UCMJ'. This is also due to appellate counsel
deficiency which gives this court the empowerment and obligation to review
Petitioner’s case in its fullest and grant the habeas writ.
"Counsel is constitutionally required to fully inform a defendant as to
appellate right." Id. (citations omitted). This duty encompassess more than mere
notice that an appeal is available or advise that an appeal may be futile. See
id. (citations omitted). The United States Constitution demands "that the client
be advised not only of his right to appeal, but also of the procedure and time
limits involved and of his right to appointed counsel on appeal," Id. (citations
omitted), (emphasis added). See United States v. Ferguson, 2008 U.S. Dist. LEXIS
52576 at LEXIS *4.

15

;n

' ' ' 1A '

Petitioner (and Respondent) provided Petitioner’s affidavits regarding the
ineffectiness of counsel (ROA.281-282, 284, 375). By Respondent doing so, he
also admits them as true. In accordance with circuit caselaw mentioned above
this court erred by net construing these facts as true. They are part of
petitener's claims as addressed in petitioner's brief in support of the petition
(ROA.30). Petitioner also signed all his motions and briefs stating they are
true under penalty of perjury.
This court also failed to acknowledge Petitioner's affirmative defense
argument which caused the jury t© doubt petitioner's affirmative defense rather
than ensuring that the jury is on notice that it is the government's burden to
disprove the existence of the affirmative defense.

(

This court also errecT in acknowledging that the record of trial show that
the trial defense attorney had witnesses that could raise doubt about the
timeframe of events by at least 4 years difference (ROA.374). This also shows! • \
trial counsel ineffectiveness and or a sufficient showing of facts which if
accepted by a jury could have resulted in an acquittal that equates to 'actual;
innocence' (coupled with ROA. 222 that depict petitioner was not in the:
V
continental United States)(see also that the agents the Interrogated petitioner.
admitted that it was very possible that petitioner was more likely than the
^
average person to be in a fragile state of mind that could acquiesce even though'
he did not commit any action (ROA.173-174,line 20), was susceptble to acquiesce;, K'Vs . ■
to things he did not do is a sufficient showing to exempt petitioner from being!
VAH .
procedurally defaulted.
.

This court also failed to seek all possible arguments on Petitioner's1 ^
behalf. Petitioner marked for review footnote 30 (ROA.390). This instruction is »•
given based on the 2012 MCM as shown. However, it is an ex post fact® violation
to alter the legal rules of evidence to the accused's disadvantage. Thisf
footnote contradicts the rules and instructions in 2004.,
“j

Petitioner also argued the fact that Petitioner could not be guilty of

e

Charge 1 and Additional charge 1 because the statute does not allow it. See j
United States v. Morris, 40 MJ 792, 1994 CMR LEXIS 267. (See petitioner's 28\
H.
July 2019 brief (remailed 21 February 2021), addressed in Petitioner's appellate!; V '
>:
brief dated 5 August 2019. This could also be used to excuse the procedural bar.
Any charge that should be dismissed is prejudicial as it still leaves stigma andi N1
\
if it would have been dismissed at trial, the jury could have imposed a lesser
sentence . This charge left the impression to the jury that petitioner knew or
had knowledge of facts sufficient to convict of charge 1 and additional charge : '‘Y
,V

s *

1. However, it was never -

proved that petitioner had knowledge (ROA. 175, line

18-19).
Also, although this court is not "persuaded" as to Petitioner's argument as
to the forfeiture component of his sentence, Petitioner provided caselaw which
show that the military convening authority and the military AFCCA court had a
plenary-unfettered power to approve so much of the sentence as they believe is
sufficient to do justice. This plenary power gave them the power to approve any
such sentence even b&low any mandatory sentence such as in Murder offenses that
carry

a mandatory minimum sentence

related

to

adjudged

Petitioner's

argument:

of life.
United

!-

Petitioner provided two cases

States

v.

Emerick

sentence was composed similarly to petitioner:

(R0A.345)(his

Punitive discharge,

, ^

confinement over 6 months (15 months), and forfeiture ©f $500 per month for 15:i
*)

i

<

<( A

months.1 The convening authority did not approve the adjudged forfeiture, (see
ROA.347).

Because

(likely1;, due
■

to'

.

Emerick was improperly precluded from receiving this pay
Article

58b),

however,

the

unapproved

forfeitures

i

which
•

! ]

Respondent calls "mandatory" are called avoided forfeitures via the convening.
authority^'s

action

that

did net

include

forfeitures.

Against

i

Emerick1 “received 15 months of forfeitures converted into confinement credit.
// "

'

A

Article 58b, ;
!

\

This was not an act of clemency (ROA.350).
I
/\
As to Petitioner's forfeiture component argument, Petitioner also pointed
i

;

:
—

with a i"Notice of Judicial Authority" to United States v. Kelly (ROA.417) which5
(•

^dressed that his;, mandatory punishment of a dishonorable discharge could be~\_;
■X

^disapproved by the convening authsrity or the court ©f criminal appeals. It
states:

V.

;

"Uhiform Code Mil. Justice (UCMJ) art. 56, 10 USCS §56(b) and Unf. Cede Ml.
•1

■ \ 7T V

:

r

\

l ^

Justce -art. 66(c) 10 USCS § 66(c) initially appear to be in tension. However,
!’

the two5 provisions may be harmonized by construing art. 56(b) UCMJ as a lutyton/.XX'?5;.
the court-mar tal not' on any of the reviewing authorities... Congress has vested
•1

|

!■

V

the Count's ©f Criminal Appeals with the ©ft-cited awesome plenary, de novo power

V-.\ •l1 )

\\U
h.\

of review that effectively gives them carte blanche t© d© justice. The Courts of
■

j’

.

Criminal Appeals

and

their predecessors have

enjoyed

this

s

discretion aver

sentence'“appropriateness since the inception of the Uniform Code of Military

\
"
\-

X;h. 1

Justice, '■[Chis p®wer has n® direct parallel in the federal civilian sector, and

no ether federal appellate court, including ours, in the American justice system \
‘■t
it- '
possesses i tihe same power; refer ta Unif. Code Mil. Justice art. 67(c), UCMJ, 10 \ 1

I

Vv.'V

USCS §867(by." See United States v. Kelly at 408.

'V

.>
■?

■iV

v
\

17

\ •

k

$

V

•s
Therefore,
decision

if

this

in fact was

court

legal,

should
then

conclude

it must

that

the

military appellate

alse hener that the "automatic

^Forfeitures" are disapproved by way ef the convening authority action, and the
military appeal decision where the sentence adjudged at trial is disapproved
nullifying the effect of article 58b.
At

a

bare

minimum,

this

court

erred

by

failing

to

fully

address

Petitioner's brief in support of the petition (ROA.6-31) along with Petitioner's
appellate arguments in the original appellate brief dated 5 August 2019, that
referred to his 28 July 2019 submission (that was remailed 21 February 2020)
along

with

the

Respondent's
subsequent

lack

Motion

ef
for

clarification

subject
Summary
via

matter

jurisdiction

Affirmance

Petitioner's

dated

6

Submission

claim

(see

October
of

reply

2019)(and

Request

to

to,
the-

Review!;

Military Appeal Review's Subject Matter Jurisdiction dated 23 October 2019), and'
^his

speedy

trial

violation

argument

that

barred

prosecution

(See

Motion
■Vi

(■

Requesting Respondent Address

; j

the Speedy Trial Violation dated 21 February

V

2020). This court failed to construe as true Petitioner's affidavits which were,,
alse

S

submitted by Respondent as mentioned above and failed to conduct the;

Strickland

test

for

the

Appellate

IAC

and

consider

whether

petitioner's

underlying claims (addressed via his original brief in support of the petition’r> \

V

that included referring to his affidavits) to determine if they are substantial..,
This Court failed to follow Supreme Court and Circuit Court precedent. This

V
IV'"

court must follow circuit precedent and can only deviate from it En Banc.
.:

RELIEF REQUESTED
V

V:X

Because the facts surrounding trial counsel's deficient performance and

appellate
evidence,

counsel's

deficiencies

went

undisputed

and

uncontroverted

X

with,

' v \\.
t

to include the military appellate court's lack of subject matter;

\

jurisdiction, 'actual innocence' claim, lack of evidence to support elements of
the crime,

affirmative defense shifted burden of proof by raising doubt of.

|

petitioner's defense against statute, speedy trial violation, and subject matter.
jurisdiction,

to

include

other

claims

in original brief

submitted

(which' V

included adressing his 28 July 2019 brief), Petitioner's assertions must be
\

accepted as true and the case remanded with instructions to GRANT Petitioner's ;
habeas writ. Petitioner does not request a retrial.

Y v
: V 1
"The crimes with which Milligan was charged were of the gravest character,.
l

and the petition and exhibits in the record, which must here be taken as true,
admit his guilt.

But whatever his desert of punishment may be, it is more)

f!

important t® the country and to every citizen that he should not be punished;
j"

A

\4

■f
■V

under an illegal sentence, sanctioned by this court of last resort, than that he
should be punished at all. The laws which protect the liberties of the whole
people must not be violated or set aside in order to inflict, even upon the
guilty, unauthorized though merited justice." Ex Parte Milligan, 18 LED 281, 4
Wall 2 at 132, U.S. S. Ct. 3 April, 1866.
"The district court must accept the facts alleged in the complaint as true,
to the extent they are uncontroverted by the defendant's affidavits." See Madara
v. Hall, 916 F. 2d 1510, 1514 (11th Cir. 1990).
CERTIFICATE OF MAILING
I hereby declare under penalty of perjury that I mailed this motion to the
clerk of the court on this

of April, 2021 by dropping in the inmate dropbox ■X

!■;

first class mail postage prepaid. I declare that the statements in the above
motion are true to the best of my knowledge. Signed under penalty of perjury. 28/ 1 ; •
USC §17461 -1
cltC>SiOr\ On Ilf
.

¥

i

Rafael Verdej

iz #17670-0

t

;

..w w

& '

.

■K

•

■w ...

i- a)
.1 \
i

>;
r

\

I*!

,V«.'

'

APPENDIX
P

No. 19”40277

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

RAFAEL VERDEJO RUIZ
Petitioner
Vo

DEREK EDGE, Warden, Federal Correctional Institution, Texarkana,
Respondent o
•i

PETITIONER'S MOTION REQUESTING REVIEW OF MILITARY APPEAL
REVIEW'S SUBJECT HATTER JURISDICTION

Petitioner respectfully requests this Honorable Court consider and
review whether the military appellate court had subject matter jurisdic­
tion, As acknowledged by Fifth Circuit precedent and Supreme Court
precedent, subject matter jurisdiction can never ba waived and subject
matter jurisdiction may be raised at any time by a party or by the court,
sua sponte.
Petitioner has addressed from the initiation of his Habeas Corpus
writ that he has not received full and fair appellate review. Respondent
has recently addressed the military court's jurisdiction, which, for
clarity's sake, petitioner requests review.
I.
In petitioner's habeas writ, petitioner addressed that he did not
receive full and fair appellate review (ROA.320-324, 328-329, 412, 474),
Respondent argued that petitioner received full and fair review
(ROA.398).

Similarly, respondent stated that the military court summarily
disposed of the issues. Respondent addressed that the military court's
jurisdiction ceased (Respondent Motion for Summary Affirmance, etc.
dated 1 October, 2019) to which petitioner has timely objected
(Respondent brief received 4 October, filed 10 October, 2019),
In petitioner's appeal brief, filed 9 August, 2019, petitioner
addressed the military court's lack of subject matter jurisdiction.
Similarly, respondent in his request for summary affirmance addressed
that the military court's jurisdiction ceased. In petitioner's oppositi­
on brief, filed 10 October, 2019, petitioner has addressed and clarified
with 'evidence from the record that petitioner's 2013 appea1 was illegal o

a®4-:

fete®

jL;ite®,.-fcfe®, 2@&3 d.e®isi®®9

&@©ked subject matter jurisdiction.
Respondent has outlined the history of the case (ROA.253-256).
However, this outline misconstrues wh® in truth requested reconsideration
md when ..did it occur. Petition®?..presented undisputed evidence fehet
the &over®®©®t h©d requestedp not petitionerp to treat petitioner
lotion t© vacate (tOA.l&lS) into reconsideration (10A.393) in order to
return the case to AFCCA (ROA.393). The government's request ©starred
well after petitioner's request for grant of review (BOA.136).
Because no vacate and remand was ever ordered by the CAAF to the
AFCCA to conduct the reconsideration after the illegal 2013 decision,
and after petitioner's request for grant of review, the 2014 decision
lacked subject matter jurisdiction just like the 2013 decision.
II.
TIMELINES AND EVIDENCE IN SUPPORT OF THE PETITION
ROA.355 - On May 2013m, Air Force Court released document indicating
Mr. Soybel appointed in violation of Appointments Clause.
ROA.391 - On 18s July 2013, Special panel assigned with Mr. Soybel.
ROA.263 ~ On 18 July 2013, AFCCA affirms case with Mr. Soybel in panel.

ROA.393 - On 23 August 2013, petitioner counsel file motion to vacate
AFCCA ruling to CAAF due to wrongful appointment of Mr. Soybel.
R0A.136 - On 6 September 2013, petitioner files'petition for grant of
review to the CAAF. (AFFCA loses jurisdiction)
ROA.393 ~ On 28 October 2013, the government requests to CAAF that
petitioner’s motion to vacate be treated as reconsideration.
R0A.144 - On 12 November 2013, CAAF grants the government's motion to
treat petitioner's motion to vacate (see text of ROA.393) as
reconsideration.
III.
CASELAW IN SUPPORT OF THE PETITION
The military courts in United States v. Rodrigues, 67 MJ 110 (CAAF
2009) acknowledge Supreme Court precedent in Bov/1 es v. Russell, 551 US
205, 127 S. Ct. 2360, 168 L. Ed. 2d 96 (2007) by stating:
"As.„.long held, when an appeal has not been prosecuted in the
manner directed, within the time limited by the acts of Congress,
it must be dismissed for want of jurisdiction." Bowles at f04
(emphasis added).
United States v. Riley, 58 MJ 303 (CAAF 2003) makes clear that a
petition for grant of review to the CAAF removes jurisdiction from the
AFCCA, gives jurisdiction to the CAAF, and jurisdiction can only be
returned by a remand. It states:
"The timely filing of a petition for review vests jurisdiction in
this court and divests the Court of Criminal Appeals of
jurisdiction to reconsider its decision. United States v. Jaskson,
2 CMA 179, 181, 7CMR 55, 57 (1953). This court mayf however,
return jurisdiction"to the lower court"by a remand, id. at 182,
7 CMR at 58. ..'' (emphasis added).
Riley is also quoted in United States v„ Humphries, 2011 CCA LEXIS
312 (AFCCA 2011) as follows:
"...On remand from CAAF, this court can only take action that
conforms to the limitations and conditions prescribed by the
remand."
The Fifth Circuit has also made clear that subject matter jurisdic­
tion can never be waived and subject matter jurisdiction may be raised
at any time.

The Fifth Circuit also stated in Huddleston v. Nelson Bunker Hunt
Trust Estate, 109 B.R. 197, 1989 US Dist. LEXIS 15760 at LEXIS 7-8:
"It is axiomatis that an alleged lack of subject matter
jurisdiction may be raised at any time by a party or by
the court sua sponte. In re Ryther, 799 F. 2d 1412, 1414
(9th cir. 1986); In re Crystal Sands Properties, 84 Bankr.
665, 666-667 (9th cir. BAP 1988). An appellate court is
under a duty, moreover, to ensure that the lower court has
not exceeded its jurisdiction. Sumner v. Mata, 449 US 539,
547 n.2, 66 L. Ed. 2d 722, 101 £. Ct. 764 (1981)(citing
Louisville & Nashville R.R. Co. v. Motley, 211 US 149,'152,
53 L.Ed. 126, 29 S. Ct. 42 (1908)); see United States v.
Alabama, 791 F. 2d .1450, 1454 (11th Cir. 1986), cert, denied,
479 US 1085, 94 L. Ed. 2d 144, 107 S. Ct. 1287 (1987)(circuit
court authorized to examine jurisdiction sua sponte even
thopgh district court did not consider it). Absence of
subject matter jurisdiction may render a judgment void where
a court exceeds its jurisdiction beyond the scope of its
authority. Jones v. Giles, 741 F. 2d 245, 248 (9th Cir. 1984);
see Alabama Hosp. Ass'n v. %%$&$%£$%%$$$$%£ United States,
228 Ct. Cl. 176, 656 F. 2d 606, 610 (1981), cert, denied,
456 US 943, 72 L. Ed. 465, 102 S. Ct. 2006 (1982)(decision
by court lacking subject matter jurisdiction is void ab
initio); Crystal. Sands, 84 Bankr. at 667 (judgment entered
without jurisdiction is void)."
The Fifth Circuit also stated in Jones v. Valvoline Co., 1999 US
Dist. LEXIS 7830 at LEXIS 4:
"Subject-matter jurisdiction can never be waived. The court
has the authority, and even more the obligation, to
inquire into the lack of subject-matter jurisdiction sua .
sponte. Jurisdiction must be established as a thresahold
matter. Mt. Healthy City Sch. Dist. Bd. of Educ. v. Doyle,
429 US 274, 278, 97 S. Ct. 568, 571, 50 L. Ed. 2d 471 (1977)
(citations omitted)."
The military courts also made clear of their lack of subject
matter jurisdiction in Label la v. United States, 2016 CCA LEXIS 394
(2016) which statesV
"The CAAF dismissed the -petition after concluding we lacked
jurisdiction to grant the petition to. file an out of time
request for reconsideration and that, consequently our
superior court also lacked jurisdiction. United States v.
Label la, 75 MJ 52 (CAAF 2015)." (emphasis added)

1

IV.
RELIEF REQUESTED
Petitioner respectfully requests the writ be granted in petitioner's
favor. Immediate release from confinement, To order, utilizing any
motion necessary

that petitioner's discharge be revoked/voided

(ROA.309) due to the appeal not prosecuted in the manner directed.
Petitioner had a statutory right to speedy appellate review.
Petitioner respectfully requests that the reversal of Judgment
order or whichever order this honorable court executes, to state that:
Petitioner is restored all rights and priviledges previously
taken from him to include those taken via GCMO #13 and GCMO #68
confinement credit in the form of 105 months of E-8 pay and
allowances due to him to include family separation pay, hazardous
duty pay

and BAH at rate "with dependents',' to issue any and

all backpay due to him, restore him to former E-6 rank effective.
25 February 2011 and increase his rank in 2-year increments
(2013, 2015, 2017) up to E-9. All confinement credit and backpay
due to him within 30 days. To count all confined time as active
duty for any and all purposes to include retirement."
(This will ensure petiotioner is truly restored and prevent the
coorections made in other cases such as United States v. Landon
2006 CCA LEXIS 21 and United States v. Hammond

61 MJ 676, 680

wnere administrative and legal conflicts occuied. GCM0#13 nnd
GCMO #68 mentioned above are ROA.258-261 and R0A.309).
Alternatively, petitioner requests reversal of the judgment in
the 2013 and 014 decisions and a new and full Article 66 review in
which petitioner can raise any and all issues he 'wishes to present
anew . To order and anpellue decision be made within 90 days or

1

immediate release from confinement with all charges dismissed. Petitioner
doers not waive appellate representation and requests appointment of
military counsel within 14 days

however, petitioner will submit his

grostefon issues directly to the military court instead of via counsel
this time upon receipt of the AFCCA address from this court (LEXIS
only has CAAF address).
Alternatively to the requests above, petitioner respectfully
requests whatever relief this Honorable Court can provide except a
retrial . Petitioner still requests immediate release pending resolution
of this writ, or immediate release pending resolution of a military
appeal if deemed aecesary.
CERTIFICATE OF COMPLIANCE
tHIS motion complies with the type-volume limitation of Fed. R.
App. P. 32. It contains S pages including the cover page. This motion
was made using a typewrit ter.

Rafael

Ruiz, #1/767 OY 035

CERTIFICATE OF SERVICE
I certify that he has mailed a true and correct copy of the above
said claims first-class mail postage prepaid to the Court of Appeals for
the Fifth Circuit by dropping in the inmate dropbox. .28 USC §1746.
Signed and mailed this 7^

J

day of October 2019.

<T
Rafael Verdejo lAmJ)

#176704035

CERTIFICATE OF CONFERENCE
I have not been able to discuss this motion with Respondent because
I am incarcerated. However, for this purpose or any future purpose,
respondent is informed that he can schedule a telephone or video con-

r

f

1

r

ference byu calling the institution ahere petitioner is confined and
coordinating with petitioner's counselor, case manager
manager similarly as an attorney call.

5

or unit

1

/

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
RAFAEL VERDEJO RUIZ,
Petitioner
v.
DEREK EDGE, WARDEN,
Respondent.

§
§
§

Case No.

19-40277

§

MOTION REQUESTING RESPONDENT ADDRESS THE SPEEDY TRIAL VIOLATION
There is a material variance between the indicted timeframe that was
different to the jury's findings. This variance was due to trial judge's
instructions. However, the government cannot deny either that no evidence was
presented depicting that petitioner was in fact withing the continental united
states. Instead the evidence presented by the government during sentencing
depicts that petitioner was stationed in HAwaii and abroad since June 2004. ROA
222, 216-221.
Petitioner was never required to plead anew to the charges. "When a
specification is amended after the accused has entered a plea to it, the accused
should be asked to plead anew to the amended specification.” See RCM 906,
discussion, RCM 906(b)(4).
In fact, on 12 October 2010, charger I, II, and III were preferred (ROA
157). However, petitioner was not arraigned until 22 February 2011. 132 days.
This was a speedy trial violation. See United States v. Wilder, 75 MJ 135 at 138
(Oct 6, 2015) which states:
"If an appellant id arraigned within 120 days after the earlier of, inter
alia, the preferral of, or restraint based upon, a particular charge, then RCM
707 is not violated. See e.g. Leahi, 73 MJ at 367" (emphasis added).
As to arraignment, the military courts have clarified when this occurs: "An
accused is brought to trial at arraignment, when he is "called upon to plead."
See Doty, 51 MJ at 465; RCM 707(b)(1).
"Because the Government violated appellant's rights by bringing him to
trial more than 120 days after the original preferral of charges against him,
appellant is entitled to a dismissal of charges. See RCM 707(d). Considering the
age of this case, the proper remedy would be to dismiss the charges with
prejudice. See United States v. Dooley, 61 MJ 258, 264 (CAAF 2005)."
For this reason, charges I, II, and III must be dismissed. "As the
Government failed to comply with the appellant's right to a speedy trial, the

1

remedy os dismissal of the affected charge. RCM 707(d)” See United States v.
Bray, 52 MJ 659 at 662. "When charges are separately preferred, separate speedy
trial clocks are run on each charge.” See United States v. Robinson, 28 MJ 481
at 482.
The government illegally utilized the addition of "additional charge I” to
extend the 120-day clock which as shown above, causes two separate speedy trial
clocks. Petitioner did not request extensions and did not agree to exclusion of
time for speedy purposes.
"Sixth Amendment Speedy trial protections are triggered upon initiation of
a court-martial by preferral of charges. United States v. Grom, 21 MJ 53 (CMA
1985). Rule fo COurt-Martial 707 provides a bright-line 120 day rule forjpeedy
trial, triggered by either initiation of restraint or preferral of charges. RCM
707(a) • • • Violations of UCMJ art. 10 or the Sixth Amendment will preclude
prosecution. RCM 707(d)(1)."
Dismissal of the charges is the only possible remedy for denying the
defendant a speedy trial. See STRUNK v. United States, 412 US 434, 37 LED2D 56.
Trial and Appellate Delays.
As mentioned, the government failed to prefer and arraign petitioner within
120 days. Under this delay, Mrs. Delfina Rivero became unavailable fo trial due
to leaving to Mexico to deal with a family emergency. Mrs. Delfina Rivero could
directly contradict the government's witnesses which asserted in court that
anything that Mrs. Delfina Rivero testified to would be true (See ROA 282)(See
also closing arguments by trial defense counsel in record of trial).
In this same fashion, appellate delay has prejudiced petitioner. Mr.
Ricardo Rivero is dead and Mrs. Delfina Rivero's last known whereabouts is in
Mexico. Petitioner has no way of knowing her whereabout. Petitioner would
require her testimony to present on appeal. Her presence and restimony is
important as petitioner was misinformed that there was no choice but to submit a
stipulation of fact or else have no witness or testimonies whatsoever (See ROA
282).
Also, petitioner no longer has possession of the car in question which
petitioner wanted to present for analysis to acquit him as petitioner's brother
had possession of this car after his parents). Further, appellate delay has
caused anxiety where petitioner's claims warrant dismissal of charges with
prejudice and at a minimum, require a substantial sentence reduction due to only
Additional Charge I remaining to which no more than 5 years confinement should
be approved for. Petitioner could have been eligible for parole at 3.3 years and
released aproximately (without parole) on supervision at 6 years with a sentence

1

of 10 years. (Petitioner receives 10 days GOT credit per month and 5 days work
abatement for every month worked. Petitioner has worked entire time he has been
confined).
Charges I, II, and III should have been dismissed under Article 10 and the
Sixth Amendment. Trial and Appellate defense counsel were also ineffective for
failing to address this. (See petitioner's IAC claims and cause/prejudice
arguments previously submitted).
RELIEF REQUESTED
Petitioner respecfully requests the writ be granted in petitioner's favor
as outlined (see at 521) including a statement "to include 110 months
confinement credit at pay grade of E-8 to include BAH at rate "with dependents"
and Hazardous duty pay, along with backpay of pay and allowances and increases
in rank in 2-year increments beginning with E-7 effective 25 February 2011 up to
E-9 effective 25 February 2015." To revoke the dishonorable discharge being null
and without effect and count all confined time as active duty for any and all
purposes to include retirement. Immediate release from confinement and allowed
to be stationed at Hurlburt Field, FL until eligible for retirement.
Alternatively, petitioner requests whatever relief this Honorable court deems
coorect except a retrial.
CERTIFICATE OF SERVICE
Petitioner affirms that the above and foregoing is true and that he has
mailed a true and correct copy of this motion first-class mail postage prepaid
to the Court of Appeals for the 5th Circuit. Signed under penalty of perjury. 28
USC 1746. This __ day of February, 2020.
Rafael Verdejo Ruiz
#17670-035
Case No. 19-40277

<-■

